<html>
<title> - THE PROPOSED VIRGIN ISLANDS CONSTITUTION FROM THE FIFTH CONSTITUTIONAL CONVENTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
THE PROPOSED VIRGIN ISLANDS CONSTITUTION FROM THE FIFTH CONSTITUTIONAL 
                              CONVENTION 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                       Wednesday, March 17, 2010

                               __________

                           Serial No. 111-49

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-534 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
George Miller, California            Robert J. Wittman, Virginia
Edward J. Markey, Massachusetts      Paul C. Broun, Georgia
Peter A. DeFazio, Oregon             John Fleming, Louisiana
Maurice D. Hinchey, New York         Mike Coffman, Colorado
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Cynthia M. Lummis, Wyoming
Diana DeGette, Colorado              Tom McClintock, California
Ron Kind, Wisconsin                  Bill Cassidy, Louisiana
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Vacancy

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Gregorio Sablan, Northern Marianas   John Fleming, Louisiana
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Bill Cassidy, Louisiana
Diana DeGette, Colorado              Doc Hastings, Washington, ex 
Ron Kind, Wisconsin                      officio
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
Vacancy
                                 ------                                















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 17, 2010........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     3
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     5
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................     6
        Prepared statement of....................................     6

Statement of Witnesses:
    Brady, Douglas A., Delegate, Fifth Constitutional Convention.    57
        Prepared statement of....................................    58
    Bryan, Adelbert M., Delegate, Fifth Constitutional Convention    38
        Prepared statement of....................................    40
    Cedarbaum, Jonathan G., Deputy Assistant Attorney General, 
      U.S. Department of Justice.................................     7
        Prepared statement of....................................     9
    de Jongh, Hon. John P., Jr., Governor, U.S. Virgin Islands...    15
        Prepared statement of....................................    18
    Emanuel, Gerard M., Delegate, Fifth Constitutional Convention    41
        Prepared statement of....................................    43
    Hassell-Habtes, Lois, Ph.D., Delegate, Fifth Constitutional 
      Convention.................................................    51
        Prepared statement of....................................    52
    James, Hon. Gerard Luz Amwur, II, President, Fifth 
      Constitutional Convention..................................    25
        Prepared statement of....................................    27
    Petersen, Eugene A., DVM, Delegate, Fifth Constitutional 
      Convention.................................................    53
        Prepared statement of....................................    55
    Richards, Hon. Usie R., Minority Leader, 28th Legislature of 
      the Virgin Islands.........................................    20
        Prepared statement of....................................    23


 OVERSIGHT HEARING ON ``THE PROPOSED VIRGIN ISLANDS CONSTITUTION FROM 
                 THE FIFTH CONSTITUTIONAL CONVENTION.''

                              ----------                              


                       Wednesday, March 17, 2010

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:10 p.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine 
Bordallo presiding.
    Present: Representatives Bordallo, Sablan, Christensen, 
Pierluisi, Young, and Flake.
    Ms. Bordallo. Good afternoon, everyone. For those who are 
standing in the back, we do have chairs on the lower dais here. 
You are more than welcome to be seated. The hearing by the 
Subcommittee on Insular Affairs, Oceans, and Wildlife will come 
to order. The Subcommittee is meeting today to receive 
testimony on the proposed constitution of the United States 
Virgin Islands submitted by the Fifth Virgin Islands 
Constitutional Convention.
    While Committee Rule 4(g) limits opening statements to the 
Chair and the Ranking Minority Member, in a few minutes, I 
intend to also recognize my good friend, the gentlewoman from 
the Virgin Islands, Dr. Christensen, to make a few opening 
remarks and to introduce her constituents who are here with us 
today. If any other Members have statements, they can be 
included in the hearing record under unanimous consent. I now 
will recognize myself for an opening statement.

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE IN CONGRESS 
                   FROM THE TERRITORY OF GUAM

    Ms. Bordallo. The United States Virgin Islands and the 
congressional district I have the privilege to represent here 
in Congress, the Territory of Guam, are the only two United 
States jurisdictions that are not governed by a constitution 
written by their people. Both areas are, in fact, governed by 
an organic act that was written by Congress.
    To more firmly enable both jurisdictions to write their own 
constitutions, Congress in 1976 enacted legislation, sponsored 
by the former Virgin Islands and Guam delegates, to authorize 
the people of the Virgin Islands and Guam to convene 
constitutional conventions and write their own local 
constitutions. The law, which was U.S. Public Law 94-584, sets 
out a process for Federal review of any proposed constitution, 
including 60-day periods for both Presidential and 
congressional review, respectively.
    The Virgin Islands has on four previous occasions written 
constitutions pursuant to local law and two in accordance with 
the U.S. Public Law 94-584. The first attempt was in 1964. It 
was not approved in its entirety by Congress, and the second in 
1971 was never submitted to Congress because of the low level 
of voter support when it was submitted to the people of the 
territory for their approval.
    The third draft constitution was submitted to Congress in 
1978, but was rejected by the voters when it was returned to 
them without having been amended. A fourth proposed 
constitution was drafted in 1980. Congress approved that 
document via a joint resolution in 1981, but it too was 
rejected by the voters, which brings us to the current document 
before us today.
    The law that authorized the writing of a constitution by 
the Virgin Islands and Guam empowers Congress with the ability 
to amend or clarify the said constitution should we see fit. 
Congress would also allow a proposed constitution to be 
returned to the residents of either territory for approval by 
the voters without changing the document in any way, as was 
done by the 96th Congress with a third proposed Virgin Islands 
constitution.
    In submitting the fifth proposed constitution to Congress, 
President Obama included for our consideration a legal 
memorandum from the United States Department of Justice which 
outlines at least eight areas in the proposed constitution that 
the Department believes should either be removed from the 
constitution or modified. We understand the witness for the 
Department of Justice today will elaborate on this further.
    The principal question confronting this committee and 
Congress is whether or not we will be able to modify or amend 
the draft constitution to conform to the recommendations of the 
Justice Department. In examining this question, we are mindful 
that the law authorizing this process for the drafting and the 
adoption of such constitution requires Congress to act within 
60 days.
    Regrettably, this window of time does not reflect the 
current realities as to the pace at which legislation of this 
nature would typically advance through the Congress, 
particularly with respect to recent experiences associated with 
bills pending in the other body, the U.S. Senate.
    Another consideration we are called to take into account is 
the amount that any congressional modification would have on 
the views of the voters in the Virgin Islands, whose 
constitution this is, and who will ultimately be called upon to 
approve or disapprove of it via referendum. In considering 
these circumstances, I am mindful of the words shared by the 
former Chairman of the Senate Energy and Natural Resources 
Committee, The Honorable J. Bennett Johnston of Louisiana, who 
when speaking at the hearing to approve the fourth proposed 
Virgin Islands constitution, said rather simply and 
straightforwardly, and I quote, ``This constitution should be 
the product of the people of the Virgin Islands, and I believe 
that we should defer to them,''
    His words are as relevant today with respect to the fifth 
constitution before us as they were with respect to the fourth 
constitution before Congress in 1981. Both documents have risen 
under the same process, so we must therefore take care not to 
substitute our judgment for those of the people who were 
elected to draft the constitution on behalf of the people who 
elected them, less the principle of self-government be trampled 
upon.
    As we hear from our witnesses today, including from a 
number of whom helped draft the constitution, it is my hope 
that a consensus will emerge on the best way forward, given the 
time constraints we are under and the limitations in getting 
legislation here in Congress duly acted upon without delay by 
the other body.
    I know that the people of the Virgin Islands want to have 
their own constitution, as evidenced by the decades worth of 
attempts that they have made to secure one. While this 
constitution may not be a perfect document, and this committee 
will go on record acknowledging its legal imperfections, it 
nonetheless is a product of a significant amount of hard work 
and, as such, deserves our most serious and careful attention, 
as well as that of the people of the Virgin Islands, who will 
ultimately be called upon to approve or disapprove it, 
irrespective of whether Congress takes any action on it or not.
    And finally, I want to thank the Governor and the other 
leaders who have submitted testimonies for our consideration. I 
also want to extend my sincerest welcome to those who have 
traveled from the Virgin Islands to be with us today. And I 
also acknowledge the steadfast leadership provided by your 
Member of Congress, our good friend, the distinguished 
gentlewoman, Dr. Donna Christensen. She is an ardent guardian 
of self-government and seeks at every opportunity to protect 
and advance the fundamental political rights of the people of 
the territories.
    This committee continues to value her leadership on these 
issues, and I know we will deliberate on this particular matter 
with appropriate deference to her insight. And so with that, we 
look forward to the testimonies.
    [The prepared statement of Chairwoman Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    The Subcommittee is meeting today to hear testimony on the proposed 
constitution of the United States Virgin Islands submitted by the 5th 
Virgin Islands Constitutional Commission.
    The United States Virgin Islands, like the Congressional District I 
have the privilege to represent here in Congress--Guam--are the only 
two U.S. jurisdictions that are not governed by a Constitution written 
by the people. Both areas are governed by an Organic Act that was 
written by Congress.
    To more firmly enable both jurisdictions to write their own 
Constitutions, Congress, in 1976, enacted legislation sponsored by 
former Virgin Islands Delegate, Congressman Ron de Lugo, and one of my 
predecessors, the late Congressman Antonio B. Won Pat, to authorize the 
people of the Virgin Islands and Guam to convene constitutional 
conventions and write their own local constitutions. The law, U.S. 
Public Law 94-528, sets out a process for federal review of any 
proposed constitution, including 60 day periods for both Presidential 
and Congressional review, respectively.
    The Virgin Islands has on four previous occasions, written 
constitutions, two pursuant to local law and two in accordance with 
U.S. Public Law 94-528. The first attempt, in 1964 was not approved in 
its entirety by Congress and the second in 1971 was never submitted to 
Congress because of the low level of voter support when it was 
submitted to the people of the territory for their approval. The third 
draft constitution was submitted to Congress in 1978 but was rejected 
by the voters when it was returned to them without having been amended. 
A fourth proposed constitution was drafted in 1980. Congress approved 
that document via a joint resolution in 1981 but it too was rejected by 
the voters: which brings us to the current document before us today.
    The law that authorized the writing of a Constitution by the Virgin 
Islands and Guam empowers Congress with the ability to amend or clarify 
the said constitutions should we see fit. Congress could also allow a 
proposed constitution to be returned to the residents of either 
territory for approval by the voters without changing the document in 
any way as was done by the 96th Congress with the third proposed Virgin 
Islands constitution.
    In submitting the fifth proposed constitution to Congress, 
President Obama included for our consideration a legal memorandum from 
the United States Department of Justice which outlines at least eight 
areas in the proposed constitution that the Department believes should 
either be removed from the constitution or modified. We suspect the 
witness for the Department of Justice will elaborate on this further.
    The principal question confronting this Committee and Congress is 
whether or not we will be able to modify or amend the draft 
constitution to conform to the recommendations of the Justice 
Department. In examining this question we are mindful that the law 
authorizing this process for drafting and adoption of such Constitution 
requires Congress to act within 60 days. Regrettably, this window of 
time does not reflect the current realities as to the pace at which 
legislation of this nature would typically advance through Congress, 
particularly with respect to recent experiences associated with bills 
pending in the other body.
    Another consideration we are called to take into account is the 
impact any Congressional modification would have on the view of the 
voters in the Virgin Islands whose Constitution this is, and who will 
ultimately be called upon to approve or disapprove of it via 
referendum. In considering these circumstances, I am mindful of the 
words shared by the former Chairman of the Senate Energy and Natural 
Resources Committee, The Honorable J. Bennett Johnston of Louisiana, 
who, when speaking at the hearing to approve the fourth proposed Virgin 
Islands constitution, said rather simply and straightforwardly--quote--
``This constitution should be the product of the people of the Virgin 
Islands and I believe that we should defer to them.'' End quote.
    His words are as relevant today with respect to the fifth 
constitution before us as they were with respect to the fourth 
constitution before Congress in 1981; both have risen under the same 
process. We must, therefore, take care not to substitute our judgment 
for those of the people who were elected to draft the constitution on 
behalf of the people who elected them, lest the principle of self-
government be trampled upon.
    As we hear from our witnesses today, including a number of whom 
helped draft the constitution, it is my hope that a consensus will 
emerge as to the best way forward given the time constraints we are 
under and the limitations in getting legislation duly acted upon 
without delay by the other body.
    I know that the people of the Virgin Islands want to have their own 
constitution as evidenced by the decades worth of attempts they have 
made to secure one. While this constitution may not be a perfect 
document, and this committee will go on record acknowledging its legal 
imperfections, it nonetheless is a product of a significant amount of 
hard work and as such deserves our most serious, careful attention as 
well as that of the people of the Virgin Islands who will ultimately be 
called upon to approve or disapprove it irrespective of whether 
Congress takes any action on it or not.
    Finally, I want to thank the Governor and other leaders who have 
submitted testimony for our consideration. I also want to extend my 
sincerest welcome to those that have traveled from the Virgin Islands 
to be with us today. I also want to acknowledge the steadfast 
leadership provided by your Member of Congress, our good friend, the 
distinguished gentlewoman, Dr. Donna Christensen. She is an ardent 
guardian of self-government and seeks at every opportunity to protect 
and advance the fundamental, political rights of the people of the 
territories. This Committee will continue to value her leadership on 
these issues, and I know will deliberate on this particular matter with 
appropriate deference to her insight. With that, I look forward to the 
testimonies.
                                 ______
                                 
    Ms. Bordallo. I would like at this time now to recognize 
the Representative from the Virgin Islands, The Honorable Donna 
Christensen.

  STATEMENT OF HON. DONNA CHRISTENSEN, A DELEGATE IN CONGRESS 
            FROM THE TERRITORY OF THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Madame Chair, and thank you 
for holding this hearing on the proposed constitution for the 
United States Virgin Islands. I just regret that we were unable 
to hold this hearing in the territory as first planned. It is 
my pleasure also to welcome the Governor of the U.S. Virgin 
Islands, The Honorable John P. deJongh, Jr., in his first 
appearance before our Subcommittee, as well as the Minority 
Leader of the 28th Legislature of the Virgin Islands, Senator 
Usie Richards, and the President of the Fifth Constitutional 
Convention, Gerard Luz James II, and all of the other delegates 
of the Fifth Constitution who are here today, and their staff, 
to discuss the draft document before Congress.
    Welcome also to Deputy Assistant Attorney General Jonathan 
Cedarbaum, and all of the Virgin Islanders who have joined us 
here in the audience to witness the hearing, as well as those 
who are listening on the web, television, or radio in the 
Virgin Islands or elsewhere.
    It has been almost 30 years since the people of the Virgin 
Islands last embarked upon the process of drafting a 
constitution to oversee the governance of our lives as a proud 
people of the United States Virgin Islands. As we are here to 
consider this proposed Fifth Constitution, many of the issues 
that were of concern 30 years ago are still of concern today.
    In particular, some sores that have been festering for all 
of those years have been opened once again, and so I am not, 
and none of us should be, surprised that this opportunity 
became one to attempt to address historic injustices and 
inequities, valued ancestry, culture, and tradition, and some 
of the yet unresolved issues surrounding political status.
    One may legitimately argue whether they properly belonged 
in this convention, where a constitution was being drafted for 
an incorporated territory. But when a people embark on an 
effort of self-determination at any level, some of these issues 
will arise. I acknowledge and appreciate that as elected 
delegates to the constitution, each has worked hard to reflect 
the wishes of the Virgin Islands electorate. And while there 
may be differences and disagreements, I feel their goal has 
always been to craft a document that reflects the collective 
views of the majority of the people of the Virgin Islands.
    On the other hand, though, I am conflicted because I do 
fundamentally believe that we owe the people of the Virgin 
Islands a document that is constitutionally sound within the 
context of our current relationship with the United States of 
America, as dictated by the authorizing legislation. The 
Justice Department representative will give its review findings 
in this regard.
    But I also respect the process by which all of the people 
of the Virgin Islands who are eligible had the opportunity to 
vote and elect 30 individuals who they vested with the 
responsibility of creating a document that would reflect their 
wishes, positions, hopes, and aspirations. And as happens here, 
the vote of the majority determines the outcome.
    The Subcommittee and I look forward to hearing your 
thoughts, reflections, and positions on the process and the 
provisions each of you deem important to the document. This 
Congress will give every consideration to what is presented to 
us here today and to the written testimony that will be 
submitted. It is my hope that this fifth attempt at drafting a 
constitution for the United States Virgin Islands, amended or 
not by us, or amended or not by a reconvened convention, that 
it will pass muster with the people of the Virgin Islands, and 
that we will have our own constitution at long last.
    At the point at which we adopt this constitution, or not, 
it seems clear to me that we can and must then revisit the 
issue of status. This process has shown the benefits and 
limitations of being an incorporated territory. Surely it can 
be the impetus and the basis for us to move forward with that 
more complex discussion. I am grateful to our Chairwoman for 
her legislation, which seeks to provide funding to help us with 
that process.
    Again, I want to welcome everyone who is here to testify on 
this issue of great importance to the people of the Virgin 
Islands. I look forward to your testimony. And, Madame Chair, 
at this time I would like to ask unanimous consent to enter 
statements from Caroline Brown and Gaylord Sprauve to be 
entered into the record.
    Ms. Bordallo. No objection, so ordered.
    Mrs. Christensen. Thank you.
    [NOTE: The statements submitted for the record have been 
retained in the Committee's official files.]
    Ms. Bordallo. I thank the gentlelady from the Virgin 
Islands for her statement. And now I would like to recognize 
the acting Ranking Member from Alaska, the gentleman Mr. Young.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Thank you, Madame Chairman, and thank you for 
having these hearings. I want to submit for the record my 
statement. I am here to listen to the witnesses and ask 
questions down the line. With that, Madame Chairman, I will 
yield back the balance of my time.
    Ms. Bordallo. No objection, so ordered to enter your 
statement.
    [The prepared statement of Mr. Young follows:]

  Statement of The Honorable Don Young, a Representative in Congress 
                        from the State of Alaska

    Madam Chairwoman, good afternoon. Today's hearing topic is the 
draft U.S. Virgin Islands constitution. This is the 5th draft 
constitution developed by a U.S. Virgin Islands Constitutional 
Convention and many of the witnesses here today were members of this 
Convention and can give us some insight into the development of the 
constitution.
    The U.S. Constitution, specifically, the Territories Clause, gives 
Congress the authority to govern territories. However, this does not 
mean that this authority should remain in perpetuity. Congress should 
assist the territories in developing and achieving to the greatest 
extent possible, as adopted and agreed to by their populace, 
territorial self-governance.
    Congress has passed an Organic Act and other laws for the U.S. 
Virgin Islands, which have started the process of greater self-
governance in the territory. However, these laws have been drafted by 
Congress and can only be changed by Congress. A constitution, if 
adopted by the U.S. Virgin Islands electorate, would allow the 
territory greater self-governance through its ability to amend its 
constitution based on territorial needs, without Congressional action.
    However, there are concerns with the submitted draft constitution. 
There are questions as to whether the document sufficiently recognizes 
U.S. sovereignty and the supremacy of certain provisions of the 
Constitution, treaties, and laws of the United States. In addition, 
there are a number of sections in the constitution that raise equal 
protection concerns.
    Congress, under Public Law 94-584, gave itself 60 legislative days 
to amend, modify or approve a constitution developed by U.S. Virgin 
Islands. If we do not act within this time frame, the constitution is 
deemed to be approved. I want to stress, that if Congress does not act, 
it should not be interpreted as an endorsement of any of the provisions 
that have raised constitutional concerns. If the U.S. Virgin Islands 
electorate votes to adopt the constitution, the concerns raised by the 
Justice Department will need to be resolved through federal 
legislation.
    Thank you, Madam Chairwoman.
                                 ______
                                 
    Ms. Bordallo. And I would just like to introduce the 
gentleman from Puerto Rico, Mr. Pedro Pierluisi. There will be 
questions later, and also Mr. Kilili Sablan from the CNMI. Both 
have joined us.
    And now we begin with our first group of witnesses, Mr. 
Jonathan G. Cedarbaum, Deputy Assistant Attorney General, 
Office of Legal Counsel, United States Department of Justice. 
And the next witness is The Honorable John P. deJongh, Governor 
of the United States Virgin Islands. Welcome, Governor. And The 
Honorable Usie R. Richards, the Minority Leader of the 28th 
Legislature of the Virgin Islands. I welcome you as well. And 
The Honorable Gerard Luz James II, the President of the Fifth 
Constitutional Convention. And coincidentally, I would note 
that Mr. James and I served as Lieutenant Governors together in 
the 1990s. And welcome to you, Lieutenant Governor.
    I want to thank you all and to remind you that there is a 
red timing light on the table, which will indicate when your 
time is concluded. And we would appreciate your cooperation in 
complying with the limits that have been set, as we have many 
witnesses to hear from today. But be assured that your full 
written statement will be submitted for the hearing record.
    I would like to mention to the Governors and the elected 
officials of the Virgin Islands, if you go a few minutes over 
the five minutes, we will not mind that. I was once a 
Lieutenant Governor.
    Mr. Cedarbaum, we will begin with your testimony. Thank you 
for your presence today on behalf of the Administration, and 
you now may begin.

 STATEMENT OF JONATHAN G. CEDARBAUM, DEPUTY ASSISTANT ATTORNEY 
  GENERAL, OFFICE OF LEGAL COUNSEL, U.S. DEPARTMENT OF JUSTICE

    Mr. Cedarbaum. Thank you, Chairwoman Bordallo, acting 
Ranking Member Young, and other members of the Subcommittee. My 
name is Jonathan Cedarbaum. I am a deputy assistant attorney 
general in the office of legal counsel at the Department of 
Justice. I am honored to appear before you this afternoon to 
discuss the proposed constitution for the U.S. Virgin Islands, 
which was recently drafted by a constitutional convention in 
the Virgin Islands.
    As you know, and as the Chairwoman indicated, Public Law 
94-584 establishes a process by which the people of the U.S. 
Virgin Islands can adopt a constitution for their own local 
self-government. In accord with that process, the Fifth 
Constitutional Convention of the U.S. Virgin Islands drafted a 
proposed constitution last year and submitted it to the 
Governor of the Virgin Islands. The Governor forwarded the 
proposed constitution to President Obama. President Obama then 
transmitted the proposed constitution to Congress with his 
comments.
    As President Obama stated in his letter of transmittal, the 
electorate of the Virgin Islands and its governmental 
representatives are to be commended for their continuing 
commitment to increasing self-government and the rule of law. 
As the President also indicated in his letter of transmittal, 
in carrying out his responsibilities under Public Law 94-584, 
he asked the Department of Justice, in consultation with the 
Department of the Interior, to write its views about the 
proposed constitution.
    The Department provided those views in the form of a 
memorandum from the Assistant Attorney General for Legislative 
Affairs to the Office of Management and Budget, and the 
President attached the copy of the Department's memorandum to 
his letter of transmittal.
    As the President noted, and as the Chairwoman noted, the 
Department of Justice's memorandum analyzed several features of 
the proposed constitution, including, first, the absence of an 
express recognition of United States sovereignty and the 
supremacy of Federal law; second, provisions for a special 
election on the USVI's territorial status; third, provisions 
conferring legal advantages on certain groups defined by place 
and timing of birth, timing of residency, or ancestry; fourth, 
residence requirements for certain offices; fifth, provisions 
guaranteeing legislative representation of certain geographic 
areas; sixth, provisions addressing territorial waters and 
marine resources; seventh, imprecise language in certain 
provisions of the proposed constitution's bill of rights; 
eighth, the possible need to repeal certain Federal laws if the 
proposed USVI constitution were adopted; and ninth, the effect 
of congressional action or inaction on the proposed 
constitution.
    I would be happy to address any of these issues with you 
this afternoon. I should emphasize that our review was 
restricted to legal issues in light of the requirements of 
Public Law 94-548. The Department's memorandum does not address 
any questions of policy. Because I trust you have had some 
opportunity to review the Department's memorandum in advance of 
today's hearing, I will not attempt to summarize it in this 
opening statement. I would just briefly highlight three issues 
to which the Department suggested that changes in the proposed 
constitution might be considered.
    First, several provisions of the proposed constitution give 
special advantages to native Virgin Islanders and ancestral 
native Virgin Islanders. These provisions raise serious 
concerns under the Equal Protection Guarantee of the U.S. 
Constitution, which has been made applicable to the Virgin 
Islands by the revised Organic Act. Because we find it 
difficult to discern a legitimate governmental purpose that 
would be rationally advanced by these provisions, we recommend 
that they be removed.
    Second, the proposed constitution imposes substantial 
residence requirements on a number of USVI offices. In 
particular, it requires the Governor and Lieutenant Governor, 
judges and justices of the USVI Supreme Court and lower court, 
and the attorney general, inspector general, and members of the 
Political Status Advisory Commission to have been USVI 
residents for periods ranging from 5 to 15 years. These 
requirements, particularly those requiring more than five years 
raise potential equal protection concerns. Thus we would 
suggest that consideration be given to shortening their 
duration.
    Third, Article 12, Section 2 of the proposed constitution 
concerning preservation of natural resources, makes a number of 
assertions about USVI sovereignty or control over waters and 
submerged lands. The intended meaning and effect of this 
provision are not entirely clear, but to the extent that its 
reference to a claim of sovereignty over coastal waters is 
intended to derogate from the sovereignty of the United States 
over those waters, it is inconsistent with Federal law and 
should be removed or modified.
    In addition, by statute, the United States has, subject to 
certain exceptions, conveyed to the USVI its right, title, and 
interest in submerged lands, and mineral rights in those 
submerged lands out to three miles. Federal law also reserves 
to the United States exclusive management rights over fisheries 
within the exclusive economic zone. The proposed constitution 
must be made consistent with these Federal statutory mandates.
    Finally, while the last sentence of Article 12, Section 2 
acknowledges that the rights it addresses are alienable, we 
recommend modifying that language to make clearer that these 
matters are subject to Congress's plenary authority.
    I would like to emphasize that my statement has focused on 
three aspects of the proposed constitution that we believe 
Congress should consider revising because we believe that 
discussing those provisions would be most helpful to the 
Subcommittee as it considers what actions to take in response 
to the transmittal of the proposed constitution.
    Let me close by again echoing President Obama's letter of 
transmittal and commending the electorate of the Virgin Islands 
and its governmental representatives in their continuing 
commitment to increasing self-government and the rule of law. I 
would be happy to address any questions you may have, and I 
would be grateful if the Department's memorandum could be 
inserted in the record of this hearing immediately following 
this statement.
    Ms. Bordallo. No objection to that. So ordered.
    [The prepared statement of Mr. Cedarbaum follows:]

Statement of Jonathan G. Cedarbaum, Deputy Assistant Attorney General, 
                       U.S. Department of Justice

    Chairwoman Bordallo, Ranking Member Brown, Members of the 
Subcommittee:
    My name is Jonathan Cedarbaum. I am a Deputy Assistant Attorney 
General in the Office of Legal Counsel at the Department of Justice. I 
am honored to appear before you this afternoon to discuss the proposed 
constitution for the U.S. Virgin Islands (``USVI'') recently drafted by 
a constitutional convention in the Virgin Islands.
    As you know, Public Law 94-584 establishes a process by which the 
people of the U.S. Virgin Islands can adopt a constitution for their 
local self-government. In accord with that process, the Fifth 
Constitutional Convention of the U.S. Virgin Islands drafted a proposed 
constitution last year and submitted it to the Governor of the Virgin 
Islands. The Governor forwarded the proposed constitution to President 
Obama. President Obama then transmitted the draft. Constitution to the 
Congress with his comments. As the President indicated in his letter of 
transmittal, in carrying out his responsibilities under Public Law 94-
584 he asked the Department of Justice, in consultation with the 
Department of the Interior, to provide its views of the proposed 
constitution. The Department provided those views in the form of a 
memorandum from the Assistant Attorney General for Legislative Affairs 
to the Office of Management and Budget, and the President attached a 
copy of the Department's memorandum to his letter of transmittal.
    As the President also noted, the Department of Justice's memorandum 
analyzed several features of the proposed constitution, including: (1) 
the absence of an express recognition of United States sovereignty and 
the supremacy of federal law; (2) provisions for a special election on 
the USVI's territorial status; (3) provisions conferring legal 
advantages on certain groups defined by place and timing of birth, 
timing of residency, or ancestry; (4) residence requirements for 
certain offices; (5) provisions guaranteeing legislative representation 
of certain geographic areas; (6) provisions addressing territorial 
waters and marine resources; (7) imprecise language incertain 
provisions of the proposed constitution's bill of rights; (8) the 
possible need to repeal certain federal laws if the proposed USVI 
constitution is adopted; and (9) the effect of congressional action or 
inaction on the proposed constitution. I would be happy to address any 
of these issues with you this afternoon. I should emphasize that our 
review was limited to a review of legal issues in light of the 
requirements established by Public Law 94-548. The Department's 
memorandum does not address any questions of policy.
    Because I trust you have had some opportunity to review the 
Department's memorandum in advance of today's hearing, I will not 
attempt to summarize in this opening statement the analysis it provides 
of all of these issues. I would just briefly discuss the three issues 
as to which the Department suggested that changes in the proposed 
constitution should be considered.
A.  Provisions Concerning ``Native Virgin Islanders'' and ``Ancestral 
        Native Virgin Islanders''
    First, several provisions of the proposed constitution give special 
advantages to ``Native Virgin Islanders'' and ``Ancestral Native Virgin 
Islanders.'' These provisions raise serious concerns under the equal 
protection guarantee of the U.S. Constitution, which has been made 
applicable to the USVI by the Revised Organic Act, see 48 U.S.C. 
Sec. 1561 (2006). Because we find it difficult to discern a legitimate 
governmental purpose that would be rationally advanced by these 
provisions conferring legal advantages on certain groups defined by 
place and timing of birth, timing of residency, or ancestry, we 
recommend that these provisions be removed from the proposed 
constitution.
    In Article III, section 2, the proposed constitution would define 
``Native Virgin Islander'' to mean (1) ``a person born in the Virgin 
Islands after June 28, 1932,'' the enactment date of a statute 
generally extending United States citizenship to USVI natives residing 
in United States territory as of that date who were not citizens or 
subjects of any foreign country, see Act of June 28, 1932, ch. 283, 47 
Stat. 336 (now codified at 8 U.S.C. 1406(a)(4) (2006)); and (2) a 
``descendant[] of a person born in the Virgin Islands after June 28, 
1932.'' ``Ancestral Native Virgin Islander'' would be defined as: (1) 
``a person born or domiciled in the Virgin Islands prior to and 
including June 28, 1932 and not a citizen of a foreign country pursuant 
to 8 U.S.C. [Sec. ] 1406,'' the statute governing United States 
citizenship of USVI residents and natives; (2) ``descendants'' of such 
individuals; and (3) ``descendants of an Ancestral Native Virgin 
Islander residing outside of the U.S., its territories and possessions 
between January 17, 1917 and June 28, 1932, not subject to the 
jurisdiction of the U.S. and who are not a citizens [sic] or a subjects 
[sic] of any foreign country.'' Proposed Const, art. III, Sec. 1. 
<SUP>1</SUP>
---------------------------------------------------------------------------
    \1}\The third prong of this definition appears circular insofar as 
it defines ``Ancestral Native Virgin Islander'' in terms of descendants 
of ``Ancestral Native Virgin Islanders'' (a category of people already 
encompassed by the definition's second prong), and it is also 
grammatically ambiguous with respect to whether the qualifying terms 
modify the ``descendants'' or the ``Ancestral Native Virgin Islander'' 
from whom they are descended.
    We think it clear that these classifications could not be 
considered tribal within the meaning of the Indian Commerce Clause, 
U.S. Const. art. I, Sec. 8, el. 3, that is, as falling within the 
established body of law defining the special relationship between 
aboriginal peoples of the United States and the Federal Government. In 
any event, that Clause empowers Congress, not the government of the 
Virgin Islands.
---------------------------------------------------------------------------
1. Property Tax Exemption for Ancestral Native Virgin Islanders
    Under the proposed constitution, the USVI legislature would be 
authorized to impose real property taxes, but ``[n]o Real Property tax 
shall be assessed on the primary residence or undeveloped land of an 
Ancestral Native Virgin Islander.'' Proposed Const. art. XI, Sec. 5(g). 
The property tax exemption for Ancestral Native Virgin Islanders raises 
serious equal protection concerns. The Equal Protection Clause of the 
Fourteenth Amendment, which has been extended to the USVI by statute, 
see 48 U.S.C. Sec. 1561 (2006), <SUP>2</SUP> generally requires only 
that legislative classifications be rationally related to a legitimate 
governmental purpose. See, e.g., Heller v. Doe, 509 U.S. 312, 319-20 
(1993). But the proposed constitution does not identify a legitimate 
governmental purpose that the real property tax exemption for Ancestral 
Native Virgin Islanders would further, and it is difficult for us to 
discern a legitimate governmental purpose that the exemption could be 
said to further.
---------------------------------------------------------------------------
    \2}\See also, e.g., Government of the Virgin Islands v. Davis, 561 
F.3d 159, 163-64 n.3 (3d. Cir. 2009) (recognizing applicability of the 
Fifth and Fourteenth Amendment Due Process Clauses to the USVI under 
the Revised Organic Act); Hendrickson v. Reg 0 Co., 657 F.2d 9, 13 n.2 
(3d Cir. 1981) (same); Moolenaar v. Todman, 433 F.2d 359, 359 (3d Cir. 
1970) (per curiam) (requiring adherence to ``the constitutional 
requirements of equal protection of the law'' in the USVI).
---------------------------------------------------------------------------
    The definition of Ancestral Native Virgin Islander appears to 
combine two sub-classes: (i) individuals born or domiciled in the USVI 
before a certain date and (ii) descendants of such persons. The first 
sub-class may include many long-time residents of the USVI, but to the 
extent the real property tax exemption is designed to benefit such 
long-time residents it raises serious equal protection concerns. The 
Supreme Court has held that statutes limiting benefits, including 
property tax exemptions, to citizens residing in a jurisdiction before 
a specified date are not rationally related to any legitimate 
governmental purpose. For example, in Hooper v. Bernalillo County 
Assessor, 472 U.S. 612 (1985), the Court held that a New Mexico 
property tax exemption applicable only to Vietnam War veterans who 
resided in the state before a certain date violated equal protection by 
``creat[ing] two tiers of resident Vietnam veterans, identifying 
resident veterans who settled in the State after May 8, 1976, as in a 
sense `second-class citizens. ' Id. at 623. Explaining that ``singling 
out previous residents for the tax exemption[] [and] reward[ing] only 
those citizens for their `past contributions' toward our Nation's 
military effort in Vietnam'' was ``not a legitimate state purpose,'' 
the Court held that the tax exemption violated the Equal Protection 
Clause by ``creat[ing] fixed, permanent 
distinctions...between...classes of concededly bona tide residents. ' 
id. at 622-23 (quoting Zobel v. Williams, 457 U.S. 55, 59 (1982)). 
<SUP>3</SUP>
---------------------------------------------------------------------------
    \3}\See also, e.g., Att'y Gen. of N.Y. v. Soto-Lopez, 476 U.S. 898, 
909, 911 (1986) (plurality opinion) (applying heightened scrutiny to 
invalidate civil service employment preference limited to veterans who 
lived 'in the state when they entered the armed forces); id. at 913 
(Burger, C.J., concurring in judgment) (same under rational basis 
review); Bunyan v. Camacho, 770 F.2d 773, 776 (9th Cir. 1985) 
(invalidating law enacted by Guam legislature awarding certain 
retirement credits for higher education degrees to Guam civil servants 
only if they resided in Guam before pursuing the degree).
---------------------------------------------------------------------------
    Moreover, even as to this sub-class, the real property tax 
exemption proposed here appears to be even less constitutionally 
justifiable than benefits for long-time residents. In Nordlinger v. 
Hahn, 505 U.S. 1 (1992), the Supreme Court upheld a California real 
property valuation system that disfavored newer purchasers (though not 
necessarily newer or longer-term residents), and the Court recognized 
as legitimate two governmental interests for such a system: ``local 
neighborhood preservation, continuity, and stability,'' id. at 12, and 
honoring the reliance interests of long-time property owners, id. at 
12-13. To the extent that those interests might be offered in defense 
of tax benefits for long-time residents or property owners, they cannot 
justify the real property tax exemption for Ancestral Native Virgin 
Islanders. Neither of those interests appears to be rationally 
furthered by the first sub-class included in the proposed property tax 
exemption for Ancestral Native Virgin Islanders because membership in 
that sub-class is defined neither by length of residence nor even by 
length of property ownership in the USVI, but simply by having been 
born or having lived in the USVI many years ago. Thus, for example, an 
individual born in the USVI on June 28, 1932, who left the Islands the 
following year and who moved back to the Islands and bought a home 
there 50 years later (or who simply bought an undeveloped piece of land 
there 50 years later) would be entitled to immunity from real property 
taxes even though an individual who had spent his or her whole life in 
the USVI and had owned the same home there for the past 50 years, but 
who had been born there of parents who had arrived in the USVI as 
immigrants on June 29, 1932, would not be so shielded. How a system 
permitting this kind of discrimination could be said to further 
neighborhood stability or reliance interests of long-time property 
owners is unclear.
    The second sub-class benefitted by the real property exemption for 
Ancestral Native Virgin Islanders also seems. difficult to justify as 
furthering a legitimate governmental interest, for the second sub-class 
is defined simply by parentage or ancestry. We need not delve into 
whether this use of ``ancestry'' in classifying citizens would be 
deemed ``suspect'' and thus subject to heightened scrutiny under the 
Fourteenth Amendment. See, e.g., Mass. Bd. of Retirement v. Murgia, 427 
U.S. 307, 312 & n.4 (1976) (per curiam) (identifying alienage, race, 
and ancestry as classifications subject to strict scrutiny). Again, it 
is unclear to us what legitimate governmental purpose would support 
favoring so starkly the descendants of individuals born or resident 
long ago in the USVI regardless of the descendants' own connections (or 
lack thereof) to the Islands.
2.  Provisions on Voting and Office-Holding Favoring Native Virgin 
        Islanders and Ancestral Native Virgin Islanders
    Provisions in the proposed constitution that limit certain offices 
and the right to vote in certain elections to Native Virgin Islanders 
and Ancestral Native Virgin Islanders or that guarantee members of 
those groups the right to participate in certain elections present 
similar issues. Under the proposed constitution, the positions of 
Governor and Lieutenant Governor would be open only to members these 
groups, see Proposed Const. art. VI, Sec. 3(d), as would service on the 
Political Status Advisory Commission, an eleven-member body composed of 
four appointed members and seven elected members that would promote 
awareness of the USVI's political status options and advise the 
Governor and legislature on ``methods to achieve a full measure of 
self-government.'' Id. art. XVII, Sec. Sec. 1(b), 3. The special 
election on ``status and federal relations options'' provided for under 
the proposed constitution would be ``reserved for vote by Ancestral 
Native and Native Virgin Islanders only, whether residing within or 
outside the territory.'' Id. art. XVII, Sec. 2. And the proposed 
constitution would guarantee that ``Ancestral and Native Virgin 
Islanders, including those who reside outside of the Virgin Islands or 
in the military, shall have the opportunity to vote on'' amendments to 
the USVI constitution. Id art. XVIII, Sec. 7. <SUP>4</SUP>
---------------------------------------------------------------------------
    \4}\The right to vote on such amendments does not appear to be 
limited to these groups, as the same provision requires that amendments 
be submitted ``to the electors of the Virgin Islands.'' Proposed Const. 
art. XVIII, Sec. 7. Although the term ``electors of the Virgin 
Islands'' is undefined, the proposed constitution elsewhere provides 
that ``[e]very citizen of the United States and the Virgin Islands 
eighteen (18) years of age or older and registered to vote in the 
Virgin Islands shall have the right to vote.'' Id. art. IV, Sec. 1. The 
separate provisions establishing special voting rights and 
opportunities for Ancestral Native Virgin Islanders and Native Virgin 
Islanders suggest that the term ``electors of the Virgin Islands'' 
refers to the broader group of eligible voters.
---------------------------------------------------------------------------
    The provisions concerning eligibility to vote in certain elections 
raise equal protection concerns. To the extent one might attempt to 
justify the limitation on the electorate for the special election on 
status options as akin to a durational residence requirement, we 
believe it is too restrictive to be so justified. Although the Supreme 
Court has upheld a very brief residential limitation on eligibility to 
vote in one instance based on a state's legitimate interest in 
``prepar[ing] adequate voter records and protect[ing] its electoral 
processes from possible frauds,'' Marston v. Lewis, 410 U.S. 679, 680 
(1973) (per curiam) (upholding 50-day durational residence 
requirement), it has held that even a requirement of one year's 
residence for voting, as opposed to office-holding, violates 
constitutional equal protection guarantees. See Dunn v. Blumstein, 405 
U.S. 330, 360 (1972) (invalidating state's requirement that voters have 
resided in the state for one year and the county for three months). 
Moreover, the classifications here are not based on length of 
residence, and their effects appear potentially arbitrary. As I 
discussed earlier, the categories of Ancestral Native Virgin Islanders 
and Native Virgin Islanders are based simply on place and timing of 
birth, the fact of having resided in the USVI before a certain date 
regardless of for how brief a time, or ancestry, regardless of the 
individual's own connection to the USVI. Thus, they could prohibit, for 
example, a foreign-born but life-long resident of the USVI from voting 
on political status, but would permit any qualifying ancestral 
descendant, including those who have never lived in the USVI, to do so. 
<SUP>5</SUP>
---------------------------------------------------------------------------
    \5}\5 Cf. Soto-Lopez, 476 U.S. at 915 (Burger, C.J., concurring in 
judgment) (discussing ``irrationality'' of law that ``would grant a 
civil service hiring preference to a serviceman entering the military 
while a resident of [the state] even if he was a resident only for a 
day,'' but that would deny the preference to a veteran ``who was a 
resident of [the state] for over 10 years before applying for a civil 
service position''); Dunn, 405 U.S. at 360 (concluding that the state 
interest in ``knowledgeable'' voters did not justify a durational 
residence requirement for voting because ``there is simply too 
attenuated a relationship between the state interest in an informed 
electorate and the fixed requirement that voters must have been 
residents in the State for a year and the county for three months''); 
Kramer v. Union Free School Dist. No. 15, 395 U.S. 621, 632 (1969) 
(rejecting, under strict scrutiny, restrictions on franchise for school 
board elections because ``[t]he classifications in [the statute] permit 
inclusion of many persons who have, at best, a remote and indirect 
interest in school affairs and, on the other hand, exclude others who 
have a distinct and direct interest in the school meeting decisions'').
---------------------------------------------------------------------------
    The proposed constitution's guarantee that Native Virgin Islanders 
and Ancestral Native Virgin Islanders ``resid[ing] outside of the 
Virgin Islands'' may vote on amendments to the USVI constitution also 
raises equal protection concerns. Proposed Const. art. XVIII, Sec. 7. 
To uphold inclusion of non-resident voters in local government 
elections against equal protection challenges, courts have required a 
showing that the non-resident voters have a ``substantial interest'' in 
the elections in question. <SUP>6</SUP> Because many non-resident 
Ancestral Native Virgin Islanders and Native Virgin Islanders may have 
no connection to the Islands apart from ancestry, it is unclear whether 
their inclusion in the electorate for USVI constitutional amendments 
would satisfy this standard.
---------------------------------------------------------------------------
    \6}\See, e.g., May v. Town of Mountain Village, 132 F.3d 576, 583 
(10th Cir. 1997) (upholding inclusion of nonresident property owners in 
town electorate because such voters ``have a substantial interest in 
township elections''); Board of County Commissioners of Shelby County, 
Tenn. v. Burson, 121 F.3d 244, 248-51 (6th Cir. 1997) (deeming 
participation of city voters in county school board elections 
irrational and thus impermissible under Fourteenth Amendment where city 
voters had their own independent school board and lacked a substantial 
interest in county school board elections); Hogencamp v. Lee County Bd. 
of Educ., 722 F.2d 720, 722 (11th Cir. 1984) (deeming city taxpayers' 
contribution of 2.74% of county school board's budget ``insufficient by 
itself to create a substantial interest in the city residents'' 
justifying their participation in county school board elections).
---------------------------------------------------------------------------
    Finally, although the residential duration requirements for 
Governor and Lieutenant Governor and members of the Political Status 
Advisory Commission would prevent non-resident individuals who qualify 
as Native Virgin Islanders or Ancestral Native Virgin Islanders from 
serving in those offices, it is unclear what legitimate governmental 
purpose would be advanced by narrowing the subset of longtime residents 
who could hold those offices to Native Virgin Islanders and Ancestral 
Native Virgin Islanders.
    In the absence of any identified legitimate governmental interest 
to support such provisions concerning voting and office-holding based 
on place of birth, residence many decades ago, or ancestry, we would 
again recommend that these provisions be removed from the proposed 
constitution. <SUP>7</SUP>
---------------------------------------------------------------------------
    \7}\Because we conclude that the restrictions on voting present 
clear equal protection concerns under the Fourteenth Amendment, we need 
not consider whether they may also violate the Fifteenth Amendment's 
prohibition on denial or abridgement of the right to vote ``on account 
of race, color, or previous condition of servitude.'' U.S. Const. 
amend. XV; see also 48 U.S.C. Sec. 1561 (extending Fifteenth Amendment 
to USVI).
---------------------------------------------------------------------------
B. Residence Requirements for Office-Holding
    Second, the proposed constitution imposes substantial residence 
requirements on a number of USVI offices. In particular, the Governor 
and Lieutenant Governor would be required to have been 
``dorniciliar[ies]'' of the USVI for at least fifteen years, ten of 
which ``must immediately precede the date of filing for office,'' 
Proposed Const. art. VI, Sec. 3(a); judges and justices of the USVI 
Supreme Court and lower court to be established under the proposed 
constitution would be required to have been ``domiciled'' in the USVI 
for at least ten years ``immediately preceding'' the judge or justice's 
appointment, id. art. VII, Sec. 5(b); the Attorney General and 
Inspector General would need to have resided in the USVI for at least 
five.years, id. art. VI, Sec. Sec. 10(a)(1), 11(a)(2); <SUP>8</SUP> and 
the members of the Political Status Advisory Commission would be 
required to have been ``domiciliaries'' of the USVI for ``a minimum of 
five years,'' id, art. XVII, Sec. 1(b). In addition, the proposed 
constitution would require that USVI Senators be ``domiciled'' intheir 
legislative district ``for at least one year immediately preceding the 
first date of filing for office.'' Id. art. V, Sec. 3(c).
---------------------------------------------------------------------------
    \8\ The proposed constitution appears ambiguous with respect to how 
this five-year period is determined. It provides: ``There shall be an 
Attorney General, who shall be appointed by the Governor with the 
advice and consent of the Senate, and a t the time of the appointment 
must...have resided in the Virgin Islands at least five (5) years next 
preceding his election.'' See Proposed Const. art. VI, Sec. 10(a)(1). 
Given that the Attorney General would be appointed rather than elected, 
the reference to the period ``next preceding his election'' seems 
unclear.
---------------------------------------------------------------------------
    These requirements, particularly those requiring more than five 
years of residence, raise potential equal protection concerns. The 
Supreme Court has summarily affirmed three decisions upholding five- to 
seven-year residence requirements for state senators and governors, see 
Chimento v. Stark, 353 F. Supp. 1211, 127 (D.N.H. 1973), aff'd, 414 
U.S. 802 (1973); Kanapaux v. Ellisor (D.S.C. unreported), aff'd, 419 
U.S. 891 (1974); Sununu v. Stark, 383 F. Supp. 1287 (D.N.H. 1974), 
aff'd, 420 U.S. 958 (1975), and lower courts have upheld relatively 
brief durational residency requirements for state or local offices, 
typically applying only rational basis review and deeming such laws 
adequately justified by the governmental interest in ensuring 
familiarity with local concerns. <SUP>9</SUP> But in some cases lower 
courts have struck down laws imposing residence requirements of five or 
more years on certain state or local offices. <SUP>10</SUP>
---------------------------------------------------------------------------
    \9}\See, e.g., City ofAkron v. Bell, 660 F,2d 166, 168 (6th Cir. 
1981) (one-year residence requirement for city council members); 
MacDonald v. City of Henderson, 818 F. Supp. 303, 306 (D. Nev. 1993) 
(one-year residence requirement for city council); Hankins v. Hawaii, 
639 F. Supp. 1552, 1556 (D. Hawaii 1986) (five-year residence 
requirement for Hawaii governor under state constitution); Schiavone v. 
DeStefano, 852 A.2d 862, 866-67 (Conn. Sup. Ct. 2001) (fiveyear 
residence requirement for city mayor); Civil Service Merit Bd of City 
of Knoxville v. Burson, 816 S.W.2d 725; 734 (Tenn. 1991) (one-year 
residence requirement for municipal civil service boards); State ex 
rel. Brown v. Summit County Bd. of Elections, 545 N.E.2d 1256, 125960 
(Ohio 1989) (two-year residence requirement for city council); 
Langmeyer v. Idaho, 656 P.2d 114, 118 (Idaho 1982) (five-year residence 
requirement for appointment to local planning and zoning board); cf. 
Thournir v. Meyer, 909 F.2d 408, 411 (10th Cir. 1990) (upholding under 
rational basis review state requirement that unaffiliated candidates 
have been registered as unaffiliated voters in the state for at least 
one year before filing for office); White v. Manchin, 318 S.E.2d 470, 
488, 491 (W.Va. 1984) (applying strict scrutiny based on the 
fundamental right ``to become a candidate for public office'' but 
upholding state constitutional requirement that state senators have 
resided in their district for at least one year before their election).
    \10}\See, e.g., Antonio v. Kirkpatrick, 579 F.2d 1147, 1151 (8th 
Cir. 1978) (invalidating tenyear residence requirement for State 
Auditor); Brill v, Carter, 455 F. Supp. 172, 174-75 (D. Md. 1978) 
(invalidating four-year residence requirement for members of county 
council); Billington v. Hayduk, 439 F. Supp. 975, 978-79 (S.D.N.Y;) 
(invalidating five-year residence requirement for county executive), 
aff'd on other grounds, 565 F.2d 824 (2d Cir. 1977); cf. Robertson v. 
Bartels, 150 F. Supp. 2d 691, 696, 699 (D.N.J. 2001) (applying strict 
scrutiny based on ``the combined right of persons to run for public 
office and the right of voters to vote for candidates of their choice'' 
and invalidating state requirement that state legislators have resided 
within their legislative districts for at least one year); Peloza v. 
Freels, 871 P.2d 687, 691 (Alaska 1994) (applying heightened scrutiny 
under state constitution and invalidating three-year residence 
requirement for city council).
    In Clements v. Fashing, 457 U.S. 957 (1982), a plurality of the 
Supreme Court observed that ``the existence of barriers to a 
candidate's access to the ballot `does not of itself compel close 
scrutiny,''' and that ``[d]ecision in this area of constitutional 
adjudication is a matter of degree, and involves a consideration of the 
facts and circumstances behind the law, the interests the State seeks 
to protect by placing restrictions on candidacy, and the nature of the 
interests of those who may be burdened by the restrictions.'' Id. at 
963 (plurality opinion) (quoting Bullock v. Carter, 405 U.S. 134, 143 
(1972)). Clements, however, did not involve durational residence 
requirements, but rather provisions requiring a waiting period or 
mandatory resignation before certain current state officeholders could 
seek new elective offices. See id. at 966-71. In another case, a 
concurring opinion, citing Chimento's approval of a seven-year 
residence requirement for a state governor, suggested that residence 
requirements may serve legitimate purposes, but this opinion did not 
elaborate on how long a period of prior residence may be required. See 
Zobel, 457 U.S. at 70 (Brennan, J., concurring) (observing that 
``allegiance and attachment may be rationally measured by length of 
residence...and allegiance and attachment may bear some rational 
relationship to a very limited number of legitimate state purposes'').
---------------------------------------------------------------------------
    Insofar as the territorial status and unique history and geography 
of the USVI make familiarity with local issues particularly important 
for office-holders there, the governmental interests supporting 
durational residence requirements for USVI offices may be particularly 
strong. <SUP>11</SUP> Yet at least some courts might consider the 
lengthy residence requirements hereparticularly the ten- or fifteen-
year periods required for USVI judges, Governors, and Lieutenant 
Governors-unjustified. <SUP>12</SUP> Accordingly, we would recommend 
that consideration be given to shortening the ten- and fifteen-year 
residence requirements for USVI Governors, Lieutenant Governors, and 
judges.
---------------------------------------------------------------------------
    \11}\See, e.g., Hankins, 639 F. Supp, at 1556 (observing that 
``[t]he State has a strong interest in the assurance that its governor 
will be a person who understands the conditions of life in Hawaii'' and 
that ``[t]his concern has `particular relevance in a small and 
comparatively sparsely populated state' (quoting Chimento, 353 F. Supp. 
at 1215)); cf. Bell, 660 F.2d at 168 (noting that ``the interests of [a 
state or local] governmental unit in knowledgeable candidates and 
knowledgeable voters may be served by differing lengths of durational 
residency requirements'').
    \12}\Cf. Clements, 457 U.S. at 963 (plurality opinion) (observing 
that ``[d]ecision in this area of constitutional adjudication is a 
matter of degree''); Summit County Bd. of Elections, 545 N.E.2d at 1260 
(upholding two-year residence requirement but deeming it ``conceivable 
that such a requirement may be too long in duration to serve a 
legitimate state interest'').
---------------------------------------------------------------------------
C.  Territorial Waters, Marine Resources, and Submerged Lands
    Third, Article Xii, Section 2, concerning ``Preservation of Natural 
Resources,'' states:
        The Government shall have the power to manage, control and 
        develop the natural and marine resources comprising of 
        submerged lands, inlets, and cays; to reserve to itself all 
        such rights to internal waters between the individual islands, 
        claim sovereignty over its inter-island waters to the effect 
        that the territorial waters shall extend 12 nautical miles from 
        each island coast up to the international boundaries. This is 
        an alienable right of the people of the Virgin Islands of the 
        U.S. and shall be safeguarded.
    The intended meaning and effect of this provision are not entirely 
clear. To the extent that its reference to a claim of ``sovereignty'' 
over coastal waters is intended to derogate from the sovereignty of the 
United States over those waters, it is inconsistent with federal law 
and should be removed. See Proclamation No. 5928, 54 Fed. Reg. 777 
(Jan. 9, 1989) (proclamation of U.S. territorial sea). In addition, by 
statute, the United States has, subject to certain exceptions, conveyed 
to the USVI its right, title, and interest in submerged lands and 
mineral rights in those submerged lands out to three miles. See 48 
U.S.C. Sec. Sec. 1705, 1706 (2006); see also, e.g., Proclamation No. 
7399, 66 Fed. Reg. 7364 (Jan. 22, 2001) (proclamation of Virgin Islands 
Coral Reef National Monument). Any assertion of USVI control over 
submerged lands and mineral rights beyond those federal statutory 
limits would be inconsistent with federal law and should be removed. 
Federal law also reserves to the United States exclusive management 
rights over fisheries within the ``exclusive economic zone.'' See 16 
U.S.C. Sec. 1811(a) (2006). Again, the proposed constitution must be 
made consistent with this federal statutory mandate, While the final 
sentence of Article Xll, Section 2 acknowledges that the rights it 
addresses are alienable, we recommend modifying this language to make 
clearer that these matters are subject to Congress's plenary authority. 
<SUP>13</SUP>
---------------------------------------------------------------------------
    \13}\After the Department of Justice had completed its memorandum, 
we received a copy of a letter from several members of the Fifth 
Constitutional Convention to Delegate Christensen in which they raised, 
among other things, a concern about another article in the proposed 
constitution addressing submerged lands. See Letter for Hon. Donna M. 
Christensen, from Craig Barshinger at al. (Jan. 29, 2010). Article XV, 
concerning ``Protection of the Environment,'' provides in Section 4:
    Submerged, Filled and Reclaimed Lands
    Submerged lands, filled and reclaimed lands in the Virgin Islands 
are public lands belonging collectively to the people of the Virgin 
Islands, and shall not be sold or transferred. The Virgin Islands of 
the United States cannot be sold or transferred.
    Because this provision comes in an Article on environmental 
protection and follows sections on establishing a land, air and water 
preservation commission and protecting public access to beaches, we 
understood it as directed at private owners. To the extent the second 
sentence could be read as purporting to limit Congress's power under 
the Territories Clause of the Constitution, see U.S. Const. art. IV, 
sec,, to transfer the USVI, we agree that it should be amended to 
remove any ambiguity on that score.
---------------------------------------------------------------------------
    I would like to emphasize that my statement has focused on three 
aspects of the proposed constitution that we believe Congress should 
consider revising because we believed that discussing those provisions 
would be most helpful to the subcommittee as its considers what action 
to take in response to the transmittal of the proposed constitution. 
Let me close by echoing President Obama's letter of transmittal in 
commending the electorate Virgin Islands and its governmental 
representatives in their continuing commitment to increasing self-
government and the rule of law,
    I would be happy to address any questions you may have. I would be 
grateful if the Department's memorandum could be inserted in the record 
of this hearing immediately following my statement.
                                 ______
                                 
    [NOTE: Memorandum submitted for the record has been retained in the 
Committee's official files.]

    Ms. Bordallo. Thank you, Mr. Cedarbaum, very much for your 
testimony. And I now have the privilege of recognizing the 
distinguished Governor from the Virgin Islands. Governor, thank 
you very much for traveling here to the Nation's Capital, 
although the Virgin Islands does not have as long a trip as 
Guam does, to be with us. And given your standing as Governor, 
in keeping with the tradition of our Subcommittee, please know 
that we will be considerate of your time and appreciate your 
highlighting and summarizing the key points for us to consider. 
Please proceed.

         STATEMENT OF HON. JOHN P. deJONGH, GOVERNOR, 
                      U.S. VIRGIN ISLANDS

    Governor deJongh. Thank you. Thank you, Madame Chair. Good 
afternoon. My name is John deJongh, and I am Governor of the 
United States Virgin Islands. On behalf of the people of the 
Virgin Islands, I want to thank you, Madame Chair, Ranking 
Member Young, and my friend, Delegate Christensen, for inviting 
me here to be heard on this issue of enormous political, 
emotional, and moral importance to me and to all Virgin 
Islanders.
    Let me begin by stating very clearly that I believe the 
development of a constitution for our territory is an extremely 
important milestone and goal for our citizens, and I look 
forward very much to the day when the Virgin Islands approves a 
constitution for all of the people to be proud of.
    With respect to the proposed Virgin Islands constitution 
that is before you, I am here today to reiterate my already 
express positions on the document, which for me has come down 
to a very simple and straightforward issue of civil rights. Our 
population hails from all parts of the Caribbean and all parts 
of the world. Those who are native Virgin Islanders, as well as 
those who come and live among us in the Virgin Islands, are and 
must be treated as equal, fully protected by the laws of the 
United States and the laws of the Virgin Islands.
    Virgin Islanders do not want to be treated, nor do we want 
our children treated, as second-class citizens when they come 
to the U.S. mainland, and you would not want to be treated or 
to have your children treated as second-class citizens if you 
or they moved to the United States Virgin Islands. That is why 
when the proposed constitution first came to me, I felt that it 
did not, under the terms of law that Congress had written, meet 
the standards that Congress had set, and indeed did not even 
qualify to be defined or treated as a constitution. It did not, 
could not, and does not now have my endorsement, my support, or 
my approval. And it is my belief and hope that it should not 
have your support either.
    The question then has become what do we do, how do we 
respond to a fundamentally flawed proposed constitution. I 
believe we must be guided first and foremost by the stated 
principle, well-said by our first President, George Washington, 
the basis for our political system is the right of the people 
to make their own constitutions of government.
    We the people of the Virgin Islands possess that right, 
formally conferred upon us by this body, but in truth rooted in 
the very sacred and inviolable American values that formed the 
foundation of our system of government that the founding 
fathers created over two centuries ago. As a native Virgin 
Islander, I believe with deep conviction the Virgin Islands 
will fully come into its own politically, economically, and 
culturally only when its people write and consider and ratify 
their own constitution, a constitution by, of, and for all 
people of the Virgin Islands.
    At the same time, I am chief executive of the government of 
the Virgin Islands. In that capacity, I swore an oath before 
God to support, obey, and defend both the laws of the Virgin 
Islands and the constitution and the laws of the United States. 
As a native Virgin Islander and as an American, I believe these 
twin obligations are not and cannot be inconsistent, and it is 
for that reason that I took the very strong position that the 
proposed constitution of the United States Virgin Islands 
presently before you is not acceptable, and it is, in fact, 
unconstitutional on its face.
    First, as I referenced earlier, the proposed constitution 
fails to recognize the supremacy of the Constitution and the 
laws of the United States. The Department of Justice has 
concluded that despite the omission of any express recognition 
of U.S. constitutional supremacy, the proposed constitution is 
in substantial compliance with the statutory requirements. 
Perhaps so. But that substantial compliance, such as it is, 
does nothing to correct the political and the symbolic harm 
created by the convention's conscious and deliberate decision 
not to expressly recognize the supremacy of the Constitution 
and laws of the country for which the Virgin Islands is a proud 
part.
    Second, the proposed constitution openly creates invidious 
distinctions among the people of the Virgin Islands. Third, the 
proposed constitution is inconsistent with the principles of 
one-person, one-vote that lies at the heart of the concept of 
equality in our democracy. Under the proposed constitution, the 
people of the Virgin Islands would be divided into those who 
carry full privileges of the Virgin Islands and those who do 
not, between those who are eligible to serve the people, and 
those who are not. Such classifications could not be more 
contrary to the most fundamental of all American values, the 
self-evident truth that all men are created equal, are endowed 
by their creator with certain inalienable right, are entitled 
to equal protection of the laws.
    The proposed constitution, with its carveouts and special 
preferences, assails these fundamental values. As a matter of 
U.S. constitutional law it is indefensible, as a political act 
it is divisive, and as a matter of history it is a dangerous 
step backwards in our centuries-long struggle, which has been 
joined by generations of Virgin Islanders for full and equal 
civil rights.
    In addition to speaking to you about the proposed 
constitution and highlighting those areas of grave concern to 
me as Governor, I am also here to speak to you today just as 
importantly about the next steps for the document before this 
committee. I want to state for the record with equal conviction 
my opinion and desires for the next steps in this process, 
which are to be exercised by this Congress.
    Congress has the authority to empower, to modify in part or 
in whole, the proposed constitution before you. Congress indeed 
has the power implicit in the statute and inherent in its 
legislative authority to reject the proposed constitution 
outright. If this should end up being the decision of this 
Congress, that we will abide by such and begin the process anew 
with an even stronger determination to ensure that a 
constitution is produced by a future constitutional convention 
that focuses on and supports the rights of all citizens of the 
Virgin Islands.
    However, with respect to the modifications to the currently 
proposed constitution, I want to request clearly very clearly 
that the committee avoid such an option. As you know, the 
Minority Members of the USVI Constitutional Convention have 
urged this Congress to modify the proposed constitution in 
order to strip out its most offensive details and approve the 
document as amended.
    I have great respect and admiration for those Minority 
Members who have spoken on this matter. But I urge this 
committee to reach a different result. I believe it is critical 
to the continued political development of the Virgin Islands 
that our constitution when finally adopted be the product 
solely of the labors of the Virgin Islands. A constitution that 
has been edited by Congress, however good its intentions, will 
be seen in the territory as an exercise that runs contrary and 
counter to truth self-governance. It is my view that it falls 
to the people of the Virgin Islands to correct on its own the 
deficiencies so blatantly evident in the proposed constitution.
    Therefore, if this proposed constitution is not rejected 
based on its failure to meet the requirements of 
constitutionality, I would request at this juncture that you 
return the proposed constitution to the people of the Virgin 
Islands and leave it to them either accept or reject this 
document.
    I have made no secret of my views on this proposed 
constitution. I believe that the people should reject it. I 
also believe that they ultimately will. But I just as strongly 
believe that such a decision belongs with the people of the 
Virgin Islands.
    In conclusion, I would simply say this. I am a native 
Virgin Islander. I am also an American. Those identities are 
not separable. To be a Virgin Islander is to be an American. 
The overriding flow of the proposed constitution before you is 
that in an effort to recognize and honor the unique 
contributions of those of us who are natives, it would 
sacrifice the values that make us Americans. As a Virgin 
Islander, as an American, and as an office of the government 
sworn to support and defend the Constitution of the United 
States, I cannot countenance that result. I ask that Congress 
not do so either, while also allowing us the ability to 
determine our own political faith. Thank you.
    [The prepared statement of Governor deJongh follows:]

          Statement of The Honorable John de Jongh, Governor, 
                      United States Virgin Islands

    Good afternoon. My name is John de Jongh, and I am the Governor of 
the United States Virgin Islands. On behalf of the people of the Virgin 
Islands, I want to thank the Committee and my friend Delegate 
Christensen for inviting me here to be heard on this issue of enormous 
political, emotional and moral importance to me and to all Virgin 
Islanders.
    Let me begin by stating very clearly that I believe the development 
of a constitution for our Territory is an extremely important milestone 
and goal for our citizens and that I look very much forward to the day 
when the Virgin Islands approves a Constitution that all of our people 
can be proud of.
    With respect to the proposed Virgin Islands constitution that is 
before you, I am here today to reiterate my already expressed positions 
on the document which for me has come down to a very simple and 
straightforward issue of civil rights.
    Our population hails from all parts of the Caribbean and all parts 
of the world. Those who are native Virgin Islanders, as well as those 
who come to live among us in the Virgin Islands are, and must be, 
treated as equals--fully protected by the laws of the United States and 
the laws of the Virgin Islands. Virgin Islanders do not want to be 
treated, nor do we want our children treated as second class citizens 
when we come to the U.S. mainland and you would not want to be treated, 
or have your children treated as second class citizens if you or they 
move to the U.S. Virgin Islands.
    That is why, when the proposed constitution first came to me, I 
felt that it did not, under the terms of the law Congress had written, 
meet the standards that Congress had set, indeed that it did not even 
qualify to be defined and treated as a constitution. It did not, could 
not, and does not now, have my endorsement, my support or my approval. 
And it is my belief, and hope, that it should not have your support 
either.
    The question, then, has become what to do in response to a 
fundamentally flawed proposed constitution. I believe we must be 
guided, first and foremost, by a principle stated well by our first 
President, George Washington: ``the basis for our political system is 
the right of the people to make their own constitutions of 
government.''
    We, the people of the Virgin Islands, possess that right--formally 
conferred unto us by this body but in truth rooted in the very sacred 
and inviolable American values that form the foundation of our system 
of government as the Founding Fathers created it over two centuries 
ago.
    As a native Virgin Islander, I believe with deep conviction that 
the Virgin Islands will fully come into its own, politically, 
economically, and culturally, only when its people write, and consider, 
and ratify, their own constitution--a constitution by, of, and for all 
the people of the Virgin Islands.
    At the same time, I am the Chief Executive of the Government of the 
Virgin Islands. In that capacity I swore an oath before God to 
``support, obey and defend'' both ``the laws of the Virgin Islands'' 
and ``the Constitution and laws of the United States.'' As a native 
Virgin Islander and as an American, I believe these twin obligations 
are not, and cannot be, inconsistent. And it is for that reason that I 
took the very strong position that the proposed Constitution of the 
United States Virgin Islands presently before you is not acceptable and 
is in fact unconstitutional on its face.
    First, as I referenced earlier, the proposed constitution fails to 
recognize the supremacy of the Constitution and laws of the United 
States. The U.S. Department of Justice has concluded that despite the 
omission of any express recognition of U.S. constitutional supremacy, 
the proposed constitution is in ``substantial compliance'' with the 
statutory requirements. Perhaps so. But that ``substantial 
compliance,'' such as it is, does nothing to correct the political and 
symbolic harm created by the convention's conscious and deliberate 
decision not to expressly recognize the supremacy of the constitution 
and laws of the country of which the Virgin Islands is a proud part.
    Second, the proposed constitution openly creates invidious 
distinctions among the people of the Virgin Islands.
    Third, the proposed constitution is inconsistent with the principle 
of ``one person, one vote'' that lies at the heart of the concept of 
equality in our democracy. Under the proposed constitution, the people 
of the Virgin Islands would be divided into those who carry full 
privileges of the Virgin Islands, and those who do not; between those 
who are eligible to serve the people, and those who are not. Such 
classifications could not be more contrary to the most fundamental of 
all American values: the self-evident truth that all men are created 
equal, are endowed by their Creator with certain inalienable rights, 
and are entitled to the equal protection of the laws.
    The proposed constitution, with its carve-outs and special 
preferences, assails these fundamental values. As a matter of U.S. 
Constitutional law, it is indefensible; as a political act, it is 
divisive; and as a matter of history, it is a dangerous step backwards 
in our centuries-long struggle, which has been joined by generations of 
Virgin Islanders, for full and equal civil rights.
    In addition to speaking to you about the proposed constitution and 
highlighting those areas of grave concern to me as Governor, I am also 
here today to speak to you, just as importantly about the next steps 
for the document before this Committee. I want to state for the record, 
with equal conviction, my opinion and desires for the next steps in 
this process which are to be exercised by this Congress.
    Congress has the authority and power to modify, in part, or in 
whole, the proposed constitution before you. Congress indeed has the 
power, implicit in the statute and inherent in its legislative 
authority, to reject the proposed constitution outright. If this should 
end up being the decision of this Congress then we will abide by such 
and begin the process anew with an even stronger determination to 
ensure that any constitution produced by a future constitutional 
convention focuses on, and supports, the rights of all the citizens of 
the Virgin Islands.
    However, with respect to modifications to the currently proposed 
constitution, I want to request very clearly that the Committee avoid 
such an option. As you know, the minority members of the USVI 
Constitutional Convention have urged this Congress to modify the 
proposed constitution in order to strip out its most offensive details, 
and approve the document, as amended.
    I have great respect and admiration for those minority members who 
have spoken out on this matter; but I urge this Committee to reach a 
different result. I believe it is critical to the continued political 
development of the Virgin Islands that our constitution, when finally 
adopted, be the product solely of the labors of Virgin Islanders.
    A constitution that has been edited by Congress, however good its 
intentions, will be seen in the Islands as an exercise that runs 
contrary and counter to true local self-governance.
    It is my view that it falls to the people of the Virgin Islands to 
correct, on our own, the deficiencies so blatantly evident in the 
proposed constitution. Therefore if this proposed constitution is not 
rejected based on its failure to meet the requirements of 
constitutionality, I would request, at this juncture, that you return 
the proposed constitution to the people of the Virgin Islands and leave 
it to them to either accept, or reject this document.
    I have made no secret of my views on this proposed constitution. I 
believe that the people should reject it, and also believe that they 
ultimately will. But I just as strongly believe that such a decision 
belongs with the people of the Virgin Islands.
    In conclusion, I would simply say this. I am a native Virgin 
Islander. I am also an American. Those identities are not separable: to 
be a Virgin Islander is to be an American. The overriding flaw of the 
proposed constitution before you is that, in its effort to recognize 
and honor the unique contributions of those of us who are natives, it 
would sacrifice the values that make us Americans.
    As a Virgin Islander, as an American, and as an officer of the 
government sworn to support and defend the Constitution of the United 
States, I cannot countenance that result. I ask that Congress not do so 
either while also allowing us the ability to determine our own 
political fate.
    Thank you
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Governor, for your 
statement. And, Senator Richards, we welcome your testimony, 
and you are now recognized for five minutes.

   STATEMENT OF HON. USIE R. RICHARDS, MINORITY LEADER, 28TH 
               LEGISLATURE OF THE VIRGIN ISLANDS

    Mr. Richards. Good afternoon. I am Usie R. Richards, a 
senator and Minority Leader of the 28th Legislature of the 
Virgin Islands. I want to begin by thanking you for your 
invitation to share my views. Let me state from the onset, I 
stand firmly on the principle that the process should ensure 
that the document developed by the citizens and registered 
voters of the Virgin Islands, who were elected to the Fifth 
Constitutional Convention by registered voters throughout the 
unincorporated territory of the Virgin Islands be given the 
opportunity to be voted upon by the voters that began this 
process through its elected representatives in the 25th 
Legislature.
    Much has been said and written regarding a number of issues 
surrounding the content of the document, and today I intend to 
offer my perspective on what has transpired. I have no 
intention to declare what is correct or incorrect, but more 
importantly to provide a perspective that should aid this body 
in understanding the conditions and circumstances under which 
much of the documents content has evolved.
    I am reminded of my testimony shared before the Committee 
on Resources on May 17, 2000, as it related to H.R. 3999, a 
proposal clarifying the process for the adoption of local 
constitutional self-government for the Virgin Islands. The 
failure to act on recommendations made almost a decade ago 
continues to hamper the attempt of our populace to secure some 
greater level of self-government.
    Today, elected, appointed, and in some cases anointed 
members of our community remain entrenched in heated 
discussions and debates relating to this proposed constitution. 
Despite all of this, I understand the foundation that these 
issues have sat on for so many years. The Virgin Islands has 
been and remains today an incorporated territory of the United 
States, its subject matter best described by former Congressman 
Robert Underwood, from Guam, in his introduction of H.R. 1521, 
the Guam Commonwealth Bill. And he stated, ``Guam is currently 
an incorporated territory. An incorporated territory means that 
first, laws can be imposed upon the people of Guam without 
consultation; second, any local law can be abrogated by the 
U.S. Congress; third, U.S. citizenship can be taken away from 
the people of Guam; fourth, Guam can be bought, sold, or traded 
by the Federal Government; and fifth, Guam as a territory is in 
the truest sense a possession.'' All I ask you is to insert 
Virgin Islands in the place of Guam.
    When the members of the Fifth Constitutional Convention 
declared in its preamble, ``Assuming the responsibilities of 
self-government as an incorporated territory of the United 
States, as acknowledged by Assistant Attorney General Ronald 
Rich, this clearly illustrates the right and acknowledgment of 
United States sovereignty.'' I would hope that the learned 
amongst us would recognize that the term ``unincorporated 
territory'' clearly speaks to an entity that is subservient to 
and lacks the wherewithal to freely act on its own. Whether a 
statement is explicit or implicit becomes a matter of 
semantics.
    Likewise, the supremacy of Federal law is recognized by the 
Fifth Constitutional Convention, proposed with its inclusion of 
the relevance of the 1917 treaty between the United States and 
Denmark, and its recognition of the rights of U.S. court to 
review decisions of local courts under the U.S. Constitution 
and Federal laws. As concluded by Attorney Rich, we believe the 
proposed constitution is in substantial compliance with 
subsection 2(b)(1) of the enabling act.
    While I am cognizant of the trepidations that may have been 
created by the inclusion of language in the proposed 
constitution, addressing the issue of classifications based on 
place and timing of birth, timing of residence, and ancestry, I 
must remind you that much of this stems from prior actions of 
this body. This body has enacted laws to address education for 
the native Hawaiian and Alaskan in Public Law 103-382 of 1994. 
In the northern Marianas, this body has recognized the 
significance of restrictions of alienation of land in article 
12 of the commonwealth constitution, while giving special 
preference to Native American, Samoan, in 16 U.S. Code, chapter 
1, on national parks, military parks, monuments, and seashores. 
And Public Law 4-14 of 1952, entitled Free Nationality and 
Naturalization, this body went to great lengths to determine 
and define who shall be considered a citizen. If the person was 
born in Puerto Rico on or after April 11, 1899, born in the 
Canal Zone, or Republic of Panama after February 26, 1904, born 
in Alaska on or after March 20 of 1867, born in Hawaii on or 
after August 12 of 1898, living in and born Virgin Islands 
subsequent to January 17, 1917, and prior to February 25, 1927, 
and living in and born in Guam after April 11, 1889, and 
declared citizens of the U.S. as of August 1, 1950.
    Not only has this body exercised the authority as it 
relates to citizenship, but even in a case of public lands, in 
section 1601 of the Alaska Native Claims Act, this body has 
defined who ought to have the right to redress under this law. 
This inalienable right is further defined in section 3 of 
Public Law 92-203 of 1971, as it relates to the declaration of 
settlement in the State of Alaska. In H.R. 1056, section 102, 
this body not only recognized the inalienable right of self-
determination of the indigenous Chamorro people of Guam, but 
also allows for the constitution to establish reasonable 
residency requirements for the citizens of such commonwealth 
for the purposes of the right to vote in commonwealth elections 
or to hold any elected office by the constitution of Guam.
    This body has unlimited power over the unincorporated 
territory of the U.S. Virgin Islands. This body authorized 
citizenship to the indigenous people of the unincorporated 
territory of the Virgin Islands in 1927, a full 10 years after 
the 1917 purchase from Denmark, a citizenship that was not 
fully conferred until as late as 1940. Obviously, the enactment 
of congressional laws to protect or enhance the status of 
indigenous peoples in both possessions and states of the United 
States has created a sense and need to address the status of 
the indigenous in the Virgin Islands.
    The body has placed itself in the position to now address 
or redress the inequities created by the purchase of land with 
no real regard to the then occupants that resulted in 
uncontrolled population growth, outside economic dominance, 
deterioration of our social mores, and an infiltration of our 
political process. As a matter of fact, the Eastern Carribean 
Center of the University of the Virgin Islands in their 
research news from ECC inform us that there are some 58,786 
Virgin Island natives living in the United States in 2008. 
Since 1980, almost eight out of ten of all natives in the U.S. 
had migrated there. Between 1980 and 1989, 13,184 natives moved 
away. Between 1990 and 1999, 17,550 emigrated. And between 2000 
and 2009, 15,143 natives took up residence in the States. This 
is according to the 2008 Community Service Public Use 
microdata.
    Accordingly, the Virgin Islands Community Service indicates 
that the total population of the Virgin Islands was 114,744. 
Simply put, the 58,786 Virgin Islands natives living in the 
United States represent more than half of the current resident 
population of the Virgin Islands. It is therefore conceivable 
why the writers of the proposed constitution gave great weight 
and consideration to native Virgin Islanders living abroad.
    The point is if this body can address such issues as 
citizenship, economics, social needs, property, settlements, 
trust lands, exclusive economic zones, education, alienation of 
land, parks, and others, then surely this body can ensure the 
inalienable rights of the indigenous people of the Virgin 
Islands to pursue greater self-government through the drafting, 
voting, and adoption of a constitution. I believe the annals of 
this body said it best. This is a matter to be considered by 
the voters, or perhaps at some future time by the courts.
    I urge you to allow the voters of the U.S. Virgin Islands 
to exercise some semblance of democracy by being able to 
consider the content developed by their duly elected members to 
the Fifth Constitutional Convention. I thank you for your time 
and your consideration.
    [The prepared statement of Mr. Richards follows:]

     Statement of The Honorable Usie R. Richards, Minority Leader, 
                 28th Legislature of the Virgin Islands

    GOOD AFTERNOON, CHAIRWOMAN BORDALLO, MEMBERS OF THE SUBCOMMITTEE ON 
INSULAR AFFAIRS, OCEANS AND WILDLIFE, MEMBERS OF CONGRESS AND ALL 
OTHERS, I AM USIE R. RICHARDS, A SENATOR AND THE MINORITY LEADER OF THE 
28TH LEGISLATURE OF THE VIRGIN ISLANDS. THANK YOU FOR YOUR INVITATION 
TO SHARE MY VIEWS ON THE PROPOSED CONSTITUTION THAT IS BEFORE YOU. LET 
ME STATE FROM THE ONSET, I STAND FIRMLY ON THE PRINCIPLE THAT THE 
PROCESS SHOULD ENSURE THAT THE DOCUMENT DEVELOPED BY THE CITIZENS AND 
REGISTERED VOTERS OF THE VIRGIN ISLANDS, WHO WERE ELECTED TO THE FIFTH 
CONSTITUTIONAL CONVENTION BY REGISTERED VOTERS THROUGHOUT THE 
UNINCOPORATED TERRITORY OF THE VIRGIN ISLANDS, BE GIVEN THE OPPORTUNITY 
TO BE VOTED UPON BY THE VOTERS THAT BEGAN THIS PROCESS THROUGH ITS 
ELECTED REPRESENTATIVES IN THE 26TH LEGISLATURE. MUCH HAS BEEN SAID AND 
WRITTEN REGARDING A NUMBER OF ISSUES SURROUNDING THE CONTENT OF THE 
DOCUMENT AND TODAY I INTEND TO OFFER MY PERSPECTIVE ON WHAT HAS 
TRANSPIRED. I HAVE NO INTENTION TO DECLARE WHAT IS CORRECT OR 
INCORRECT, BUT MORE IMPORTANTLY TO PROVIDE A PERSPECTIVE THAT SHOULD 
AID THIS BODY IN UNDERSTANDING THE CONDITIONS AND CIRCUMSTANCES UNDER 
WHICH MUCH OF THE DOCUMENT'S CONTENT HAS EVOLVED.
    I AM REMINDED OF MY TESTIMONY SHARED BEFORE THE COMMITTEE ON 
RESOURCES, CHAIRED BY REPRESENTATIVE DON YOUNG ON MAY 17, 2000, AS IT 
RELATED TO H.R. 3999, A PROPOSAL ``CLARIFYING THE PROCESS FOR THE 
ADOPTION OF LOCAL CONSTITUTIONAL SELF-GOVERNMENT FOR THE VIRGIN 
ISLANDS''. THE FAILURE TO ACT ON RECOMMENDATIONS MADE ALMOST A DECADE 
AGO CONTINUES TO HAMPER THE ATTEMPT OF OUR POPULACE TO SECURE SOME 
GREATER LEVEL OF SELF-GOVERNMENT IN THE VIRGIN ISLANDS.
    TODAY, ELECTED, APPOINTED AND IN SOME CASES ``ANNOINTED'' MEMBERS 
OF OUR COMMUNITY REMAIN ENTRENCHED IN HEATED DISUCSSIONS AND DEBATES 
RELATING TO THIS PROPOSED CONSTITUTION. DESPITE ALL OF THIS, I 
UNDERSTAND THE FOUNDATION THAT THESE ISSUES HAVE SAT ON FOR SO MANY 
YEARS. THE VIRGIN ISLANDS HAS BEEN, AND REMAINS TODAY, AN UNINCOPORATED 
TERRITORY OF THE UNITED STATES, A SUBJECT MATTER BEST DESCRIBED BY 
FORMER CONGRESSMAN ROBERT UNDERWOOD FROM GUAM IN HIS INTRODUCTION OF 
H.R.1521 THE GUAM COMMONWEALTH BILL. HE STATED, ``GUAM IS CURRENTLY AN 
UNINCORPORATED TERRITORY, AN UNICORPORATED TERRITORY MEANS THAT FIRST, 
LAWS CAN BE IMPOSED UPON THE PEOPLE OF GUAM WITHOUT CONSULTATION, 
SECOND, ANY LOCAL LAW CAN BE ABROGATED BY THE U.S. CONGRESS, THIRD, 
U.S. CITIZENSHIP CAN BE TAKEN AWAY FROM THE PEOPLE OF GUAM, FOURTH, 
GUAM CAN BE BOUGHT, SOLD OR TRADED BY THE FEDERAL GOVERNMENT, AND 
FIFTH, GUAM AS A TERRITORY IS IN THE TRUEST SENSE A POSSESSION''. WHEN 
THE MEMBERS OF THE 5TH CONSTITUTIONAL CONVENTION DECLARE IN ITS 
PREAMBLE, ``ASSUMING THE RESPONSIBLITIES OF SELF-GOVERNMENT AS AN 
UNINCOPORATED TERRITORY OF THE UNITED STATES'', AS ACKNOWLEGED BY 
ASSISTANT ATTORNEY GENERAL RONALD WEICH, THIS CLEARLY ILLUSTRATES THE 
WRITERS' ACKNOWLEDGEMENT OF UNITED STATES SOVEREIGNTY. I WOULD HOPE 
THAT THE LEARNED AMONGST US, WOULD RECOGNIZE THAT THE TERM 
``UNINCOPORATED TERRITORY'', CLEARLY SPEAKS TO AN ENTITY THAT IS 
SUBSERVIANT TO AND LACKS THE WHEREWITHAL TO FREELY ACT ON ITS OWN. 
WHETHER THE STATEMENT IS EXPLICIT OR IMPLICIT BECOMES A MATTER OF 
SEMANTICS.
    LIKEWISE, THE SUPREMACY OF FEDERAL LAW IS RECOGNIZED BY THE 5TH 
CONSTITUTIONAL CONVENTION, PROPOSED WITH ITS INCLUSION OF THE RELEVANCE 
OF THE 1917 TREATY BETWEEN THE UNITED STATES AND DENMARK AND ITS 
RECOGNITION OF THE RIGHTS OF U.S. COURTS TO REVIEW DECISIONS OF LOCAL 
COURTS UNDER THE U.S. CONSTITUTION AND FEDERAL LAWS. AS CONCLUDED BY 
ATTORNEY WEICH, ``WE BELIEVE THE PROPOSED CONSTITUTION IS IN 
SUBSTANTIAL COMPLIANCE WITH SUBSECTION 2(b)(1) OF THE ENABLING ACT''. 
WHILE I REMAIN COGNIZANT OF THE TREPIDATIONS THAT MAY HAVE BEEN CREATED 
BY THE INCLUSION OF LANGUAGE IN THE PROPOSED CONSTITUTION ADDRESSING 
THE ISSUE OF ``CLASSIFICATIONS BASED ON PLACE AND TIMING OF BIRTH, 
TIMING OF RESIDENCE, AND ANCESTRY'', I MUST REMIND YOU THAT MUCH OF 
THIS STEMS FROM PRIOR ACTIONS OF THIS BODY. THIS BODY HAS ENACTED LAWS 
TO ADDRESS EDUCATION FOR THE NATIVE HAWAIIAN AND ALASKAN IN ``P.L. 103-
382 OF OCTOBER 20, 1994''. IN THE NORTHERN MARIANAS THIS BODY HAS 
RECOGNIZED THE SIGNIFICANCE OF RESTRICTIONS OF ALIENATION OF LAND IN 
``ARTICLE XII OF THE COMMONWEALTH CONSTITUTION'', WHILE GIVING SPECIAL 
PREFERENCE TO THE NATIVE AMERICAN SAMOAN IN ``16 USC, CHAPTER 1 ON 
NATIONAL PARKS, MILITARY PARKS, MONUMENTS, AND SEASHORES''. IN P.L. 
414-JUNE 27, 1952 IN TITLE III-NATIONALITY AND NATURALIZATION, THIS 
BODY WENT TO GREAT LENGTHS TO DETERMINE AND DEFINE WHO SHALL BE 
CONSIDERED A CITIZEN, ``IF THE PERSON WAS BORN IN PUERTO RICO ON OR 
AFTER APRIL 11, 1899; BORN IN THE CANAL ZONE OR REPUBLIC OF PANAMA 
AFTER FEBRUARY 26, 1904; BORN IN ALASKA ON OR AFTER MARCH 20, 1867; 
BORN IN HAWAII ON OR AFTER AUGUST 12, 1898; LIVING IN AND BORN IN THE 
VIRGIN ISLANDS SUBSEQUENT TO JANUARY 17, 1917, AND PRIOR TO FEBRUARY 
25, 1927; AND LIVING IN AND BORN IN GUAM AFTER APRIL 11, 1899 AND 
DECLARED CITIZENS OF THE U.S. AS OF AUGUST 1, 1950''. NOT ONLY HAS THIS 
BODY EXERCISED THEIR AUTHORITY AS IT RELATES TO CITIZENSHIP, BUT EVEN 
IN THE CASE OF PUBLIC LANDS IN ``SECTION 1601 OF THE ALASKA NATIVE 
CLAIMS ACT'' THIS BODY HAS DEFINED WHO OUGHT TO HAVE THE RIGHT TO 
REDRESS UNDER THIS LAW. THIS INALIENABLE RIGHT IS FURTHER DEFINED IN 
``SECTION 3, OF P.L. 92-203 OF DECEMBER 18, 1971'', AS IT RELATES TO 
THE DECLARATION OF SETTLEMENT IN THE STATE OF ALASKA. IN ``H.R. 1056 
IH, SECTION 102''., THIS BODY NOT ONLY RECOGNIZES THE INALIENABLE RIGHT 
OF SELF-DETERMINATION OF THE INDIGENOUS CHAMARRO PEOPLE OF GUAM, BUT 
ALSO ALLOWS FOR ``THE CONSTITUTION TO ESTABLISH REASONABLE RESIDENCY 
REQUIREMENTS FOR THE CITIZENS OF SUCH COMMONWEALTH FOR THE PURPOSES OF 
THE RIGHT TO VOTE IN COMMONWEALTH ELECTIONS OR TO HOLD ANY ELECTIVE 
OFFICE BY THE CONSTITUTION OF GUAM''.
    THIS BODY HAS UNLIMITED POWER OVER THE UNINCOPORATED TERRITORY OF 
THE VIRGIN ISLANDS. THIS BODY AUTHORIZED CITIZENSHIP TO THE INDIGENOUS 
PEOPLE OF THE UNINCOPORATED TERRITORY OF THE VIRGIN ISLANDS IN 1927, A 
FULL TEN YEARS AFTER THE 1917 PURCHASE FROM DENMARK, A CITIZENSHIP THAT 
WAS NOT FULLY CONFERRED UNTIL AS LATE AS 1940. OBVIOUSLY, THE ENACTMENT 
OF CONGRESSIONAL LAWS TO PROTECT OR ENHANCE THE STATUS OF INDIGENOUS 
PEOPLES IN BOTH POSSESSIONS AND STATES OF UNITED STATES HAS CREATED THE 
SENSE AND NEED TO ADDRESS THE STATUS OF THE INDIGENOUS IN THE VIRGIN 
ISLANDS. THIS BODY HAS PLACED ITSELF IN THE POSITION TO NOW ADDRESS OR 
REDRESS THE INEQUITIES CREATED BY THE PURCHASE OF A LAND WITH NO REAL 
REGARD TO THE THEN OCCUPANTS THAT RESULTED IN UNCONTROLLED POPULATION 
GROWTH, OUTSIDE ECONOMIC DOMINANCE, DETERIORATION OF OUR SOCIAL MORES 
AND AN INFILTRATION OF OUR POLITICAL PROCESS.
    AS A MATTER OF FACT, THE EASTERN CARIBBEAN CENTER OF THE UNIVERSITY 
OF THE VIRGIN ISLANDS, IN THEIR ``RESEARCH NEWS FROM ECC'', RELEASED IN 
JANUARY OF 2010, INFORMED U.S. OF THAT SOME 58,786 VIRGIN ISLANDS 
NATIVES LIVING IN THE UNITED STATES IN 2008. ``SINCE 1980, ALMOST 8 OUT 
OF 10 OF ALL NATIVES IN THE U.S. HAD MIGRATED THERE. BETWEEN 1980 AND 
1989, 13,184 NATIVES MOVED AWAY...BETWEEN 1990 AND 1999, 17,550 
EMIGRATED...AND BETWEEN 2000 AND 2009 15,143 NATIVES TOOK UP RESIDENCE 
IN THE STATES''. THIS IS ACCORDING TO THE 2008 AMERICAN COMMUNITY 
SURVEY (acs) PUBLIC USE MICRODATA SAMPLE FILE. ACCORDINGLY, THE VIRGIN 
ISLANDS COMMUNITY SURVEY (VICS) INDICATES THAT THE TOTAL POPULATION OF 
THE USVI WAS 114,744. SIMPLY PUT, THE 58,786 VIRGIN ISLANDS NATIVES 
LIVING IN THE UNITED STATES REPRESENTS MORE THAN HALF OF THE CURRENT 
RESIDENT POPULATION OF THE VIRGIN ISLANDS. IT IS THEREFORE CONCEIVABLE 
WHY THE WRITERS OF THE PROPOSED CONSTITUTION GAVE GREAT WEIGHT AND 
CONSIDERATION TO NATIVE VIRGIN ISLANDERS LIVING ABROAD.
    THE POINT IS, IF THIS BODY CAN ADDRESS SUCH ISSUES AS CITIZENSHIP, 
ECONOMICS, SOCIAL NEEDS, PROPERTY, SETTLEMENTS, TRUST LAND, EXCLUSIVE 
ECONOMIC ZONES, EDUCATION, ALIENATION OF LAND, PARKS AND OTHERS, THEN 
SURELY THIS BODY CAN ENSURE THE INALIENABLE RIGHTS OF THE INDIGENOUS 
PEOPLE OF THE VIRGIN ISLANDS TO PURSUE GREATER SELF-GOVERNMENT THROUGH 
THE DRAFTING, VOTING AND ADOPTION OF A CONSTITUTION.
    I BELIEVE THE ANNALS OF THIS BODY SAID IT BEST, ``THIS IS A MATTER 
TO BE CONSIDERED BY THE VOTERS, OR PERHAPS, AT SOME FUTURE TIME, BY THE 
COURTS''. I URGE YOU TO ALLOW THE VOTERS OF THE U.S. VIRGIN ISLANDS TO 
EXERCISE SOME SEMBLANCE OF DEMOCRACY BY BEING ABLE TO COnSIDER THE 
CONTENT DEVELOPED BY THEIR DULY ELECTED MEMBERS TO THE 5TH 
CONSTITUTIONAL CONVENTION. I THANK YOU FOR YOUR TIME AND CONSIDERATION.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Senator Richards. And 
last, we will turn to the former Lieutenant Governor, Mr. 
James. Mr. James, you are recognized for five minutes.

    STATEMENT OF HON. GERARD LUZ JAMES II, PRESIDENT, FIFTH 
                   CONSTITUTIONAL CONVENTION

    Mr. James. Thank you very much, Madame Chair, and good 
afternoon, Madame Chairperson Bordallo, committee members, and 
all others present. I am Gerard Luz James II. I am the 
President of the Fifth Constitutional Convention of the United 
States Virgin Islands, and I have with me today Dr. Lois 
Hassell-Habtes, Adelbert Bryan, and Gerard Emanuel, who are 
here in official capacities as representatives of the Fifth 
Constitutional Convention.
    Elected at large by the people of the four islands 
paradise, which we proudly call home, it is my distinct honor 
to address this committee regarding the adoption last May by 
our convention of the proposed constitution for consideration 
by Congress. The convention is fully aware that our proposed 
constitution is not designed to usurp the sovereignty or 
supremacy of Federal law, and that the passage of our 
constitution will not, nor is it intended to, alter our 
political relationship with the United States.
    It represents a further step along the path to the full 
measure of self-government. This is our fifth attempt to attain 
greater self-government since Congress passed P.L. 94-584 in 
1976, which granted us the authority to draft our own 
constitution. The Revised Organic Act of 1954--the Organic Act 
has served as the guiding law for the Virgin Islands for 56 
years, with no input from the population it governs.
    On June 12, 2007, a special election was held to select 
delegates from throughout the territory to draft a 
constitution. The keen interest of the Virgin Islands in this 
process was evident from the inception, when voters elected 
delegates from a field of 135 candidates. Thirty delegates were 
elected and served as drafters of the constitution. The elected 
delegates were composed of a former Governor, a Lieutenant 
Governor, four former senators, two sitting senators elected 
during the term of the convention, a former district court 
judge, three practicing attorneys, farmers, professors, 
teachers, and political activists.
    Upon convening in December of 2007, the convention formed 
12 committees which were charged with conducting public 
hearings on the areas which are now in part our proposed 
constitution. The work of our convention was impeded at about 
the onset for six months by the court challenge to the results 
of the election by our unsuccessful candidate, and further 
delayed in midstream as the convention awaited the balance of 
the operating funds appropriated by the legislature.
    The level of funding was in itself an impediment, with the 
Fifth Constitutional Convention receiving significantly less 
funding that the fourth constitutional convention, which met 
some 30 years ago. The convention conducted a series of well 
publicized public hearings, committee hearings, and plenary 
sessions comprising hundreds of hours of testimony and debate 
and many volumes of transcribed records. These meetings were 
attended by Virgin Islanders from all walks of life, included 
but not limited to students, political activists, several 
religious leaders, as well as private citizens.
    We also consulted with representatives of a wide range of 
leaders of several organizations and institutions, including 
the president and the department heads of the University of the 
Virgin Islands. We are proud to report that at the end of this 
protracted process, in May of last year, the convention was 
able to reach a required majority consensus, and our proposed 
constitution passed with two-thirds vote of 20 delegates. The 
document was transmitted to our Governor on May 31, 2009.
    A major area of public discussion during this process was 
extensive debate on the crafting of the definition of Virgin 
Islander according to 1917 treaty accession, through which the 
territory was purchased by the United States from Denmark. The 
political rights and citizenship and the inhabitants of the 
territory at that time of transfer was subsequently to be 
determined by U.S. Congress.
    The citizenship of the island's population at the time of 
the transfer, which was predominantly comprised of former 
enslaved Africans and their descendants, was not determined 
until 10 years later. Article 3 of the proposed constitution 
defining ancestral native Virgin Islanders was based on Federal 
law emerging from that period. It is also consistent with the 
definition of native population in the constitution on other 
unincorporated territories.
    The proposed constitution provides a broader definition of 
a native Virgin Islander as a person born in the territory or 
as a descendant of a native. The definition was imperative for 
several historical reasons. From the early 1970s, we have 
experienced a dramatic decline of our native-born population. 
According to the 2007 study conducted by the University of the 
Virgin Islands, as of 2005, the percentage was approximately 
51.3 percent. This decline has significant implications for the 
self-identity of our people.
    The proposed constitution also provides that only ancestral 
or native Virgin Islanders are eligible to serve as Governor, 
Lieutenant Governor, and members of the proposed future 
political status advisory commission. These provisions address 
the unique culture and political backdrop of our islands. 
Additionally, a provision to exempt ancestral Virgin Islanders 
from paying property tax has been included to protect the 
disenfranchised native population from significant externally 
motivated commercial land speculation, which continues to 
result in the erosion of the natives' ability to retain and 
purchase property. It is also consistent with several relevant 
general assembly resolutions, which mandated that all necessary 
steps be taken to protect the property rights of the peoples of 
the territories on the United Nations list of non-self-
governing territories. The Virgin Islands, along with American 
Samoa and Guam remain on that list today.
    Similarly, our native rights provisions are part of the 
constitutions of other U.S.-administered territories, 
specifically those of American Samoa and the northern Marianas, 
both of which have a comparable island geographical make-up, 
and the same unincorporated political status as the U.S. Virgin 
Islands.
    We strongly feel that these provisions are not 
discriminatory and do not violate Federal law as it is 
presently applied to the Virgin Islands and support the 
compelling state interests.
    My fellow delegates' testimony will address these issues in 
greater detail. Throughout history, our shores have remained 
open to people of all cultures and ethnicities. The Virgin 
Islands has long been known as the American Paradise, Madame 
Chair. The proposed constitution is our sincere effort and 
attempt to ensure that the beloved territory remains our Virgin 
Islands home. I thank you very much, Madame Chair.
    [The prepared statement of Mr. James follows:]

          Statement of Gerard Luz Amwur James II, President, 
       Fifth Constitutional Convention of the U.S. Virgin Islands

    Good Morning Chairperson Bordallo, Committee members and all others 
present. My name is Gerard Luz Amwur James II. I am the President of 
the Fifth Constitutional Convention of the U.S. Virgin Islands, elected 
at large by the people of our four island paradise which we proudly 
call home. It is my distinct honor to address this Committee regarding 
the adoption last May by our Convention of the proposed constitution 
for consideration by Congress.
    I must first emphasize that the Convention is fully aware that our 
proposed constitution is not designed to usurp the sovereignty or 
supremacy of federal law and that the passage of our constitution will 
not, nor is it intended to, alter our political relationship with the 
United States. It represents a further step along the path toward a 
full measure of self-government.
    This is our fifth attempt to attain greater self government since 
Congress passed P.L. 94-584 in 1976 which granted us the authority to 
draft our own constitution. When passed by referendum of the voters of 
the Virgin Islands it will replace the Revised Organic Act of 1954. The 
Organic Act has served as the governing law of the Virgin Islands for 
fifty six years with no input from the population it governs.
    On June 12, 2007, a special election was held to select delegates 
from throughout the territory to draft the constitution. The keen 
interest of Virgin Islanders in this process was evident from the 
inception when voters elected delegates from a field of 135 candidates. 
Seventeen ran at large with the remaining candidates running from their 
respective jurisdictions. Thirty delegates were elected, and served as 
drafters of the constitution. The elected delegates were composed of a 
former Governor, four former senators, two sitting senators (elected 
during the term of the convention), a former District Court Judge, 
three practicing attorneys, farmers, professors, teachers and political 
activists.
    Upon convening in December of 2007, the Convention formed twelve 
committees which were charged with conducting public hearings on the 
areas which are now part of our proposed constitution. The Convention 
was initially mandated by enabling Virgin Islands legislation to 
finalize a draft constitution by October 6, 2008, but the period was 
later extended.
    The work of our Convention was impeded at the outset for six months 
by a court challenge to the results of the election by an unsuccessful 
candidate, and further delayed in mid-stream as the convention awaited 
the balance of the operating funds appropriated by the Legislature. The 
level of funding was itself an impediment with the Fifth Constitutional 
Convention receiving significantly less funding then the Fourth 
Constitutional Convention which met some thirty years ago.
    This caused several inordinate delays in the drafting process and 
necessitated an extension of the time frame for submission to our 
governor. Despite these constraints, the Convention conducted a series 
of well publicized public hearings, committee hearings and plenary 
sessions comprising hundreds of hours of testimony and debate and many 
volumes of transcribed records. These meetings were attended by Virgin 
Islanders from all walks of life including but not limited to students, 
political activists, several religious leaders, as well as private 
citizens. We also consulted with representatives of a wide range of 
leaders of several local organizations and institutions including the 
President and department heads of the University of the Virgin Islands.
    Unfortunately, insufficient resources and time constraints resulted 
in our inability to conduct an adequate public relations campaign. 
Also, the hard work of the Convention was often sensationalized and 
marginalized by the media's focus on specific issues and individuals, 
rather than on our substantive work.
    Through it all, we are proud to report that at the end of this 
protracted process, in May of last year, the convention was able to 
reach the required majority consensus and our proposed constitution 
passed with a two-thirds vote of 20 delegates. The document was 
transmitted to our Governor on May 31, 2009, meeting our extended 
deadline.
    A major area of public discussion during this process was extensive 
debate on the crafting of the definition of a Virgin Islander. 
According to the 1917 treaty, through which the territory was purchased 
by the United States from Denmark, the political rights and citizenship 
of the inhabitants of the territory at the time of transfer would 
subsequently be determined by the U.S. Congress. The citizenship of the 
islands' population at the time of the transfer, which was 
predominately comprised of former enslaved Africans and their 
descendents, was not determined until ten years later. Article III of 
the proposed constitution defining Ancestral Native Virgin Islander was 
based on federal law emerging from that period (See Section 306 INA (8 
U.S.C. 1406). It is also consistent with the definition of native 
populations in the constitutions of other un-incorporated territories.
    The proposed constitution provides a broader definition of a Native 
Virgin Islander as a person born in the territory, or a descendent of a 
native. The delegates felt that the inclusion of this definition was 
imperative for several historical reasons. From the early seventies we 
have experienced a dramatic decline of our native-born population. 
According to a 2007 study conducted by the University of the Virgin 
Islands as of 2005 the percentage was approximately 51.3 %. This 
decline has significant implications for the self-identity of our 
people.
    The proposed constitution also provides that only Ancestral or 
Native Virgin Islanders are eligible to serve as governor and 
Lieutenant governor, and as members of a proposed future political 
status advisory commission. These provisions address the unique culture 
and political backdrop of our islands.
    Additionally, a provision to exempt Ancestral Virgin Islanders from 
paying property tax has been included. This provision is designed to 
protect the disenfranchised native population from significant 
externally motivated commercial land speculation which continues to 
result in the erosion of natives' ability to retain and purchase 
property. It is also consistent with several relevant General 
resolutions, most recently operative paragraph 9 of the United Nations 
General Assembly Resolution 63/108, which mandates that all necessary 
steps be taken to protect the property rights of the peoples of the 
territories on the United Nations list of non self-governing 
territories. The Virgin Islands, along with American Samoa and Guam, 
remain on that list today.
    Similar native rights provisions are part of the constitutions of 
other U.S. administered territories, specifically those of American 
Samoa and the Northern Marianas, both of which have a comparable island 
geographical make up, and the same unincorporated political status as 
the U.S. Virgin Islands.
    We strongly feel that these provisions are not discriminatory, and 
do not violate federal law as it is presently applied to the Virgin 
Islands and supports a compelling state interest. My fellow delegates' 
testimony will address these issues in greater detail. Further 
elaboration is contained in our response to the Department of Justice 
analysis which has been submitted for your consideration and review. 
Throughout out history our shores have remained open to people of all 
cultures and ethnicities. The Virgin Islands has long been known as the 
``American Paradise.'' The proposed constitution is our sincere effort 
attempt to insure that our beloved territory remains our ``Virgin 
Islands Home.''
    Thank you again for your time and your thoughtful review of our 
Constitution
                                 ______
                                 
    Ms. Bordallo. I thank the former Lieutenant Governor, Mr. 
James, for your testimony. And this completes the testimony 
from our first panel of witnesses. I will now recognize the 
members of the Subcommittee for questions that they may have, 
alternating between the Majority and the Minority, and I will 
begin with myself.
    The first question I have is for you, Assistant Secretary 
Cedarbaum, Department of Justice. What would happen if Congress 
were to allow this proposed constitution to be returned 
unchanged to the people of the Virgin Islands, and it was 
adopted. Would the questionable provisions that you suggest 
should be changed be enforceable?
    Mr. Cedarbaum. Madame Chairwoman, thank you for that 
question. Under the terms of Public Law 94-584, if Congress 
allowed the proposed constitution to go back for a referendum 
by the people of the Virgin Islands, and the people of the 
Virgin Islands approved it in the referendum, the constitution 
would take effect. But that process would not cure any 
constitutional defects that may exist in any of its provisions. 
So they would be subject to legal challenge at that point, and 
the challengers would have to go to court to see whether 
particular provisions would or would not be constitutional.
    Ms. Bordallo. The next question is for you, Governor. If 
Congress sends the proposed constitution back to the Virgin 
Islands without amendment, and it is rejected, as you have 
urged, in a referendum by the people, what do you see as the 
next step?
    Governor deJongh. If it is sent back, as I said earlier in 
my testimony, I think this is an important milestone and goal 
for the people of the Virgin Islands. If the Constitution is 
returned and it is rejected, I would then first of all work and 
immediately work with the legislature to see what we could do 
to start the process of forming another constitutional 
convention.
    Ms. Bordallo. All right. Another question along the same 
lines. Is there no way to address the concerns of some of the 
convention delegates which are represented by the provisions 
they included in the constitution, which they say are necessary 
for the protection and the preservation of the culture and the 
traditions of Virgin Islanders?
    Governor deJongh. I believe overall that the work that was 
done indicates a process where concerns were taken into 
account. But the Virgin Islands at this point in time in its 
history is represented by a multitude of individuals and 
ethnicities within the islands. I think the best way for this 
to be addressed, Madame Chair, is for the constitution to be 
returned to the Virgin Islands and to let us vote on it to 
determine exactly what happens and at what point there is any 
challenge, if it passes. But as I have reiterated and stated in 
my statement, I do not believe it will such, and we will get 
back to a point of looking at another constitutional 
convention.
    Ms. Bordallo. Another question I have for you, President 
James. It is my understanding that the proposed constitution 
was approved by two-thirds vote of the delegates. Now was that 
difficult to accomplish, or were all the delegates more or less 
on the same page with regards to the constitution's content?
    Mr. James. There was some difficulty in getting to where we 
are today. But we did have a discussion, and we came to a 
meeting of the minds and were able to come up with what we have 
in front of you today.
    Ms. Bordallo. And I have another question for you as well. 
What do you see as the prospects for the Virgin Islands 
adopting a constitution if this effort from the Fifth 
Constitution convention is rejected by the voters? What do you 
see? Do you see a further process going on after this?
    Mr. James. I think, to be quite honest, it has been 30 
years from the last. I may not see one in my lifetime. I think 
that what we need to do at this present time is to move forward 
with what we have. We have listened to the presentations today 
by the various individuals on the daises, as myself, and they 
have delivered. And it has been shown that in other areas, 
things have been done by this body in order to address the 
situations that may have--just like native rights and other 
individuals like that.
    I think that what we can do is just send it to the people 
and let the people vote on it, and let us see what will happen. 
But I hope that it will pass and we can amend or do whatever we 
have to do at a later time.
    Ms. Bordallo. Well, that is part of my philosophy, you 
know, get your foot in the door, and then later on you can 
either repeal or amend, you know, whatever you feel is not 
right.
    Mr. James. Yes, ma'am.
    Ms. Bordallo. I would like at this time now to recognize 
the Ranking Member, Mr. Young, for questions.
    Mr. Young. Thank you, Madame Chairman. I want to compliment 
the panel. You all spoke very well, other than the Lieutenant 
Governor. I was not here for you, and I apologize. I had a 
phone call I had to take. But I am sure yours was as good as 
the rest of them.
    My concern is--and by the way, the Justice Department, you 
do bring up some valid points. And why would anyone want to 
send back to the people to vote on something that is going to 
go to court and be drug out for a period of time because I do 
think some of this is unconstitutional. The fishery rights 
three miles, which I am very much aware of. The recognition of 
individual groups by time. You know, this happened in my state, 
where we had a time frame where you had to live only a year, 
and that was taken to court and was knocked down to six months. 
Why six months, I don't know. But it is a long protracted 
process of doing it.
    Why would anybody want to--Governor, you can address it. 
Why would anybody want to have us accept this and have it go 
back and really end up in court. I think the Justice Department 
addressed that one. So you are the Governor, I don't care which 
one, or both.
    Mr. Cedarbaum. I think that is a question for the Governor.
    Mr. Young. OK, Governor.
    Governor deJongh. Sure. I think that what we have to 
consider is that ultimately all the decisions that we make are 
decisions that are judged and voted on and accepted or rejected 
by the people that we are professing to lead. This was a 
process--and what is interesting today is that I, Senator 
Richards, and the former Lieutenant Governor, Gerard James, 
chair of the convention, all come to the same conclusion 
through different paths. And that path is to allow us the 
opportunity to take it back to the people to be able to vote on 
exactly what they initially started in the process. And I 
believe that while we may have the challenges, it gives the 
Virgin Islanders the right in its political maturation to be 
able to have that vote. And I think that is extremely 
important.
    I think any changes to a constitution, no matter how good 
they are at the congressional level, are not consistent with 
the self-governance and we have the right, and you have given 
us the authority, to put forth. I think ultimately the people 
will reject the constitution, and that is my belief. But I 
think we have a right to at least have that vote and make that 
determination, as opposed to you making the changes.
    Mr. Young. But all three of you all agree then if we don't 
disapprove it, it goes back to the Virgin Islands. Is that 
correct?
    Governor deJongh. That is how I interpret the various 
statements. But I will let these gentlemen agree or disagree.
    Mr. Richards. That is correct.
    Mr. Young. Then why are we having a hearing for it.
    Mr. Richards. Well, you are having a hearing because the 
Enabling Act requires you to.
    Mr. Young. OK. But what I am saying--you don't object. I 
happen to think the Justice Department is right, and I don't 
really agree with the Justice Department. I want you to know 
that right now. If you don't know my background, you will 
understand it. But anyway, that is not for you, by the way. 
That is a different department.
    But there are problems, though. And if it is turned down, 
there won't be those problems. But if it is adopted then, then 
it goes to the court process. Is that correct?
    Mr. Richards. If I may respond.
    Mr. Young. Yes.
    Mr. Richards. There are some findings in accordance with 
the Justice Department that I don't agree with myself.
    Mr. Young. But that means it is going to go to court.
    Mr. Richards. And rightfully so. I don't think there is any 
constitutional document that has not been challenged, not even 
the U.S. Constitution.
    Mr. Young. OK. When it was written, it wasn't challenged. 
It is challenged today.
    Mr. Richards. And that is because we have a lot of lawyers.
    Mr. Young. That is right. That is one thing. If I ever 
became a dictator, we would have a lot of sport. I can tell you 
that right now, and I am a trophy hunter. Now having said that, 
I was advised, for those that might be interested, we are going 
to have another hearing, Madame Chairman?
    Ms. Bordallo. Yes, we are.
    Mr. Young. On another issue, Governor, that you will be 
interested in, and it is called the Rum Tax. But today, in this 
hearing today, because it is about the constitution part of it, 
I will not ask those questions today, but I forewarn all of you 
about this down the line because I have some interest in this 
because this is American tax dollars.
    But I do again compliment you, and I will be sending you 
some written questions, and hopefully you will respond to them 
before we have the next meeting, the next hearing. And on this 
issue, I want to make sure that the questions the Justice 
Department addressed, especially when it comes to fisheries and 
resource jurisdiction--because this is a slippery slope. If you 
get it, I am going to get it. We have three miles. I would like 
to have my 200 instead of 3 miles, like 200 belongs to the 
Federal Government. I would like to have the state own that. So 
we are going to make sure everything is consistent as we go 
down this line.
    Again, congratulations. Madame Chairman, I yield back.
    Ms. Bordallo. Thank you very much, Mr. Young. And I thank 
you. We will look at the other subject matter. I would like now 
to recognize the representative from the Virgin Islands, The 
Honorable Donna Christensen.
    Mrs. Christensen. Thank you, Madame Chair. My first 
question would come to you also, Assistant Attorney General. 
Your opinions on the issues involving legal rights being given 
to individuals defined as native and ancestral Virgin Islands, 
I think you made that pretty clear. However, does the 
Administration have an opposition to the acknowledgment and 
definition of the terms `native and ancestral Virgin 
Islanders.''
    Mr. Cedarbaum. Thank you, Congresswoman. I think if those 
definitions had no legal consequences whatsoever, then we would 
not find them legally objectionable or inconsistent with Public 
Law 94-584.
    Mrs. Christensen. OK. And would you elaborate on the issue 
of a senator from St. John. I think that would come under the 
section entitled Potentially Unequal Legislative Districts, as 
it relates to the one-man, one-vote. Are you saying that the 
provision that would give St. John its own elected senator is 
on its face unconstitutional? Because I have always felt that 
St. John should have its own senator.
    Mr. Cedarbaum. No, Congresswoman. We were not saying that 
that provision was unconstitutional on its face. We wanted to 
lay out, though, what we understand to be the relevant 
constitutional principles for assessing whether a one-person, 
one-vote problem might arise. And as we explained in our memo, 
those principles involve basically the weighing of two 
considerations, how big a discrepancy there is between equality 
among the different districts, and how important the interests 
offered by the state government are as to why there should be a 
district for a particular geographic area like St. John. One 
would have to balance those and look at all of the relevant 
facts before coming to any conclusion on whether any particular 
arrangement would be constitutional or unconstitutional.
    Mrs. Christensen. OK. Thank you. Thank you for those 
answers. I have another one, but I am going to try to get some 
other questions in within my five minutes. I guess I would ask 
this to the Governor and Senator Richards, but President James, 
you could answer it if you would like to also because I have a 
dilemma. The three of you have testified that the document 
should be remanded to the people of the Virgin Islands as is 
for a vote. And I respect that the delegates were duly elected 
to draft the constitution that is before us, and I would be 
loathe to make any changes just because I didn't agree with 
something.
    But help me to understand why it is not a dereliction of 
our duty as a Congress if we should send this document that is 
in violation of the authorizing legislation back to the people. 
Don't we have an obligation to the people of the Virgin Islands 
as the only body that can amend it to send them a document that 
would withstand legal and constitutional challenge? And would 
we not be disrespecting the people of the territory in not 
doing that? That is my dilemma, and I wish you would help me to 
figure out--I feel I would be disrespecting the people of the 
territory to send them a document and ask them to come out--you 
will be asking them to come out and vote on it. And it does not 
meet constitutional muster. I feel like I would be derelict in 
my duty, and the Congress would be derelict in its duty.
    Governor deJongh. Well, Delegate Christensen, the dilemma 
that you are dealing with is the very same dilemma that I dealt 
with when I was initially given the proposed constitution and 
why I did not immediately send it to the President, because I 
did not feel when I received it that it, in fact, represented 
what was required by public law, in addition to all of the 
issues having to do with constitutionality. It took a court 
decision, which never dealt with the issues of my concern, but 
had to deal with process--and I decided that it was better to 
put that process forward, allow the constitution to go through 
because I look at it not just with respect to this event or 
this Congress. But it is a political maturation process that 
started from the 1917 to the first elected Governor to the 
first elected delegate, and it is a process that we have to 
respect.
    On the day that I decided to send the document to the 
President, the President transmitted it to the Congress, and 
you are now considering it. I do believe that the people of the 
Virgin Islands have a right to determine whether, in fact, they 
accept it and have the challenges that will come, or they 
reject it on its face. I think for us not to do that would, in 
fact, be disrespectful to our constituents as voters because I 
think they have a right since they did elect the delegates to 
make that determination.
    It is a conflicting position, and it is a conflicting 
position that I initially had earlier in the middle of 2009 
when I initially did not send the document. But having reached 
to this point, I do believe that for the process to go forward, 
for us not to abdicate the rights of self-governance and look 
at Congress to write our rules and our regulations, we need for 
it to go forward based on what the delegates of the 
constitutional convention put forth and let the determination 
lie with the process for rending the results in the vote.
    Mrs. Christensen. Did anyone else want to answer that 
question?
    Mr. Richards. I wish also to respond. Let me say from the 
onset that I am not in agreement that it is violation of the 
Enabling Act. That is pointed out by the report done by the 
Department of Justice Assistant Attorney General that was 
submitted when the document transmitted. One of the things that 
we ought to keep in mind is that the Enabling Act is some 34 
years old, and a lot has transpired in the Virgin Islands since 
the Enabling Act.
    As a matter, our Congressman Young that just left, when he 
chaired a committee on May 17 of 2000 that I testified before, 
with then Governor Turnbull, Senator-present Richards, Senator 
Redfield in his capacity as the state chair for the Republican 
Party, myself in my capacity as state chair for the Independent 
Citizens Movement, that piece of legislation was an attempt to 
clarify some of the requirements of the Enabling Act. And 
because we failed to be able to recognize where we are today 
and what was enacted in 1974 and its applicability, I think we 
find ourselves in this particular conundrum.
    More importantly, I think that the resident votes of any 
district, any place, any city, any state, are the persons that 
have equal importance than any one of us that are elected 
leaders. None of us would be elected to a position without the 
resident voters. And if the resident voters have dictated 
through their selection of individuals on a constitutional 
convention to draft a document, then I think that these elected 
voters should be intelligent enough to make a determination on 
something that they can accept or do not accept. And that is 
basically my fundamental concern with the issue, that if anyone 
of us, whether we are elected as the Governor, Lieutenant 
Governor, or Senate Presidents or members of the constitutional 
convention, who in some instances were being referred to as a 
minority or different opinion members of the constitutional 
convention--how many times does a person have a bite of the 
apple? That is like me being voting for something I did not 
vote in the majority past, and then my job is to go about, 
campaign, and ask it not to become law, though a majority of 
individuals--I mean, what is democracy supposed to mean to us? 
And I think that is basically my concern.
    Ms. Bordallo. Is that it?
    Mr. James. I would not say that would be a dereliction of 
your duty to send it back the way it is. We were elected by the 
people of the Virgin Islands to bring this product to where it 
is today, and it was not just by anybody. It was done by 
professionals, Lieutenant Governors, Governors, politicians, 
professors. You had attorneys. You had a district court judge. 
So they were all elected, and I must say that it was a cross-
section of individuals that were elected. And this proposed was 
actually proposed, as I indicated, by two-thirds vote. And it 
is a process. So it is the process of Congress if you will 
choose to send it back. That is one of the processes that you 
can use without doing any modifications. And we will be more 
than happy to have the people of the Virgin Islands continuing 
with their rights to fulfill and vote on it and make it pass, 
or if they feel not to, then it will fail.
    Governor deJongh. Delegate Christensen, could I also add 
that even if it is challenged legally, we have a sophisticated 
judiciary system. We have the superior court. We have the 
supreme court now as appellate, and we also have the district 
court. So even to the extent that there is a challenge, we can 
feel comfortable that the process begins in the court system 
and in the judicial system that is comprised of local, and 
where local precedent is established. And you go through from 
superior to the supreme to the district.
    Mrs. Christensen. My times is up.
    Ms. Bordallo. Yes. I thank the gentlelady from the Virgin 
Islands. And now I would like to recognize the representative 
from Puerto Rico, Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Chairwoman Bordallo. Thank you. 
Thank you all for appearing. As you know, I represent Puerto 
Rico, the neighboring islands of Puerto Rico. And I have to say 
that I feel torn, torn because on the one hand I believe deeply 
in the principle of self-government. The U.S. citizens of the 
Virgin Islands, just like their fellow Americans in the States 
and sister territories, should aspire to be governed by laws 
that reflect their own principles and beliefs, not by laws that 
are established by others. So I am all for you.
    The fact is, I represent a territory, and an unincorporated 
territory that has its own constitution since 1952. And that 
constitution was approved by this Congress. The constitution on 
its face doesn't say that Puerto Rico is an unincorporated 
territory. The constitution doesn't say on its face that Puerto 
Rico is subject to the territory clause of the United States 
constitution, yet the courts in the U.S., U.S. courts, have 
consistently so ruled since 1952 until the present time.
    So even though I know that this exercise of self-government 
is limited by its very nature because of the status that we 
both hold, the U.S. Virgin Islands and Puerto Rico, I commend 
you. You should have your own constitution. And I cannot wait 
for the day that this Congress approves your constitution.
    Having said all of that, I am torn because I guess now the 
fact that I am a former attorney general comes in the way. It 
troubles me that knowing that the Justice Department, the U.S. 
Justice Department, is expressing some reservations, that I am 
going to simply sitting here as a Member of Congress let the 
clock run, wait 60 days, and simply allow this to go to the 
Virgin Islands for a vote, and ignore the fact that I am being 
told that there are some issues.
    So I wonder whether--and I raise this before you as well as 
before my colleagues--whether at the very least we could issue 
a resolution expressing the sense of Congress that there could 
be some provisions in this constitution that could be subject 
to legal challenge, but that in deference to the right of self-
government of the people of the Virgin Islands, we are 
returning it to the people of the Virgin Islands for a vote. At 
the very least, we should do our duty. We should express what 
we might collectively believe in. That is my take on this.
    Again, I am all for you. I want this to happen. But 
something in me tells me you cannot ignore that there are some 
flaws and that you should at least try to express that when you 
do what you are called to do on this occasion. So that is all I 
will say.
    On the rum issues, by the way, you know my position, 
Governor. This is not the time or occasion. I hope we get a 
hearing somewhere where we can try to find a just solution. I 
have hated every minute of this controversy, and I hope we find 
a just solution to it. But this is not the place or the time to 
go into that.
    Those are my feelings, my views. If any one of you wants to 
comment on them, I will be glad to listen.
    Mr. Richards. If I could just say quickly, for the record--
and I appreciate the position that you find yourself in, and a 
good position that you may also place yourself in is the former 
position that was held by Juan Melecio when he served as a 
state electoral commission head. And the last privacito that 
you all had in the late 1990, early 1980s--and that position is 
a manager of the process. And I sincerely believe that 
somebody--the concerns and issues raised by the Justice 
Department are issues that should be allowed to be brought 
before a court if the document is adopted. There is no one in 
this process more important to me than the voters.
    None of us, whether you are a Member of Congress, you are a 
member of the Virgin Islands or you are the Governor--and I 
think that irrespective of some of the concerns that we ought 
to allow--although we are responsible to lead, we ought to 
allow these persons that began this process to have the 
opportunity to vote on this document. And I understand the 
issue as an attorney. And no pun was intended earlier in 
regards to your position.
    Governor deJongh. If I could address both issues. The first 
issue is one of if an issue is going to come up at the next 
committee that goes from Alaska to Puerto Rico, we are going to 
have a very long conversation. And as you well know, the 
meeting that I initiated to which you went to in Puerto Rico 
with our delegate, we are still waiting for an answer with 
respect to a question that we asked of the Puerto Rico 
delegation to get back to us on, where it is has not. And at 
the committee hearing, we will have a chance, I assume, to go 
into greater detail on that issue.
    With respect to having a sense of the committee with 
respect to the items in the constitution that the Justice 
Department has brought up of issues of concern, that is clearly 
in my opinion within your right to do, to give a sense. That is 
something that you should consider. Irrespective of that, I 
still believe, however, that the constitution, proposed and 
draft constitution sent up, should in fact still go back to the 
people of the Virgin Islands to be consistent to a process that 
has taken us to this point. And if it takes us to a sixth 
constitutional convention, then there will be a better 
constitutional convention, and each one will deal with the 
issues until we get there.
    Ms. Bordallo. I want to thank the gentleman from Puerto 
Rico. And now the gentlelady from the Virgin Islands has a 
couple more questions before we go into our second panel.
    Mrs. Christensen. True. And I will try to be very brief. 
Thank you, Madame Chair. To the assistant attorney general. The 
section in the constitution that provides for the government to 
have the power to manage, control, and develop the natural and 
marine resources comprising of the submerged lands, inlets, and 
keys is very similar to a bill that I have introduced in 
several congresses to expand the territorial submerged lands. 
But the committee has never taken it up because the support was 
just not there.
    Would you please explain the problems you see in this 
provision, and let me know if it rises to the level of 
violating the dictates of the authorizing legislation? Or is it 
just something that is of concern, but could be worked out?
    Mr. Cedarbaum. Thank you, Congresswoman. I think our 
fundamental concern is that article 12, section 2, which is the 
section, as you indicated, that addresses territorial waters 
and marine resources, is unclear. And to the extent that it 
might be read as asserting sovereignty of the territorial 
government as against the sovereignty of the United States, 
that would be troubling and should be changed.
    At the same time, as you mentioned, you may have a bill 
before Congress--I am not familiar with that particular piece 
of legislation. But as we indicated in our memo, in line with 
that first fundamental point, these issues are all subject to 
Congress's control. So if Congress wants to convey to the 
Virgin Islands certain rights to control some of these marine 
resources, that is within Congress's power, and it is free to 
do so.
    Mrs. Christensen. Thank you. Well, with respect to, for 
example, the needing to clarify that issue, I wanted to ask 
Senator Richards, as the only representative from the 
legislature at this panel, if the local legislature would ever 
consider reconvening the convention to consider the changes 
suggested by the Justice Department before the final document 
is sent to the people for vote.
    Mr. Richards. I only smile because you put me in a 
predicament now. The predicament is that I didn't vote for the 
local legislature to conduct this Fifth Constitutional 
Convention process because I sincerely believe that it is 
difficult to write a document of what you want to do, where you 
want to go, if you don't know basically who you are and what 
you are about. And that is what the political status is about. 
And so I was one of two that dissented in voting to convene a 
Fifth Constitutional Convention.
    I believe if, in fact, this is not adopted and we find 
ourselves back to square one, and if the Congress makes any 
changes to the document that is before us, it is no different 
than us having voted on the revised Organic Act because now it 
becomes a congressional document. And so I really can't say 
what----
    Mrs. Christensen. Well, I am saying if----
    Mr. Richards. I can't say what the legislature will do. As 
you notice from my sign, I am the Minority Leader. So I can't 
speak what the majority of the members would. I really can't. I 
really can't tell you.
    Mrs. Christensen. Let me just ask one other question that 
anybody might want to answer then. Why do you think that the 
authorizing legislation provided for the U.S. Congress to be 
able to amend the document before sending it back to the 
people?
    Mr. Richards. Well, I can answer that, at least in my 
opinion, in one word, because we are still a possession.
    Mrs. Christensen. And we are. That is a fact.
    Mr. Richards. And they want to maintain jurisdiction over 
the piece of property that they bought in 1917.
    Governor deJongh. But that was the enabling legislation.
    Mrs. Christensen. Yes.
    Governor deJongh. That does not mean that this Congress and 
this body needs to continue that. You can, in fact, send it 
back and continue the maturation process that is necessary with 
respect to reaching the final determination of a constitution 
written by Virgin Islanders.
    Mrs. Christensen. Right. We do have the alternatives before 
us to send it back, or to amend it or, in fact, to reject it. 
And even if this body on this side of the Capitol were to amend 
it, it is still very possible that it would come back to the 
territory in its current form. Thank you, Madame Chair.
    Ms. Bordallo. I thank the gentlelady from the Virgin 
Islands. And again I want to thank you very much, Governor, for 
coming over to Washington for this hearing.
    Governor deJongh. Thank you.
    Ms. Bordallo. And to thank you representative from the 
Department of Justice, the senator, and of course----
    Mr. Cedarbaum. Thank you.
    Ms. Bordallo.--my fellow colleague of many years ago, 
Lieutenant Governor----
    Mr. James. Thank you.
    Ms. Bordallo.--and also the president of the constitution. 
And I also want to remind you that the Subcommittee may have 
additional questions for you. And if you could, we would like 
to ask you to respond to these in writing.
    Governor deJongh. Of course. Thank you very much.
    Ms. Bordallo. And now the witnesses for the next panel are 
all comprised of five delegates to the Fifth Constitutional 
Convention. We welcome on the second panel--we would like to 
recognize Mr. Adelbert M. Bryan, Mr. Gerard Marlow Emanuel, Dr. 
Lois Hassell-Habtes, Dr. Eugene A. Petersen, and Mr. Douglas 
Brady. Please be seated.
    [Pause]
    Ms. Bordallo. Lady and gentlemen, thank you very much for 
joining us today. And I will now recognize you each for five 
minutes, in the order that you are seated. Again, please be 
assured that your full statement will be entered into the 
official record, and we would appreciate your summation of the 
key points. The red timing light is before you, and we may not 
be as--what is the word I want to use--liberal on the second 
panel. The Governor and a few of the elected officials did go 
over time, but please be considerate because your full 
statement will go on the record.
    So again, Mr. Bryan, we will begin with you. Please 
proceed.

           STATEMENT OF ADELBERT M. BRYAN, DELEGATE, 
                FIFTH CONSTITUTIONAL CONVENTION

    Mr. Bryan. Good afternoon. I have a question, please. Good 
afternoon, Chair Bordallo. I have a question. You mentioned 
earlier that the elected individuals would have five minutes 
also, right?
    Ms. Bordallo. Yes.
    Mr. Bryan. So myself, Mr. Emanuel, and Ms. Habtes are 
elected members of the convention.
    Ms. Bordallo. Oh, well, if you are an elected official, 
then you go ahead.
    Mr. Bryan. Thank you very much.
    Ms. Bordallo. Please try to keep it concise. Thank you.
    Mr. Bryan. OK. Thank you very much. Again, good afternoon, 
Madame Chair Bordallo. I am Adelbert M. Bryan, at-large 
delegate of the Fifth Constitutional Convention, and I 
represent the majority population of my native land. I was born 
and raised in the Virgin Islands.
    I would like to begin my testimony with historical facts, 
national record, and quotations. ``We hold these truths to be 
self-evident; that all men are created equal; that they are 
endowed by their creator with inherent and inalienable 
rights,'' end of quote.
    Quote, ``Nothing is more certainly written in the book of 
fate, than that these people are to be free; nor is it less 
certain that the two races, equally free, cannot live in the 
same government. Nature, habit, and opinion have drawn 
indelible lines of distinction between them. It is still in our 
power to direct the process of emancipation and deportation, 
peaceably, and in such slow degree, as that the evil will wear 
off insensibly, and their place be, on an equal basis, filled 
up by free white laborers. If, on the contrary, it is left to 
force itself, on human nature must shudder at the prospect held 
up,'' end of quote.
    The actual words of Thomas Jefferson, the man who has been 
called the author of America, the former quote being the 
Declaration of Independence before it being edited by the 
Congress. These words strike at the very foundation of the 
governmental process of the Fifth Constitutional Convention of 
the Virgin Islands of the United States of America.
    In 1917, the United States purchased the discovery rights 
of the Danish West Indies from the crown of Denmark. Then as is 
now, the preponderance of the islands' population is African 
descendants. At the time of the transaction, the international 
laws in effect between European nations, which included the 
United States as enshrined in Article One, Section Eight of the 
U.S. Constitution were called the Laws of Nations. Under the 
heading of the Rights of Property, the Laws of Nations denies 
sovereignty to the native occupiers of their land. It was and 
is a code against nonwhites like our ancestors, who were at the 
time free people, human beings, since July 3, 1848, 1863, 1865, 
and thereafter the 13th Amendment to the U.S. Constitution.
    The U.S. Congress took control of the islands with the 
official title of Unincorporated Territory of the United States 
of America, a designation the Supreme Court defined as an 
appurtenance, a possession of, but not a part of the United 
States. These are not fertile circumstances for the development 
of self-government. As the 93-year history of the Virgin 
Islands painfully indicates, autonomy is so closely regulated, 
it defies definition.
    Quote, ``I believe this observation will be found generally 
true, that no two people are so exactly alike in their 
situation or circumstances as to admit the exercise of the same 
government with equal benefit, that a system must be suited to 
the habits and genius of the people it is to govern, and must 
grow out of them,'' end of quote. Spoken by Mr. Charles 
Pinckney, delegate from South Carolina in the 1787 convention 
on Monday, May 14th, in Philadelphia, Pennsylvania. Mr. 
Pinckney read from a prepared speech to his fellow delegates, 
offering his vision for the new nation. ``Conquest or 
superiority,'' end of quote, he said, ``among other powers is 
not or ought not to ever be the direct object of a republican 
system,'' end of quote.
    As was the case when Mr. Thomas Jefferson wrote of the 
inherent and inalienable rights, Mr. Pinckney would not have 
imagined an unincorporated population of African descendants. 
Yet this is the crucible of the issue of self-government in the 
Virgin Islands of the United States. The U.S. Constitution 
still embraces the Laws of Nation that condemns sovereignty to 
people of color, a Constitution that is currently defended by 
an African-American President.
    If not now, when will the time be right for the majority 
population of the Virgin Islands to design a government suited 
to their habits and genius. An appurtenance by its very nature 
is temporary. Ninety-three years should be more sufficient time 
for the Congress to deem native Virgin Islanders to draft an 
identity for their key society.
    It is a legitimate government process for an African-
descended population to choose its government, as it was for an 
African-American to win the presidency. Both are lawful 
ambitions that wouldn't raise an eyebrow if not for raise. 
Should the Virgin Islands people apologize for aspiring to a 
government more suited for their genius?
    The proposed Fifth Constitution is not in contravention to 
the United States Constitution. While its style may be 
different, the spirit of liberty is identical. The intent is to 
accommodate Virgin Islanders within the framework of the 
Federal laws. Less than 20 percent of the Virgin Islands 
population is other than African descendants. Most of the 
minority populations are white, and they are influential and 
resourceful. Should their dissenting vote on the document be 
anything more than a minority protest? Is the African-American 
led nation still of the psyche of Thomas Jefferson? Do we today 
believe that two races equally free cannot live in the same 
government? But we do agree with the third President that is in 
our interest and your powers to direct the process.
    In the spirit of moral human rights, dignity, and fair 
play, we urge this body to accept the proposed constitution 
before you as a best effort at compromise without capitulation. 
The people of the Virgin Islands have called for a more 
compatible government better suited to our aspirations of 
growth and development.
    I would thank you for your time.
    [The prepared statement of Mr. Bryan follows:]

 Statement of Adelbert M. ``Bert'' Bryan, Delegate, 5th Constitutional 
 Convention, St. Croix, Virgin Islands of the United States of America

    ``We hold these truths to be self evident; that all men are created 
equal; that they are endowed by their creator with inherent and 
inalienable rights;''
    ``Nothing is more certainly written in the book of fate, than that 
these people are to be free; nor is it less certain that the two races, 
equally free, cannot live in the same government. Nature, habit, 
opinion have drawn indelible lines of distinction between them. It is 
still in our power to direct the process of emancipation and 
deportation, peaceably, and in such degree, as that the evil will wear 
off insensibly, and their place be, on an equal basis, filled up by 
free white laborers. If, on the contrary, it is left to force itself, 
on human nature must shudder at the prospect held up.''
    The actual words of the man who has been called the Author of 
America, as quoted in the ``Autobiography of Thomas Jefferson''. The 
former quote being the Declaration of Independence before being edited 
by the Congress.
    These words strike at the very foundation of the governmental 
purpose of the Fifth Constitutional Convention of the Virgin Islands of 
the United States of America.
    In 1917, the United States of America purchased the discovery 
rights of the Danish West Indies from the Crown of Denmark. Then, as 
now, the preponderance of the islands population is African 
descendants. At the time of the transaction the international laws in 
effect between European nations, which included the United States, as 
enshrined in Article One, Section Eight of the Constitution were called 
the Laws of Nations. Under the heading of the Rights of Property, the 
Laws of Nations denies sovereignty to the native occupiers of land. It 
was, and is, a code against nonwhites like our ancestors; who were at 
the time free people ``human beings'' since July 3, 1848, 1863, 1865 
and thereafter the Thirteenth Amendment of the U.S. Constitution.
    The United States Congress took control of the islands with the 
official title of the Unincorporated Territory of the Virgin Islands of 
the United States. A designation the Supreme Court defined as an 
appurtenance, a possession of, but not a part of the United States of 
America.
    These are not fertile circumstances for the development of self-
government. As the ninety-three year history of the Virgin Islands of 
the United States of America painfully indicates, autonomy is so 
closely regulated it defies definition.
    ``I believe this observation will be found generally true: -- that 
no two people are so exactly alike in their situation or circumstances 
as to admit the exercise of the same Government with equal benefit: 
that a system must be suited to the habits and genius of the people it 
is to govern, and must grow out of them.''
    Spoken by Mr. Charles Pinckney, Delegate from South Carolina to the 
1787 Convention on Monday, May 14th, in Philadelphia, Pennsylvania. Mr. 
Pinckney read from a prepared speech to his fellow delegates, offering 
his vision for the new nation. ``Conquest or superiority'', he said 
``among other powers is not or ought not ever to be the object of 
republican systems''.
    As was the case when Mr. Thomas Jefferson wrote of the inherent and 
inalienable rights, Mr. Pinckney would not have imagined an 
unincorporated Territory populated by African descendants. Yet, this is 
the crucible of the issue of self-government in the Virgin Islands of 
the United States of America.
    The Constitution still embraces the laws of Nations that condemns 
sovereignty for people of color. A Constitution that is currently 
defended by an African-American President.
    If not now, when will the time be right for the majority population 
of the Virgin Islands of the United States of America to design a 
government suited to their habits and genius? An appurtenance by its 
very nature is temporary. Ninety-three years should be more than 
sufficient time for the Congress to deem Virgin Islanders fit to craft 
an identity for their tiny society.
    It is as legitimate a governmental purpose for an African descended 
population to choose its government, as it was for an African-American 
to win the Presidency. Both are lawful ambitions that wouldn't raise an 
eyebrow if not for race. Should the Virgin Islands apologize for 
aspiring to a government more suited to their genius?
    The Fifth Constitutional Convention draft is not in contravention 
to the U.S. Constitution. While its style may be different, the spirit 
of liberty is identical. The intent is to accommodate Virgin Islanders 
within the framework of Federal laws.
    Less than twenty percent of the Virgin Islands population is other 
than African-American descendants. Most of the minority population are 
whites. Not all whites are in opposition, but too many are, and they 
are influential and resourceful. Should their dissenting vote on the 
document be anything more than a minority protest? Is the African-
American led nation still of the psyche of Thomas Jefferson? Do we 
today believe the two races equally free, cannot live in the same 
government? But we do agree with the Third President that it is in your 
power to direct the process.
    In the spirit of enlightenment and fairplay, we urge this body to 
accept the Draft Constitution before you as the Fifth Constitutional 
Convention's best effort at compromise without capitulation. The people 
of the Virgin Islands have called for a more compatible government, 
better suited to their aspirations of growth and development.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Mr. Bryan, for your 
testimony. And now I would like to recognize Mr. Emanuel for 
five minutes.

      STATEMENT OF GERARD MARLOW EMANUEL, DELEGATE, FIFTH 
                   CONSTITUTIONAL CONVENTION

    Mr. Emanuel. Madame Chair and other distinguished members 
of the Subcommittee, my name is Gerard Emanuel. I am a delegate 
to the Fifth Constitutional Convention of the Virgin Islands. I 
am honored to have this opportunity to appear before you on the 
proposed constitution of the United States Virgin Islands. 
Today is exactly two weeks before the 93rd anniversary of the 
sale of the Danish West Indies to the United States of America, 
at which time those islands became an unincorporated territory 
of the U.S.
    Our proposed constitution on the whole should therefore be 
considered within the context of the unique position of the 
Virgin Islands as an unincorporated territory of the U.S., 
similar to the status of our sister territories. In advance of 
congressional consideration of the proposed constitution, the 
U.S. Justice Department was directed by President Barack Obama 
to provide its view on the proposed document. My testimony is 
intended to address several issues which were raised in the 
Justice Department review.
    The first issue relates to the recognition of United States 
sovereignty. I wish to emphasize that the work of the Fifth 
Constitutional Convention of the Virgin Islands was not 
intended to suggest any alteration in the unincorporated 
territorial status. The proposed constitution before this body 
fully recognizes the sovereignty of the United States over the 
territory through its acknowledgment of the unincorporated 
territorial status.
    Former Chair of the United States Energy and Natural 
Resources Committee Lowell Weicker, during congressional review 
of the 1980 proposed Virgin Islands constitution observed that 
the phrase ``unincorporated territory,'' was not an implicit 
but an explicit statement of the sovereignty of the United 
States. Such recognition is also confirmed in the 2010 Justice 
Department memorandum, which states that a number of provisions 
in the present proposed constitution considered together bring 
it into substantial compliance with the Enabling Act's 
requirement that the proposed constitution recognize U.S. 
sovereignty and the supremacy of Federal law.
    Madame Chair, another issue raised in the Justice 
Department memorandum was the provisions related to the 
recognition of ancestral native Virgin Islanders and native 
Virgin Islanders. The rationale for the inclusion of these 
sections should be seen within the context of the unique socio-
cultural and political history of the territory.
    Prior to the transfer of jurisdiction from Denmark to the 
United States by the treaty accession in 1917, the people of 
the Danish West Indies, who are largely of African descent, 
were enslaved for over 200 years with all of the attendant 
abuses. On July 3, 1848, the Danish government was forced to 
ratify the freedom of the enslaved ancestral Virgin Islanders 
due to a meticulously planned revolt. By this act, the newly 
freed Africans now considered themselves as full citizens, 
equal to the Europeans for whom they still worked.
    However, they were quickly disillusioned by the labor act 
of January 1849, a euphemism for a code of decrees that 
virtually placed them back into slave-like conditions once 
again. This left them no money to invest or advance themselves 
economically, socially, or politically. Our ancestors resisted 
this recapitulation by Denmark for 30 years, which culminated 
in a laborers' revolt in 1878 known as the Fireburn.
    After this, our ancestors believed they would be fully able 
to participate as citizens in their homeland. But once again, 
they were disillusioned because the Danish colonial laws 
provided prohibitive income and property ownership requirements 
that precluded the laborers from voting and running for office. 
Therefore, whether during or after chattel slavery, whenever 
our ancestors sought to effectuate social and political reform, 
they had to do so violently because there were no legal 
mechanisms available to them to obtain their civil and human 
rights.
    Sadly, Madame Chair, these discriminatory laws remained in 
effect for the first 20 years of American rule. The 1917 treaty 
accession made provisions for Danish citizens in the territory 
to either retain their citizenship or to become United States 
citizens. No such choice was given to the majority native 
population. Their rights were to be determined by the U.S. 
Congress.
    For 10 years, they were devoid of citizenship. Accordingly, 
the 1927 and 1940 Citizenship and Nationality Acts defined them 
as natives who are not citizens or subjects of any foreign 
country. The 2009 edition of Caribbean Perspectives, a journal 
published by the University of the Virgin Islands, pointed out, 
``Quite apart from the mandate to create or recreate structures 
of government through a local constitution to replace the 
United States Revised Organic Act of 1954 was the task of 
defining/redefining a political and cultural identity amid 
changing demographics.''
    The present Fifth Constitutional Convention has approved 
the proposed constitution before you within this historical 
framework. The basis for the recognition of the ancestral 
native and native Virgin Islander lies in the treaty accession 
and in relevant Federal statutes. This acknowledgment is 
intended for the protection of the declining native population 
and the preservation of the disappearing culture and traditions 
of a people.
    The historical context and the need for effective 
reparative action represent the compelling state interest we 
strongly feel justifies the relevant provisions.
    In conclusion, Madame Chair, the annex to this statement, 
which I am attaching for the record, contains the historical 
basis for a compelling state interest to justify the provisions 
for differential treatment of ancestral native and native 
Virgin Islanders. I wish to thank your Subcommittee for this 
important opportunity to provide testimony on the proposed 
constitution of the United States Virgin Islands. Thank you, 
Madame Chair.
    [The prepared statement of Mr. Emanuel follows:]

 Statement of Gerard M. Emanuel, Delegate to the Fifth Constitutional 
             Convention of the United States Virgin Islands

    Madam Chair and other distinguished members of the Subcommittee,
    My name is Gerard Emanuel. I am a delegate to the Fifth 
Constitutional Convention of the Virgin Islands. I am honored to have 
this opportunity to appear before you on the proposed constitution of 
the U.S. Virgin Islands.
    Our proposed constitution, on the whole, should be considered 
within the context of the unique position of the Virgin Islands as an 
unincorporated territory of the United States, similar to the status of 
our sister territories in American Samoa and Guam, and the 
commonwealths of the Northern Mariana Islands and Puerto Rico, 
respectively. While the nature of the constitutional arrangements in 
each of these territories varies, the commonalities which we all share 
are the applicability of the Territorial Clause of the United States 
Constitution and our status of un-incorporation.
    In advance of Congressional consideration of the proposed 
constitution, the U.S. Justice Department was directed by President 
Barak Obama to provide its views on the proposed document. My testimony 
is intended to address several issues which were raised in the Justice 
Department review.
    The first issue relates to the recognition of United States 
sovereignty. I wish to emphasize that the work of the Fifth 
Constitutional Convention of the Virgin Islands was not intended to 
suggest any alteration in the unincorporated territorial status, but 
rather to determine the parameters of the prevailing status. This has 
come some thirty years since the Virgin Islands last attempted to write 
a constitution. The proposed constitution before this body fully 
recognizes the sovereignty of the United States over the territory 
through its acknowledgement of the unincorporated territorial status.
    Former Chair of the United States Senate Energy and Natural 
Resources Committee Lowell Weicker, during Congressional review of the 
1980 proposed Virgin Islands constitution, observed that the phrase 
``unincorporated territory'' was ``an explicit statement of the 
sovereignty of the United States.'' Such recognition is confirmed in 
the 2010 Justice Department memorandum which states that ``a number of 
provisions in the present proposed constitution considered together 
bring it into substantial compliance with the Enabling Act's 
requirement that the proposed constitution recognize U.S. sovereignty 
and the supremacy of federal law.''
    Madam Chairman, another issue raised in the Justice Department 
memorandum was the provisions related to the recognition of ancestral 
Virgin Islanders and native Virgin Islanders. The rationale for the 
inclusion of these sections should be seen in the context of the unique 
socio-cultural and political history of the territory.
    Prior to the transfer of jurisdiction from Denmark to the United 
States by the Treaty of Cession in 1917, the people of the Danish West 
Indies, who were largely of African descent, were enslaved for over two 
hundred years with all of the attendant abuses.
    On July 3, 1848, the Danish government was forced to ratify the 
freedom of the enslaved African Ancestral Virgin Islanders due to a 
meticulously planned, nonviolent revolt by the enslaved. By this act, 
the newly freed Africans now considered themselves as full citizens 
equal to the Europeans for whom they still worked. However they were 
quickly disillusioned by the Labor Act of January 1849, a euphemism for 
a code of decrees that again virtually placed them into slave-like 
conditions. They were compensated for their labor, but were charged 
excessively for all their basic needs and at the end of the day had no 
money to invest or advance themselves economically, socially or 
politically.
    Our ancestors resisted this recapitulation by Denmark for thirty 
years, which culminated in a laborers' revolt in 1878 known as the 
``Firebun'' staged in order to secure a living wage. After this, our 
ancestors believed they would be able to fully participate as citizens 
in their homeland, but were once again disillusioned. In 1852, the 
Danish Colonial Laws were enacted and subsequently revised in 1863 and 
1906. These laws established the guidelines for only limited native 
participation in the political process in the Danish colony.
    The irrefutable impact of these laws on the majority of the native 
population was to continue to prevent their legitimate participation in 
the political process, and to deny them citizenship. Specifically, 
there were prohibitive income and property ownership requirements that 
precluded the laborers from voting and running for office. Therefore, 
whether during or after chattel slavery, whenever our ancestors sought 
to effectuate social and political reform, they had to do so violently, 
because there were no legal mechanisms available to them to attain 
their civil and human rights. Sadly, these discriminatory laws remained 
in effect for the first 20 years of American rule.
    The 1917 Treaty of Cession made provisions for Danish citizens in 
the territory to either retain their citizenship, or to become United 
States citizens. No such choice was given to the majority native 
population. Their rights were to be determined by the United States 
Congress. The natives did not become U.S. citizens immediately, and for 
ten years they were devoid of citizenship. Accordingly, the 1927 and 
1940 U.S. Citizenship and Nationality Acts defined them as ``natives 
who are not citizens or subjects of any foreign country.'' The 
territory was governed by the United States Navy from the transfer in 
1917 until 1931 when civilian rule was instituted by way of governors 
appointed by Washington.
    By the 1960s, the territory experienced an unprecedented growth in 
population, primarily through immigration to fill labor needs in the 
developing tourism and industrial sectors. Reliable estimates of new 
residents totaled 34,000 between 1960--1970 alone, exceeding the entire 
1960 population of the territory. It was noted in the 2009 journal 
``Caribbean Perspectives'' a publication of the University of the 
Virgin Islands that:
        ``The temporary worker system which had been legislated by the 
        U.S. Congress pursuant to U.S. immigration laws facilitated the 
        movement of mainly African descendents from other parts of the 
        Caribbean to the U.S. Virgin Islands to meet growing labour 
        needs. Concerned with the projected financial impact of the 
        extension of public services to the new residents, the U.S. 
        Virgin Islands legislature sought to use its local authority to 
        regulate access to education, housing and other areas. This was 
        later overturned by the U.S. courts and applicability of U.S. 
        equal protection laws. A specific U.S. immigration measure 
        enacted in 1981 also provided for a process of achieving 
        permanent residency status in the territory, and ultimately 
        U.S. citizenship.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Caribbean Perspectives, A Journal of the Eastern Caribbean 
Center of the University of the Virgin Islands, January, 2009.
---------------------------------------------------------------------------
    It is within this historical context that four constitutional 
conventions were held in the U.S. Virgin Islands between 1964 and 1980. 
As the same University of the Virgin Islands article pointed out:
        ``Quite apart from the mandate to create/re-create structures 
        of government through a local constitution to replace the U.S. 
        Revised Organic Act of 1954 was the task of defining/re-
        defining a political and cultural identity amid changing 
        demographics.'' <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ ibid
---------------------------------------------------------------------------
    The present Fifth Constitutional Convention has approved the 
proposed constitution before you within this historical framework. The 
provisions of recognition of native Virgin Islanders were included in 
the text in the wake of the continued decline of the native population, 
and the gradual disappearance of Virgin Islands culture and traditions. 
Similar provisions appear in laws and agreements protecting native 
populations in other United States territories.
    The basis for the recognition of the ancestral and native Virgin 
Islander in the proposed constitution lies in the Treaty of Cession and 
in relevant federal statutes, and is intended for the protection and 
preservation of the culture and traditions of a people. The historical 
context, and the need for effective reparative action, represents the 
compelling state interest we strongly feel justifies the relevant 
provisions.
Conclusion
    Madam Chair, the Annex to this statement, which I am attaching for 
the record, contains the historical basis for a compelling state 
interest to justify the provisions for differential treatment for 
ancestral and native Virgin Islanders. I wish to thank this 
Subcommittee for this important opportunity to provide testimony on the 
proposed constitution of the U.S. Virgin Islands.
                                 ______
                                 

                                 Annex

Historical Background Utilized As Support for Differential Treatment of 
                 Ancestral and Native Virgin Islanders

    Africans who are the ancestors of Ancestral Natives and Natives, 
were enslaved for over two hundred years in the Virgin Islands. During 
this time they were subjected to multiple political, social, cultural, 
religious and economic abuses and were denied their inalienable human 
rights.
    <bullet>  After slavery officially ended on July 3, 1848, each 
planter was compensated at $50.00 per ex-slave, while the ex-slaves 
received nothing for hundreds of years of forced labor. <SUP>1</SUP>
    <bullet>  A Labor Act of January 26, 1849 was instituted by the 
planters to keep the newly freed laborers in slave-like conditions. 
This lasted for 30 years until the ``Firebun'' of 1878 forced its 
demise. <SUP>2</SUP>
    <bullet>  In the late 1800's ``...judges, prison officials, 
planters and police banded together against the laborer to capitalize 
on his labor. The judge would imprison a laborer on the basis of a 
complaint from the employer. Once in jail, as punishment, the prisoner 
would be sentenced to work on one of the estates without compensation 
The prison officials and police would be responsible for enforcing the 
judge's decree.'' <SUP>3</SUP>
    <bullet>  The Colonial Council on St. Croix passed laws ``...in an 
attempt to control the laborers and to try to revert the economic and 
social conditions of the laborer to pre-emancipation and pre-labor riot 
days.'' <SUP>4</SUP>
    <bullet>  Two of the above laws were 1) life imprisonment for 
stealing sugar cane; and 2) imprisonment for debt.
    <bullet>  When land was provided to the laborers, the worst land 
was sold to those who wanted to farm. For example, agricultural 
depleted estates that were a financial loss and which the government 
was anxious to dispose of, were sold to the laborers. <SUP>5</SUP>
    <bullet>  Steam Ship Operators paid female coal workers worthless 
silver coins. In 1892, Queen Coziah had to lead a protest to stop this 
illegal discriminatory practice against the African female laborers. 
<SUP>6</SUP>
    <bullet>  Due to hard economic times in the late 1800's and early 
1900's laborers were forced to migrate to other areas in the region 
such as Panama to make a living where they were paid slave-like wages. 
``Meanwhile, all the economic benefits and the white collar jobs were 
reserved for white Americans.'' <SUP>7</SUP>
    <bullet>  Many Virgin Islanders lost their lives in Panama from 
malaria and job related accidents. <SUP>8</SUP>
    <bullet>  A 1902 Commission observed that Denmark spent ``...too 
much on government officials and soldiers and not enough on schools and 
hospitals...More attention should be paid to agriculture.'' 
<SUP>9</SUP>
    <bullet>  The planters were assisted but not the laborers. (ibid.)
    <bullet>  Several homesteading attempts were instituted; however, 
the majority of the best agricultural land was used for growing sugar 
cane, and thus the island of St. Croix was retained as virtually a 
mono-economy with little if any economic diversification that could 
have benefited the laborers, many of whom were experiencing 
starvation.(ibid. p. 224)
    <bullet>  From the end of slavery until 1936, most laborers were 
prevented from voting or running for any elected office due to the lack 
of emphasis on proper education as noted by a Danish Commission in 
1902, and restrictive income and land qualifications imposed by 
Colonial Laws from 1852 up to 1906. These remained in effect for the 
first 19 years of U.S. rule of the Virgin Islands.
    <bullet>  In 1917 only 5.5% of the population could vote. The vast 
majority of the eligible voters were conservative white male 
landowners.) The majority of those deemed ineligible were natives. 
<SUP>10</SUP>
    <bullet>  For 88 years after slavery, the majority of native Virgin 
Islanders were disenfranchised. Natives have only been enfranchised for 
73 years, and have only had the right to elect a governor for 38 years. 
(See 1936 Organic Act, C. 699, 49 Stat. 1807, & the 1968 Elective 
governor's Act, PL 90-496.)
    <bullet>  In the Treaty of Cession between Denmark and the United 
States, no provisions were made to redress the long history of 
injustices and discriminatory practices perpetrated on the natives, 
which occurred under Danish rule. (39 Stat. 1706)
    <bullet>  Preferential treatment was specifically accorded to the 
Danish Citizens in the treaty. Only Congress was given the authority to 
determine the civil rights and political status for the majority of the 
native population who had no citizenship status whatsoever. Natives 
were not given any rights to choose their status or civil rights. 
(ARTICLE VI of the treaty.)
    <bullet>  The Virgin Islands was made an unincorporated territory 
of the U.S. they were owned by, but were not fully a part of the U.S. 
Natives were not made full U.S. citizens. Only fundamental protections 
of the U.S. Constitution were extended to them. Only Congress could 
determine what additional provisions of the U.S. constitution would 
apply. This was totally unlike the pattern of political development 
used for the mainly white residents in other U.S. territories before 
the Spanish American War. (See Boyer pp. 88-104.)
    <bullet>  It took Congress ten years to provide a limited version 
of U.S. citizenship by statute to V.I. natives. During that ten year 
period, natives were treated in a subhuman fashion and were not 
accorded the full protections or privileges of the U.S. Constitution. 
44 Stat. 1234 in 1927 and 8 USC., Sec. 1406 in 1940.
    <bullet>  Up until today Virgin Islanders are prevented from 
obtaining the full protections and rights in the Virgin Islands that 
all other U.S. citizens living in a state obtain at birth or after 
being naturalized.
    <bullet>  The U.S. citizenship status of V.I. natives is not 
guaranteed by the 14th amendment of the U.S. Constitution as it is for 
all naturalized citizens or for persons born in a state or on a 
military base,). <SUP>11</SUP>
    <bullet>  For the first 10 years of U.S. rule, V.I. natives had no 
right to trial by jury in civil cases, no locally written constitution, 
no right to vote for president, no voting or non-voting representatives 
in either house of Congress, could not elect a Governor, the vast 
majority could not vote for their local representatives, or run for any 
office due to income and property ownership restrictions, and they were 
not properly educated. (See Boyer pp. 109-144; & Willocks ch.'s 11-13, 
pp. 251-288)
    <bullet>  Native Virgin Islanders were the victims of racist acts 
by Naval governors, who were specifically chosen from southern states 
where racist acts towards Blacks were commonplace. The following is a 
direct quote from one of the governors, namely Sumner Kittelle. ``I 
cannot too strongly urge that there be no change made in the organic 
law until a full generation has elapsed...and above all the white 
element must remain in the lead and in supreme control.'' <SUP>12</SUP>
    <bullet>  Even other government officials and soldiers performed 
racist acts during military rule, which lasted for the 14 years after 
the transfer from Denmark. Any attempts by natives to change their 
conditions were met with fierce resistance by these U.S. appointed 
officials.
    <bullet>  The best jobs were reserved for whites or light-skinned 
persons. Local women felt compelled to copulate with white men to 
produce lighter-skinned offspring, who they hoped would not be 
subjected to the abuses and other atrocities that they faced, (the piel 
clara syndrome). <SUP>13</SUP>
    <bullet>  Natives were shot at, or forced to perform normally 
private acts in public. Native leaders such as David Hamilton Jackson, 
Randolph Innis, Octavius Granady, Charles Emanuel, James Roberts, 
August Burnet and Rothschild Francis were maliciously discredited, and 
vilified by U.S. appointed Governors and other officials for writing 
about and otherwise trying to stop the innumerable abuses against 
natives. <SUP>14</SUP>
    <bullet>  The laborers were paid starvation wages such as 20 cents 
a day immediately prior to the Transfer to U.S. rule. They formed a 
labor union and staged a six-week strike, which placed tremendous 
additional hardships on them in order to receive a reasonable wage. 
They were forced to leave their homes due to lack of money. 
<SUP>15</SUP>
    <bullet>  Naval Governors had ``...military, legislative, civil and 
judicial powers and the power to abolish the colonial 
councils.<SUP>16</SUP> Therefore, under U.S. rule the presidentially 
appointed Governor was virtually a dictator, and in many instances 
performed as such to the detriment of natives. The locals had little or 
no recourse when they took their fight to court. Even there they were 
discriminated against by the lack of the application of certain parts 
of the U.S. Constitution to the Virgin Islands, (such as trial by jury 
in civil cases), and by the racist rulings of judges appointed by the 
Naval Governors.
    <bullet>  Some judges were elected under Danish rule, but as 
indicated before not by the majority of the population due to the 
prohibitive voting restrictions. 17
    <bullet>  The Naval Government resisted providing civil rights to 
the natives, such as Universal Suffrage, an elected governor, local 
representation in Washington, a constitution and civil government.18 
Thus natives were denied most of these rights for almost 20 years under 
U.S. rule, (and some rights are still being withheld by the federal 
government). This continued the disenfranchisement pattern that had 
existed under Danish rule from 1848 after slavery had ended. Hispanic 
natives were denied the right to vote even with the passage of the 1936 
Organic Act because of an English literacy requirement.19
    <bullet>  Before granting Virgin Islanders U.S. citizenship en 
masse and by statute in the 1920's, Congress even considered and 
actually attempted ``annexing the Virgin Islands to Puerto Rico'', 
without even seeking to obtain the permission of Virgin Islanders. It 
was only due to massive local protests by natives, that this was not 
done.20
    <bullet>  Local leaders and Virgin Islanders abroad agitated for 
civil government, a local constitution and land grants for locals in 
the early 1920's. However their pleas fell on the deaf ears of both 
local and national officials.21
    <bullet>  Naval governors appointed judges who were assigned to 
persecute any natives who sought to implement changes for the 
improvement of government for locals. Governor Philip Williams 
appointed George Washington Williams in 1924 for this express purpose 
despite protests from natives.22
    <bullet>  The Naval government intimidated the local press. Native 
editors were imprisoned allegedly on charges of libel.23 ibid. p.266
    <bullet>  Government employees were intimidated and some fired for 
standing up for changes that would help Virgin Islanders.24 ibid. p. 
267
    <bullet>  Taxation without representation occurred in the 1920's. 
Sugar imported into the U.S. was taxed, which caused layoffs. Since 
locals had no representation in either house of congress and could not 
vote for president, they had little or no viable way of getting their 
plight heard by federal officials.25 ibid. p. 267
    <bullet>  Workers were forced to leave their families and homeland 
to migrate to other countries such as Panama, Cuba and Puerto Rico to 
find work. 26ibid. p. 269.
    <bullet>  Naval Officials only viewed the problems of natives as 
economic ones and implemented some economic initiatives. The Native 
leaders pushed for political reform such as universal suffrage and 
locally-elected representatives. Their cries were ignored by local 
officials and those in Washington until almost an entire generation had 
passed amid discriminatory acts, flagrant and outright violations of 
the civil rights of natives by the whites under military rule in the 
1920's.<SUP>27</SUP> ibid. p. 269.
    <bullet>  Many other discriminatory acts, flagrant and outright 
violations of the civil rights of natives by the whites under military 
rule in the 1920's.<SUP>28</SUP> ibid. pp. 282-287
    <bullet>  At one time in the 1930's, 29 white men owned 80% of St. 
Croix and controlled the colonial council. They resisted tax increases 
on their income and property, as well as homestead programs for the 
local natives.<SUP>29K ibid. p.296</SUP>
    <bullet>  The federal government instituted homestead programs in 
the 1930's, which helped locals suffering from unemployment, but 
according to Willocks, ``...whatever improvement was made in the 
unemployment situation was offset by increases in the non native 
population, due to immigration and a high birth rate.''<SUP>30</SUP> 
ibid. p.300 (Locals had and still have no control over U.S. Immigration 
laws which are particularly injurious to their exercise of their 
political right to choose their leaders and approve constitutional or 
political status documents. When applied to the V.I. due to the small 
and easily affected population numbers and composition, the result can 
and has been detrimental to Native Self-Determination attempts such as 
ratifying two local constitutions in the late 1970's and early 1980's.)
    <bullet>  Although the Fair Labor Standards Act was passed, an 
amendment to it in 1941 discriminated unfairly against native laborers 
because it prevented the favorable wage increase provision from being 
applicable to the V.I.31 ibid. p. 300
    <bullet>  Even though the CCC was brought to the V.I. and did 
provide training and benefits, the educational programs were not 
``...widened...to include the training which enrollees receive in the 
United States.''<SUP>32</SUP> ibid. p. 303
    <bullet>  St. Croix natives could not get a local 12th grade 
education until 1935, which was 18 years after being under U.S. rule. 
This affected their ability to obtain higher education and prepare 
themselves for assuming positions of leadership.33 ibid. p. 304
    <bullet>  Women were denied the right to vote until1936 to prevent 
strengthening the black vote, since women made up the majority of the 
population.34 ibid. p. 309
    <bullet>  Military bases established in the V.I. before World War 
II, increased racism here. Some military personnel brought their racial 
attitudes and behavior with them. Many confrontations occurred, and to 
not offend the white members of the military or lose their business, 
many local white businesses refused to serve native Blacks.35 ibid. p. 
317
    <bullet>  Natives originally could not participate in the armed 
forces. Those who received permission had to volunteer after 
petitioning to have this privilege. Some Natives died as a result, but 
all experienced blatant racism in Puerto Rico and in the U.S. Some of 
them indicated that they were treated and got along better with the 
German prisoners of wars than they did with the White American 
servicemen.36 ibid. pp. 318-319
    <bullet>  The Legislative Assembly passed a bill into law against 
discrimination because of the expected increase in tourism and white 
visitors to the territory beginning in the early 1950's. This was to 
offset the same kind of increase in racism that had occurred when the 
military came here during World War II. White business owners opposed 
the law arguing that ``...such a bill would be bad for tourism, because 
tourists who were accustomed to segregation would be forced into 
integration. This would chase tourists from the Virgin Islands, which 
would result in the hotel and resort industry suffering considerable 
losses.''<SUP>37</SUP> ibid. p. 326
    <bullet>  Policies prejudicial to natives and favorable to persons 
from the U.S. by some appointed Governors even after military rule had 
ended in 1931 continued, especially under Governor Archie Alexander in 
the mid 1950's.<SUP>38</SUP> ibid. p. 329-330
    <bullet>  Laurence Rockefeller bought 2/3's of St. John to turn it 
``into a millionaire's retreat.''<SUP>39</SUP> ibid. p. 332
    <bullet>  Even though he eventually turned the land over to the 
National Park, ``natives soon found themselves victims of racial and 
economic discrimination. For example, the Caneel Bay Resort, a part of 
the national park, was opened to the public, but did not cater to the 
natives; the natives were being denied the opportunity to purchase land 
around the exclusive areas. In short, the national park was on the 
verge of taking over the island and turning it into a millionaire's 
club.''<SUP>40</SUP> ibid. p. 333 This has occurred, and the Park 
constantly discriminates against natives. The most recent example is 
its refusal to grant land for public purposes, such as for a school for 
the native population to avoid them having to travel off-island to 
attend high school daily, while conversely allowing private businesses 
such as a hotel to occupy park land for over 40 years, for private 
benefit.
    <bullet>  The 1960's produced the greatest population growth 
primarily by immigration that the Virgin Islands had ever seen during 
American rule. By 1965, natives had become a minority in their 
homeland. Between 1950 and 1965, the population of every other ethnic 
group other than natives had more than trebled. Our relatives and 
friends from the other Caribbean islands went from 1,000 to 10,000. 
Puerto Ricans went from 3,000 to 9,700. Continentals went from 1,500 to 
6,500.41 Boyer pp. 255-256 Natives have still not recovered from the 
inordinate burdens placed on the infrastructure, such as roads, 
schools, social services, health care, water and power, etc.
    <bullet>  Natives do not have any control over population growth by 
immigration, and thus their right to vote for their constitution and 
their final status is being threatened by immigrants from the U.S. and 
elsewhere, who have outnumbered them since the 1960's. This is a direct 
and flagrant infringement on the right of natives to self-determination 
as guaranteed under international law.42 (See the United Nations 
Charter, the International Covenant on Civil and Political Rights, 
Resolutions, 1514 (XV), 1541 (XV) and 35/118.)
    <bullet>  The application of U.S. immigration laws and the freedom 
of immigrants to buy land in the V.I., have also affected the ability 
of natives to purchase and retain land for homes and other enterprises 
in pursuance of the American dream in the V.I. This was specifically 
noted among other impacts of cultural tourism in a 1969 doctoral 
dissertation by Martin Garson Orlins. The homes built by immigrants 
from the U.S. in particular, (some of whom are rich retirees, who can 
afford to build extravagant mansions), in many instances have driven 
property values sky high, and thus increased property taxes to a point 
beyond which many natives who were fortunate to buy land, cannot afford 
to keep their property. Many have been forced to sell property they had 
wanted to keep in their family for their children, grandchildren, and 
other relatives.43 See study of Martin Garson Orlins in Boyer, pp. 254-
256.

       Others who would like to purchase land cannot afford to do so. 
There are also many stories about price reductions for land offered to 
whites that are being denied to natives.
    <bullet>  Gentrification, which was predicted over 30 years ago by 
Dr. Marilyn F. Krigger, a native U.V.I. professor, is again threatening 
the realization of the compelling state interest of diversity and the 
right of natives to buy land and live where they choose on the islands. 
The islands are being divided into enclaves for the rich and famous on 
the one hand and enclaves for the poor natives on the other.44Boyer, 
Footnote 93, p.282.
    <bullet>  Furthermore, natives are being forced once again to 
relocate to other places and leave their homeland where their relatives 
and friends reside and where all of their fondest memories are. There 
is a cultural tie or relationship to the land that some migrants do not 
understand, and it is difficult for many natives to simply migrate and 
leave all they have worked for and built behind, as persons who migrate 
here voluntarily do.45
    <bullet>  At the rate that immigration is occurring, many Natives 
are being forced to leave their homeland. They soon will become more 
and more of a marginalized minority in their homeland, and will not be 
able to elect their political officials such as senators or even their 
highest official, the Governor.46
    <bullet>  Even writing their constitution has been criticized 
because of the protections placed therein to offset the adverse effects 
on natives caused by the historical discrimination by government 
officials in the V.I. under U.S. rule, the indiscriminate application 
of U.S. immigration and other laws to the territory, and the threat to 
the preservation of the traditional culture and way of life of the 
natives.46 Personal experience
    <bullet>  Recently a celebration of piracy that included the 
picture of President Obama in a pirate outfit occurred. This was 
totally reprehensible to me. Over the years, the increased presence of 
persons from the U.S. mainland has brought with them an infusion of 
questionable cultural practices that are at variance and sometimes 
disrespectful to the local culture. The pirate festival and contest, is 
one such practice, which is threatening to become an institution. 
Pirates were criminals who used these islands to store their booty. 
There is nothing positive about them that we should be celebrating or 
commemorating.47 (Personal experience)
    <bullet>  Natives are not similarly situated with immigrants from 
the U.S. or from other countries. The right to U.S. Citizenship by 
natives is tenuous at best, because it is only guaranteed by a statute 
and not by the U.S. Constitution. Two federal officials even 
recommended granting natives U.S. Citizenship by the 14th Amendment to 
the U.S. Constitution in the early 1980's when the Fourth Draft 
Constitution was being considered by Congress. One of them pointed out 
an instance in the mid 1970's where congress passed a law that removed 
the right of V.I. natives to be U.S. citizens; however, it was caught 
in time, and no harm was inflicted. This could never happen to non-
natives or U.S. citizens living in one of the states.48 See Herman 
Marcuse's testimony at an October 21, 1981 Hearing of the Senate's 
Energy and Natural Resources committee regarding the Fourth 
Constitution of the V.I. of the U.S.A.
    <bullet>  If the status quo is allowed to continue, these islands 
will completely become an enclave for the rich and famous, and the 
natives along with the rich culture they have created, preserved and 
practiced, will disappear.<SUP>49</SUP>
Notes
<SUP>}}1</SUP> Willocks, Harold, ``The Umbilical Cord,'' 1995. p. 193.
<SUP>}}2</SUP> ibid. p. 192.
<SUP>}}3</SUP> ibid. p. 220
<SUP>}}4</SUP> ibid, p. 220
<SUP>}}5</SUP> ibid. p. 221
<SUP>}}6</SUP> ibid. pp.221-222
<SUP>}}7</SUP> ibid. p. 223
<SUP>}}8</SUP> ibid. p. 223
<SUP>}}9</SUP> ibid. p. 223
<SUP>10</SUP> ibid. p. 314
<SUP>11</SUP> See Herman Marcuse's testimony at an October 21, 1981 
        Hearing of the Senate's Energy and Natural Resources Committee 
        regarding the Fourth Constitution of the V.I. of the U.S.A.
<SUP>12</SUP> 12 Boyer, William America's Virgin Islands, A History of 
        Human Rights and Wrongs. 1983, pp. 115-116.
<SUP>13</SUP> (Willocks, p. 283.)
<SUP>14</SUP> Boyer op. cit. p. 114-115
<SUP>15</SUP> Willocks. op. cit. p. 229
<SUP>16</SUP> ibid. p. 253
<SUP>17</SUP> ibid. p. 255
<SUP>18</SUP> ibid. p. 263
<SUP>19</SUP> Act of Congress, June 22, 1936, Ch. 699, Sec. 17, 49 
        Stat. 1811)
<SUP>20</SUP> Willocks p. 263
<SUP>21</SUP> ibid. pp. 264-65; & Boyer pp.142-145
<SUP>22</SUP> Willocks p. 265
<SUP>23</SUP> ibid. p.266
<SUP>24</SUP> ibid. p. 267
<SUP>25</SUP> ibid.
<SUP>26</SUP> ibid. p. 269
<SUP>27</SUP> ibid.
<SUP>28</SUP> ibid. pp. 282-287
<SUP>29</SUP> ibid. p.296
<SUP>30</SUP> ibid. p.300
<SUP>31</SUP> ibid. p. 300
<SUP>32</SUP> ibid. p. 303
<SUP>33</SUP> ibid. p. 304
<SUP>34</SUP> ibid. p. 309
<SUP>35</SUP> ibid. p. 317
<SUP>36</SUP> ibid. pp. 318-319
<SUP>37</SUP> ibid. p. 326
<SUP>38</SUP> ibid. p. 329-330
<SUP>39</SUP> ibid. p. 332
<SUP>40</SUP> ibid. p. 333
<SUP>41</SUP> Boyer pp. 255-256
<SUP>42</SUP> See Ch. 11, Art. 73, Sec.'s (a-e) of the United Nations 
        Charter, the International Covenant on Civil and Political 
        Rights, Resolutions, 1514 (XV), 1541 (XV) and 35/118.
<SUP>43</SUP> See Martin Garson Orlins' study in Boyer, pp. 254-256.
<SUP>44</SUP> Boyer, Footnote 93, p.282.
<SUP>45</SUP> Personal experience
<SUP>46</SUP> Personal opinion
<SUP>47</SUP> Personal experience
<SUP>48</SUP> See Herman Marcuse's testimony at an October 21, 1981 
        Hearing of the Senate's Energy and Natural Resources Committee 
        regarding the Fourth Constitution of the V.I. of the U.S.A.
<SUP>49</SUP> Personal opinion
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Mr. Emanuel, for your 
testimony. and I now recognize Dr. Hassell-Habtes for five 
minutes.

   STATEMENT OF LOIS HASSELL-HABTES, PH.D., DELEGATE, FIFTH 
                   CONSTITUTIONAL CONVENTION

    Dr. Hassell-Habtes. Good afternoon, Honorable Madeleine 
Bordallo, Chairperson, and our delegate to Congress for the 
U.S. Virgin Islands, Donna M. Christensen.
    I am grateful and appreciative to be here today to 
represent the people of the Virgin Islands as an elected 
delegate to the Fifth Constitutional Convention. I would like 
to express my deep and sincere thanks and appreciation to the 
President of the United States, Barack Obama, for sending the 
constitution of the United States Virgin Islands to Congress.
    First of all, I bring greetings from the people in the 
Virgin Islands who understand the time has come for us to be 
governed by a constitution of the Virgin Islands and not by a 
Organic Act written in 1936 and amended in 1954. There have 
been many Virgin Islanders who attended, listened to, or 
reviewed the committee meetings, hearings, plenary sessions, 
and their voices and concerns have been included in this 
document.
    Just as the drafting of the U.S. Constitution, arguments, 
debates, differences of opinions have not kept the delegates of 
the Fifth Constitutional Convention from a united front when it 
came to ensuring that the people voice and future generations 
of this territory are protected and governed accordingly.
    Today I further bring calm, peaceful waves from our serene, 
beautiful islands, which demand a certain culture. We have 
living and traditions which have stood the test of time. Great 
are our ancestors who have kept these traditions going for 
generations to come. As Virgin Islanders, we do not have a 
choice of letting go of these traditions of which we are a 
part. For who gives us the right to stop what has been passed 
on from generation to generation? What we know is that these 
traditions were passed on to protect us, and inherently denotes 
a way of living to many of us is not easy, but necessary and 
respectful to our environment. This document in front of you 
has taken the necessary steps to preserve our traditions and 
way of life.
    As chair of the preamble, anthems, symbols, bill of rights, 
and human rights committee, we held committee meetings and 
hearings on all three islands in the territory, which were open 
to the public, well-publicized in local newspapers and radio, 
and well-attended. Most importantly, members of this committee, 
as well as testifiers, presenters, and people of the Virgin 
Islands who attended these meetings, wanted our preamble to 
present the history of the Virgin Islands people, who have been 
inclusive and accepting of the many people who have migrated to 
the territory, who have built and contributed to the benefit of 
these islands. We feel our preamble does just that.
    The intent under the provisions addressing territorial 
waters and marine resources and submerged lands was not to 
usurp the Federal laws, but to ensure the protection of the 
marine resources and submerged lands. Members of this committee 
felt that every person in the territory has a right to an 
environment which is protected and preserved without pollution 
and degradation.
    I am hopeful that today success can be achieved for our 
people and for future generations of the United States Virgin 
Islands. Thank you.
    [The prepared statement of Dr. Hassell-Habtes follows:]

    Statement of Lois Hassell-Habtes, Ph.D., Delegate to the Fifth 
 Constitutional Convention; Chair, Preamble, Anthems, Symbols, Bill of 
Rights and Human Rights Committee; Committee Member, Education, Youth, 
    and Culture; Committee Member, Economic Development and Labor; 
 Committee Member, Citizenship, Virgin Islands Rights, Environment. & 
                         Cultural Preservation

    Honorable Madeleine Bordallo, Chairperson of the Subcommittee on 
Insular Affairs, Oceans and Wildlife, Committee Members, officials, 
ladies and gentlemen:
    I am Lois Hassell-Habtes, an elected delegate to the Fifth 
Constitutional Convention of the U.S. Virgin Islands. I am grateful, 
and appreciative to be here today, to represent the people of the 
Virgin Islands.
    Let me officially say thank you to our Virgin Islands Delegate to 
Congress, The Honorable Donna M. Christensen for her work in getting us 
here today. I am proud to be a part of this progressive movement in the 
Virgin Islands towards shaping our future for generations to come.
    First of all, I bring ``greetings'' from the people in the Virgin 
Islands who understand the time has come for us to be governed by a 
Constitution of the Virgin Islands, and not by an Organic Act written 
in 1936 and amended in 1954. I am certain that we are here because of 
strong leadership in this convention which by court order addressed the 
legislative mandate to forward the Constitution to the President of the 
United States.
    Let me state unequivocally, that many delegates, and people of the 
Virgin Islands, who attended, listened to, or participated in the many 
committee hearings and plenary sessions, have despite differences of 
opinion extended their support for this process. But, just like the 
drafting of the U.S. Constitution, arguments, debates, and differences 
of opinions. We remain united in our effort to ensure that future 
generations have the opportunity for full participation in their 
government.
    All delegates signed and agreed to respect and follow the rules and 
regulations of this Fifth Constitutional Convention, headed by 
President Gerard Luz James II. This led to a two thirds vote on the 
Constitution of the Virgin Islands, so that we could move forward.
    Today, I further bring calm, peaceful waves from our serene, 
beautiful islands, which demand a certain culture, way of living, with 
rich traditions, which have stood the test of time. Great are the 
ancestors who preserved these traditions for generations. As Virgin 
Islanders, we do not have a choice of letting go of these cultural 
traditions of which we are a part. For who gives us the right to stop 
what has been passed on from generation to generation.
    What we know is that these traditions were passed on to protect us 
as a people. These traditions inherently denote a way of living that to 
many of us, is not easy but necessary and respectful to our 
environment.
    However, as I testify before you today, it is with an understanding 
of a historical disconnect between the people of the Virgin Islands and 
the existing territorial/federal relationship. As delegates we are 
acutely aware of the reality that the Virgin Islands electorate has 
voted against certain provisions contained in the previous proposed 
constitutions. The Fifth Constitutional Convention has worked 
diligently to include their recommendations in our proposed 
constitution.
    I will specifically address the two major committees on which I 
served, Preamble and Education and Culture.
THE SOVEREIGNTY OF THE UNITED STATES:
    It should be emphasized that the Fifth Constitutional Convention 
began with the mandate that all committee Chairs ensure that their 
committee members consider the language contained in the fourth 
proposed constitution.
    As Chair of the Preamble, Anthems, Symbols, Bill of Rights, and 
Human Rights Committee I held committee meetings and hearings 
throughout the territory. These meetings were all open to the public, 
well publicized in the local newspapers and on the radio, as well as 
and well attended. We feel that we succinctly delineated the 
sovereignty and supremacy of federal law. We are well aware that as an 
unincorporated territory, we have only the authority authorized by 
federal law and recognized this document is not intended to change the 
status document.
    The Department of Justice has expressed concerns with certain 
provisions in our proposed Constitution. These provisions, however, can 
inherently be traced back to the impact of increased immigration to the 
territory as a result of federal which has stimulated economic 
development, but which has also caused a certain disconnect among the 
native Virgin Islanders. We are of the view that certain provisions are 
necessary to address this disconnect, and to ensure a homeland for 
future Virgin Islanders.
    Most importantly, members of this committee, as well as testifiers, 
presenters, and people of the Virgin Islands who attended our meetings 
wanted the Preamble of the proposed constitution to present the history 
of the Virgin Islands people who have been inclusive and welcoming of 
all groups who have who have chosen to make the Virgin Islands their 
home. We feel that the Preamble does just that.
EDUCATION AND CULTURE:
    The rapid growth experienced by Virgin Islands society has resulted 
in significant overcrowding of our schools. Therefore the quality 
education received in small, attentive, loving classrooms of locally 
trained teachers of which we were accustomed has changed to overcrowded 
schools and a need for more teachers and educators who better 
understand the students, their culture and their island home.
    We are a proud people who have struggled and toiled in their land 
for progress and benefits for their people and now find themselves 
competing for their very existence and are losing the battle. We must 
fight to ensure that our people are properly educated and the culture 
which defines this land is protected and preserved for generations to 
come.
BILL OF RIGHTS PROVISIONS:
    Having reviewed Assistant Attorney Generals' review of the bill of 
rights this provision within the Constitution, it is clear that 
protections for the people, including ``the dignity of the human 
being,'' and ``the right to a reasonable expectation of privacy'' could 
burden or constrain the local government. However, the relevant 
committee that dealt with this section felt it was important that these 
rights are extended to the people through their inclusion in the Bill 
of Rights.
TERRITORIAL WATERS, MARINE RESOURCES AND SUBMERGED LANDS:
    The Committee on Citizenship, Virgin Islands' Rights, the 
Environment, and Cultural Preservation's intent was to make sure that 
we also included the protection of the territorial waters, and its 
submerged lands not to usurp federal law. Members of the committee felt 
that every person in the territory has a right to an environment which 
is protected and preserved, without pollution and degradation. 
Therefore, committee members felt that by promoting conservation 
efforts, we would be able to secure ecological development and 
conservation of our land, waters and their ever diminishing resources. 
This was not to usurp the federal government's control.
    In closing, I have shared with you the intent of the Delegates of 
the Fifth Constitutional Convention in writing the Constitution of the 
Virgin Islands. We have long been and remain ready for enhanced self 
government. I remain hopeful for fruition of our goals
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Hassell-Habtes, for 
your testimony. I now recognize Dr. Petersen.

     STATEMENT OF EUGENE A. PETERSEN, DVM, DELEGATE, FIFTH 
                   CONSTITUTIONAL CONVENTION

    Dr. Petersen. Madame Chair, ladies and gentlemen of the 
Committee on Natural Resources, and the Subcommittee on Insular 
Affairs, Oceans, and Wildlife, my name is Dr. Eugene Petersen, 
and I would like to thank you for this opportunity, on my own 
behalf as a citizen of the Virgin Islands of the United States.
    While I am a member or a delegate to the Fifth 
Constitutional Convention, I am not here today representing 
that body. I felt it necessary to testify as one of the five 
delegates who voted in opposition to the adoption of the 
proposed Virgin Island constitution in its present form before 
you today.
    I was born in St. Croix, the United States Virgin Islands, 
one of the islands that comprise the former Danish West Indies. 
My ancestral ties to the island of St. Croix can be traced back 
to the period of emancipation of the slaves in 1848 and 
possibly beyond that. I have resided on St. Croix my entire 
life except for a brief period where I pursued my education 
here in the United States. And upon my return home, I practiced 
there as a veterinarian for over 25 years.
    I was elected as a delegate to the Fifth Virgin Islands 
Constitutional Convention in 2007, which is in recess at this 
time awaiting the return of the document from the U.S. 
Congress. It is with great pleasure and humility that I accept 
this opportunity to testify before this great body today 
concerning the adoption of the constitution for this 
magnificent territory of the Virgin Islands of the United 
States.
    Faith and conviction has brought me here today, faith that 
the diverse population of the Virgin Islands can live together 
as one, and the conviction that the people of my homeland 
desire to do the right and just thing concerning home rule and 
self-governance by the entire population of these Virgin 
Islands, of which I am so proud. I want to make it abundantly 
clear that I strongly support the adoption of a constitution 
created by the citizens of the territory and for the citizens 
of the territory. It pains me to be here today asking the U.S. 
Congress to modify and to make changes to a document created by 
the elected officials representing the people of the Virgin 
Islands.
    However, it is my opinion that there are portions of this 
proposed constitution that if adopted will do irreparable harm 
to the social and economic fabric of the territory. Many of us 
today are more qualified than I am to testify accurately on the 
historical and constitutional relevance of this document, which 
I am fully conscious of. However, it is the social and the 
economic impact that is problematic and raises concern for many 
of the citizens with whom I confer.
    As I mentioned before, the Virgin Islands is a diverse 
community which is comprised of many citizens from various 
parts of the world. Many of the current population migrated to 
the territory over a long period of time, establishing roots 
and contributing to the development of the territory. Many were 
born in the territory of parents or grandparents who migrated 
here. And many are first generation citizens who live and 
worked in the territory for many years, creating social and 
economic base.
    These citizens consider themselves true Virgin Islanders, 
and no other existence besides the life that currently exists 
for them. We embrace these people. And the mass majority of the 
people of the Virgin Islands live in harmony. If many of the 
provisions proposed in this document are adopted, I believe 
that it will rip this delicate social and economic fabric apart 
and create disharmony in our community unlike anything that you 
have ever seen before.
    In addition, I believe that with these provisions included, 
the document will find it almost impossible to be ratified by 
the current citizens of the territory. This possibility is most 
disturbing to me. And I am convinced that this is an important 
step toward self-determination. It is important to note that 
this is our fifth attempt to ratify a document. And as time 
elapses, it will become increasingly difficult to reach 
consensus as the population changes.
    It is with great trepidation that I request the Congress of 
the United States to make the necessary changes to the proposed 
constitution so that some of the constitutional concerns may be 
alleviated, avoid social and economic distress, and allow the 
document to be more acceptable to the vast majority of the 
citizens to ensure ratification upon its return to the people 
of the Virgin Islands.
    Some say that if Congress may change as much as one word in 
this proposed document, that it is no longer a document of the 
people. I beg to differ, as upon ratification by the people of 
the Virgin Islands, it then becomes their document, or our 
document, to change and modify as prescribed therein.
    Therefore, without any further ado, I request that Congress 
make those changes as outlined in my proposal or my testimony, 
which I see that I am out of time. And I want to thank you very 
much. And some of the questions that you asked, I would like to 
address some of those questions that were asked of the other 
panel before. Thank you.
    [The prepared statement of Dr. Petersen follows:]

  Statement of Eugene A. Petersen, DVM, Member/Delegate, Fifth Virgin 
   Islands Constitution Convention, Frederiksted, St. Croix, Virgin 
                                Islands

    Ladies and Gentlemen of the Committee on Natural Resources, 
subcommittee on Insular Affairs, Oceans and Wildlife. I thank you for 
this opportunity to testify on my own behalf as a citizen of the Virgin 
Islands of the United States. While I am a member/delegate of the Fifth 
Virgin Islands Constitution Convention, I am not here today as 
representing that body. I felt it necessary to testify as one of the 
five delegates who voted in opposition to the adoption of the Proposed 
Virgin Island Constitution in it's present form that is before you 
today.
    I was born on St. Croix, United States Virgin Island, one of the 
islands that comprised the former Danish West Indies. My ancestral ties 
to the island of St. Croix can be traced back to the period of the 
emancipation of the slaves in 1848, and possibly beyond that. I have 
resided on St. Croix my entire life except for a period of time where I 
attended Tuskegee University in Alabama and worked for a brief period 
of one year in the great state of Massachusetts after earning my 
Doctorate degree in Veterinary Medicine. Upon returning to the Virgin 
Islands I practiced as a mixed practice veterinarian for over 25 years. 
I was elected as a delegate to the Fifth Virgin Islands Constitutional 
Convention in 2008, which is in recess at this time awaiting the return 
of the document from the United States Congress.
    It is with great pleasure and humility that I accept this 
opportunity to testify before this great body today. There are numerous 
individuals that are probably better suited to be here testifying on 
this matter concerning the magnificent territory of the Virgin Islands 
of the United States. But faith and convictions has brought me here 
today. Faith that the diverse population of the Virgin Islands can live 
together as one, and the conviction that the people of my homeland 
desire to do the ``right and just thing'' concerning home rule and 
self-determination of the entire population of these Virgin Islands of 
which I am so proud.
    I want to make it abundantly clear that I strongly support the 
adoption of a constitution created by the citizens of the territory, 
for the people of the territory. It pains me to be here today asking 
the United States Congress to modify or make changes to a document 
created by elected officials representing the people of the Virgin 
Islands. However, it is my opinion that there are portions of this 
proposed constitution that, if adopted, will do irreparable harm to the 
social and economic fabric of the territory. Many others today can 
testify more accurately on the historical and constitutional relevance 
of the document of which I am fully conscious. However, it is the 
social and economic impact that are problematic and raises concerns for 
many of the citizens with whom I confer.
    As I mentioned before, the Virgin Islands are a diverse community 
which is comprised of many citizens from various parts of the world. 
Many of the current population migrated to the territory over a long 
period of time establishing roots and contributing to the development 
of the territory. Many were born in the territory of parents or 
grandparents who migrated here, and many are first generation citizens 
who lived and worked in the territory for many years creating a solid 
social and economic base. These citizens consider themselves true 
Virgin Islanders and know no other existence besides the life that 
currently exist. We embrace each other and the vast majority live in 
harmony.
    If the many of provisions proposed in this document are adopted I 
believe that it will rip this delicate social and economic fabric apart 
and create disharmony in our community unlike anything that we have 
seen before.
    In addition, I believe that with these provisions included, the 
document will find it almost impossible to be ratified by the citizens 
of the territory. This possibility is most disturbing to me as I am 
convinced that this is an important step toward self-determination. It 
is important to note that this is our fifth attempt at ratifying a 
document and as time elapses it will become increasingly difficult to 
reach consensus as the population rapidly changes.
    It is with great trepidation that I request the Congress of the 
United States to make the necessary changes to the proposed 
constitution so that some of the constitutional concerns may be 
alleviated, avoid social and economic distress, and allow the document 
to be more acceptable to the vast majority of citizens to insure 
ratification upon it's return to the people of the Virgins Islands. 
Some say that if congress as much as change one word in the proposed 
document that it no longer is ``a document of the people''. I beg to 
differ as upon ratification it will become the people's document to 
change and modify as prescribed within.
    Therefore, without any further due I request that the Congress of 
the United States make that following changes to the Proposed Fifth 
Virgin Islands Constitution as follows:
1.  Delete--Article II, Principles of Government. Section 5--Supreme 
        Law of the Virgin Islands. ``This Constitution shall be the 
        supreme law of the Virgin Islands''.
    The removal of this clause will eliminate any ambiguity that may 
arises concerning the sovereignty of the United States Constitution 
over the Virgin Islands of the United States.
2.  Delete--Article VI, Executive Branch. Section 3, subsection (d). 
        ``be an Ancestral Virgin Islander or Native Virgin Islander''.
    The removal of this clause will not only alleviate constitutional 
concerns, but avoid social distress on the part of citizens who will 
not qualify as a Native Ancestral Virgin Islanders''
3.  Delete--Article XI, Taxation, Finance and Commerce. Section 5, 
        subsection (g). ``No Real Property tax shall be assessed on the 
        primary residence or undeveloped land of an Ancestral Native 
        Virgin Islander''.
    This provision will destroy the property tax base of the territory 
and have grave negative economic impact.
4.  Delete--Article XVII, Political Status Advisory Commission. section 
        1, subsection (b) ``who are Ancestral Native and/or Native 
        Virgin Islander''
    This section makes special provisions for Native and Ancestral 
Natives which will prevent tax paying citizens from participating in 
the election process and prevent them from being appointed to this 
commission.
5.  Delete--Article XVII, Political Status Advisory Commission. section 
        2, subsection (b). ``The special election on status shall be 
        reserved for vote by Ancestral Native and Native Virgin 
        Islanders only, whether residing within or outside the 
        territory.''
    This provision allows Native and Native Ancestral Virgin Islander 
regardless of there current relationship to the community to vote on 
the status issue while preventing tax paying citizens from voting.
6.  Delete--Article XVIII, Constitutional Amendments, section 7--
        Ratification of Amendments. ``Ancestral and Native Virgin 
        Islanders, including those who reside outside of the Virgin 
        Islands or in the military, shall have the opportunity to vote 
        on Constitutional amendments''.
    This clause will render voting rights to Native and Ancestral 
Native Virgin Islander who have no recent ties to the territory, and 
who are not domiciled in the territory.
    Once again I would like to thank you for allowing me to testify 
today and I hope that my testimony is useful in your consideration of 
the proposed Virgin Islands Constitution.
                                 ______
                                 
    Ms. Bordallo. Very good. Thank you, Dr. Petersen, for a 
very passionate testimony that you gave before the 
Subcommittee. I now recognize Mr. Brady for five minutes.

             STATEMENT OF DOUGLAS BRADY, DELEGATE, 
                FIFTH CONSTITUTIONAL CONVENTION

    Mr. Brady. Thank you very much, Madame Chairwoman Bordallo, 
Congresswoman Christensen. Good afternoon. Thank you very much 
for this opportunity to testify. I like my good friend Dr. 
Petersen was one of the five dissenting members of the 
constitutional convention, and also one of the 11 signatories 
to two letters that were sent dated January 29, 2010, to 
President Obama and to Congresswoman Christensen, including 
proposed modifications to the document. I would ask the Chair 
if those letters and attachments could be added to the record 
of the Subcommittee, together with my written statement.
    Ms. Bordallo. No objection. So ordered.
    [NOTE: The letters submitted for the record have been 
retained in the Committee's official files.]
    Mr. Brady. Thank you, Madame Chair. I am here speaking as 
an individual. Congress has gone a long ways over the last 93 
years to grant autonomy to the people of the Virgin Islands. As 
of 1968, we elect our own Governor. We now have the right to 
determine the number of our legislators and the apportionment 
of our legislature. As of 1984, the Revised Organic Act 
amendment gives virtually unlimited jurisdiction over local 
matters to our local courts.
    But these have all been imposed upon us by acts of 
Congress. This is our opportunity to create our own structure 
of local government. And this is such a great opportunity, as 
the speakers before me have mentioned, and as the Subcommittee 
is well aware. The document before you represents the fruits of 
the labors of the Fifth Constitutional Convention, and those 
were diligent and difficult labors. Congress has 60 days to 
act. The realities of acting within 60 days are well 
understood. A very short time, notwithstanding everything else 
that you all have on your plate these days.
    But frankly, the failure to act has been discussed well, 
and the document will be deemed approved. But candidly, that 
would appear to me, as Delegate Christensen mentioned earlier, 
as inconsistent with the article 4 oversight responsibilities 
of the Congress. And frankly, it would be politically the death 
knell of this document, which would be dead on arrival in this 
format back to the Virgin Islands.
    It would also signify either that the Congress doesn't care 
enough about the Virgin Islands to send back a document that is 
unquestionably inconsistent with the provisions of the Equal 
Protection Clause of the U.S. Constitution applicable to the 
Virgin Islands.
    Saying all that, the congressional is and must be limited 
only to make sure that U.S. sovereignty is recognized and only 
to make sure that the document presented is recognized as 
consistent with the U.S. Constitution, treaties, and laws. The 
document, as has been said by many speakers, is consistent and 
does recognize U.S. sovereignty from the first paragraph of the 
preamble acknowledging our status as an incorporated territory. 
It is clear that we recognize that U.S. sovereignty governs the 
Virgin Islands throughout the document, several references. And 
the very thorough analysis of the Department of Justice 
confirms that, regarding U.S. sovereignty, there is substantial 
compliance.
    The big, big, big problem with the document is the fact 
that legal advantages are conferred on certain classes of 
people. Those same legal advantages are denied to other classes 
of people. The history of the Virgin Islands and Virgin 
Islanders is a proud one, and the pride in the heritage of 
ancestors is to be commended. And there are means by which this 
can be accomplished. However, granting special privileges to 
certain classes of people, and within--and as the Department of 
Justice analysis recognizes clearly, differentiating between 
somebody who moved to the Virgin Islands in 1931 and somebody 
who moved to the Virgin Islands in 1933 cannot support any 
legitimate governmental concern.
    As my red light is now on, I am going to close up here. But 
I would like to ask Congress to do what is clearly a difficult 
task, and that is to strike those specific five provisions of 
the document as it is before you that grant those special 
rights.
    Just very, very briefly, the other matter concerning 
territorial waters, there is a quick fix. And I think as other 
testifiers have said, it was the intention of the Convention to 
recognize that provision on territorial waters can only be 
considered in a manner consistent with U.S. laws. And I would 
recommend the inclusion of the document. It is not a perfect 
document. I voted against many of the provisions. But it is our 
document. And therefore, I would suggest that Congress must act 
to give us back a document upon which we can vote, and must not 
go farther than that.
    The people of the Virgin Islands deserve to have an 
appropriate document returned to them. And I thank you for your 
consideration.
    [The prepared statement of Mr. Brady follows:]

     Statement of Douglas A. Brady, Delegate, Fifth Constitutional 
             Convention of the United States Virgin Islands

    With appreciation to the Subcommittee for considering these 
remarks, I write concerning this matter of the utmost importance to the 
people of the Virgin Islands. I ask that the Subcommittee also consider 
letters of January 29, 2010 from eleven delegates of the Fifth 
Constitutional Convention to President Obama and to Congresswoman 
Christensen, each enclosing a copy of the proposed constitution marked 
up to reflect recommended modifications to eliminate those provisions, 
and only those provisions, deemed to be infirm as inconsistent with the 
Federal Constitution. Copies of those letters and of the marked up 
proposed constitution were submitted by my letter to Chairwoman 
Bordallo dated March 8, 2010.
Background
    Congress enacted the 1976 enabling legislation permitting the 
people of the Virgin Islands to adopt a constitution for local self-
government ``recognizing the basic democratic principle of government 
by the consent of the governed.'' (Act of Oct. 21, 1976, Pub. L. 94-
584, 90 Stat. 2899.)
    Over the past half century, exercising its Article IV, Section 3 
power respecting the Territories of the United States, Congress has 
enhanced the political autonomy and self-governance of the Virgin 
Islands, enacting laws to establish the popular election of our 
governor, to permit local law to determine the number and apportionment 
of legislators and granting virtually unlimited jurisdiction over local 
matters to the courts of the Virgin Islands.
    These important steps in achieving political self-determination for 
Virgin Islanders have been granted by federal legislation. But by 
Public Law 94-584, Congress has authorized the people of the Virgin 
Islands to organize our own government pursuant to a constitution to be 
adopted by Virgin Islanders. With this prospect of self-governance as 
our goal, this process upon which we have embarked is among the most 
significant in the ninety-three year history of the American Virgin 
Islands. It is a process that must succeed in order that we may realize 
a government of the Virgin Islands crafted and adopted by the consent 
of the governed.
    In 2004, pursuant to Public Law 94-584, the Twenty-Fifth 
Legislature of the Virgin Islands enacted Act No. 6688 establishing the 
Fifth Constitutional Convention of the Virgin Islands ``as a 
significant step toward greater self-determination and autonomy in the 
Territory's relationship with the United States Government.''
    The delegates to the Fifth Constitutional Convention elected by 
Virgin Islands voters, despite limited resources, diligently labored to 
prepare and adopt a proposed constitution for submission by the 
Governor of the Virgin Islands to the President and Congress in 
compliance with Public Law 94-584. Notwithstanding those diligent 
efforts, it is recognized that the proposed constitution before the 
Subcommittee is flawed and, in parts, out of harmony with provisions of 
the Constitution and laws of the United States.
    As recommended by the February 23, 2010 analysis of the U.S. 
Department of Justice Office of Legislative Affairs (``DOJ Analysis'') 
submitted with President Obama's February 26, 2010 transmittal to 
Congress, those constitutionally infirm sections of the proposed 
constitution, and only those sections, should be modified by Congress 
before the proposed constitution is returned for submission to the 
qualified voters of the Virgin Islands.
Analysis
    The need for limited Congressional action. President Obama and the 
DOJ Analysis note nine features of the proposed constitution that 
``warrant comment.'' The last of those features concerns ``the effect 
of congressional action or inaction on the proposed constitution.'' In 
the event that Congress fails to approve, modify or amend the proposed 
constitution by joint resolution within sixty days of President Obama's 
transmittal, it shall ``be deemed to have been approved.''
    With deference to Congress, the failure to take timely action would 
be inconsistent with its Article IV oversight powers and 
responsibilities. By the 1976 enabling legislation, Congress granted 
the Territory the power to call a constitutional convention to draft a 
constitution which shall ``recognize, and be consistent with'' the 
supremacy of the Constitution, treaties and laws of the United States. 
To the extent that the proposed constitution is not so consistent, 
Congress would be remiss to permit the document to ``be deemed to have 
been approved.''
    On the other hand, the enabling legislation, recognizing ``the 
basic democratic principle'' of self-governance, authorizes the people 
of the Virgin Islands to organize their own government through a 
constitutional convention comprised of members chosen pursuant to 
Virgin Islands law. In accordance with Public Law 94-584, the Virgin 
Islands Legislature established the Fifth Constitutional Convention, 
with delegates elected by the voters of the Territory. These 
representatives of the people of the Virgin Islands have drafted the 
document before the Subcommittee that is to be returned to the people 
of the Virgin Islands for acceptance or rejection.
    This exercise in government by the consent of the governed, while 
subject to Congressional oversight must remain an exercise of, by and 
for the people of the Virgin Islands. The role of this Congressional 
review process must not be to substitute the judgment of federal 
legislators for that of the people of the Virgin Islands. To the extent 
that the proposed constitution recognizes and is consistent with the 
sovereignty and supremacy of the United States, its Constitution, 
treaties and laws, it must be approved by Congress and returned to the 
people of the Virgin Islands.
    DOJ Analysis bottom line. Notwithstanding its recitation and review 
of nine areas of concern that warrant comment, the DOJ Analysis 
recommends definitively that only two features cause sufficient concern 
to warrant removal or amendment. Those features: (1) provisions 
conferring legal advantages on certain groups based on national origin 
and ancestry; and (2) provisions addressing territorial waters and 
marine resources, are addressed in order.
    (1) Legal advantages conferred on certain groups. The following 
provisions confer different legal treatment of Ancestral Native Virgin 
Islanders and Native Virgin Islanders, defined in the proposed 
constitution in Article III, Sections 1 and 2, from other persons 
within the Virgin Islands:
    <bullet>  Article VI, Section 3(d): Governor and Lt. Governor must 
be ``an Ancestral or Native Virgin Islander;''
    <bullet>  Article XI, Section 5(g): Primary residences and 
undeveloped land of Ancestral Native Virgin Islanders are exempt from 
assessment of real property tax;
    <bullet>  Article XVII, Section 1(b): Political Status Advisory 
Commission is to be created with members ``who are Ancestral Native 
and/or Native Virgin Islanders;''
    <bullet>  Article XVII, Section 2(b): Special election on status 
and federal relations ``shall be reserved for vote by Ancestral Native 
and Native Virgin Islanders only, whether residing within or outside 
the territory;''
    <bullet>  Article XVIII, Section 7: ``Ancestral and Native Virgin 
Islanders, including those who reside outside of the Virgin Islands'' 
have the non-exclusive right to vote in elections to ratify proposed 
constitutional amendments.
    The thorough treatment of these provisions within the DOJ Analysis 
(Sec. II.C., pages 6-10) notes the absence of any expressed or 
discernable legitimate governmental purpose for treating particular 
groups of citizens of the United States and the Virgin Islands 
differently from other groups of citizens concerning any of these 
subject areas. As such, the provisions are in violation of the equal 
protection clause of the Fourteenth Amendment of the U.S. Constitution, 
applicable to the Virgin Islands pursuant to the Section 3 of the 
Revised Organic Act of 1954 (48 U.S.C. Sec. 1561).
    I ask that Congress modify the proposed constitution by eliminating 
Article VI, Section 3(d) and Article XI, Section 5(g) in their 
entirety; by eliminating the phrase ``who are Ancestral Native and/or 
Native Virgin Islanders'' from the first sentence of Article XVII, 
Section 1(b); by eliminating Article XVII, Section 2(b) in its 
entirety; and by eliminating in its entirety the second sentence of 
Article XVIII, Section 7.
    I do not ask Congress to eliminate the definitions of Ancestral 
Native Virgin Islander and Native Virgin Islander. Persons who trace 
their Virgin Islands ancestries back multiple generations are 
justifiably proud of their heritage. The proposed language defining 
these persons simply recognizes that heritage.
    I do believe the inclusion of the definitions language to be 
politically imprudent, and that Virgin Islands ancestry could more 
appropriately be recognized by local legislation or other means rather 
than by constitutional definition. I fear that individuals and other 
groups will see the inclusion of such language not as recognition of 
heritage but as the designation of privileged classes, with the looming 
prospect that different categories of persons will enjoy or suffer 
different advantages or disadvantages.
    As such, I am concerned that the inclusion of definitions, even 
without special privileges, threatens the success of the constitution 
in the referendum before the electorate. Nonetheless, in keeping with 
the view that the limited role of Congressional review extends only to 
insuring compliance with the Federal Constitution, treaties and laws, I 
ask that the language defining Ancestral Native Virgin Islanders and 
Native Virgin Islanders be approved.
    (2) Territorial waters and marine resources. Article XII, Section 2 
of the proposed constitution asserts sovereignty of the Virgin Islands 
over its ``inter-island waters to...extend 12 nautical miles from each 
island coast up to the international boundaries.'' The DOJ Analysis 
notes that while the meaning and effect of this provision are not 
clear, concerns exist that claims of Virgin Islands sovereignty are 
inconsistent with federal law to the extent intended to derogate from 
the sovereignty of the United States.
    This legitimate concern set out in the DOJ Analysis can be readily 
resolved in a manner that, although it doesn't clarify the intent, 
meaning and effect of the provision, does allay fears of any attempted 
usurpation of federal sovereignty.
    I recommend that at the end of the last sentence of Article XII, 
Section 2, a phrase be added, such that the last sentence reads: ``This 
is an alienable right of the people of the Virgin Islands of the U.S. 
and shall be safeguarded, in a manner consistent with the laws of the 
United States.'' (Added phrase in italics.)
    Other DOJ concerns. Apart from those two features of the proposed 
constitution noted above, the DOJ Analysis does not recommend that any 
other provision of the document must be eliminated or modified to 
assure compliance with the Constitution, treaties and laws of the 
United States. Several other features of the proposed constitution 
which warranted comment in the DOJ Analysis are addressed here.
    (1) Recognition of U.S. sovereignty and the supremacy of U.S. laws. 
The Department of Justice indicates that it would be preferable that 
Congress modify the proposed constitution in order that its language 
explicitly recognizes the sovereignty of the United States and the 
supremacy of its Constitution and laws. Yet, its bottom line is that 
the language of the proposed constitution substantially complies with 
the requirements of Public Law 94-584 by its implicit recognition of 
federal sovereignty and the supremacy of federal law (Sec. II.A., pages 
3-6).
    As the DOJ Analysis notes, the very first paragraph of the proposed 
constitution in its preamble states that the people of the Virgin 
Islands are establishing a constitution assuming the responsibilities 
of self-government in the context of our status ``as an unincorporated 
territory of the United States.''
    The DOJ Analysis notes that federal case law has clearly defined 
the relationship between the United States and its unincorporated 
territories in a manner that recognizes federal sovereignty and the 
plenary authority of Congress over territorial affairs. Accordingly, by 
its reference to the Virgin Islands' status as an unincorporated 
territory, the proposed constitution has unmistakably, although 
implicitly, recognized U.S. sovereignty and the supremacy of federal 
law.
    The DOJ Analysis further notes that other provisions of the 
proposed constitution also recognize the authority of Congress over the 
Virgin Islands. The third paragraph of the preamble recognizes that the 
1917 treaty between the United States and Denmark confirmed that the 
civil rights and political status of the inhabitants of the Virgin 
Islands were to be determined by Congress. Additionally, Article IV, 
Section 4; Article V, Section 1; Article VII, Section 2; and Article 
VII, Section 3 all recognize the applicability of and the requirement 
of consistency with the Federal Constitution and laws in the context of 
holding public office, limitations on legislative power, and the 
supremacy of federal law with reference to judicial decisions and 
rulemaking.
    It is in this context that the language of Article II, Section 5 of 
the proposed constitution recognizing that ``This Constitution shall be 
the supreme law of the Virgin Islands'' must be read. As the DOJ 
Analysis concludes, the recognition of federal sovereignty and the 
supremacy of federal laws in the various provisions of the proposed 
constitution confirm its substantial compliance with the enabling 
legislation. No changes to the proposed constitution are required in 
this regard.
    (2) Residency requirements for office holders. The proposed 
constitution requires that persons seeking the offices of Governor and 
Lieutenant Governor must have been domiciliaries of the Virgin Islands 
for fifteen years, at least ten of which must immediately precede the 
date of filing for office.
    The DOJ Analysis well describes the potential equal protection 
concerns inherent in such a lengthy residency requirement for office 
holders. Indeed, in light of the cited case law, a shorter period of 
required residency may be preferable. Yet, the cited decisions clearly 
confirm that the U.S. Supreme Court has held that some durational 
residency requirement is constitutionally permissible. Also, the 
Department of Justice notes that ``the territorial status and unique 
history and geography of the USVI make familiarity with local issues 
particularly important for office-holders there, [such that] the 
governmental interests supporting durational residence requirements for 
USVI offices may be particularly strong.'' (Sec. II.D., page 13.)
    In this setting, the representatives of the people of the Virgin 
Islands have determined proper requirements for persons seeking to hold 
office. Whether that determination violates the equal protection rights 
of office seekers who have resided in the Virgin Islands for shorter 
periods is a judgment to be made by the courts of the Virgin Islands 
and the United States, if and when such a challenge is presented. 
Alternatively, the people of the Virgin Islands themselves can shorten 
the period by amendment to the approved constitution.
    The role of Congress as to this provision should not be to 
presently substitute its view for that of the representatives of the 
Virgin Islands people in the context where no clear equal protection 
violation is evident. No modification to the proposed constitution 
should be imposed as to this provision.
    (3) Violation of ``one person, one vote'' in legislative 
districting. In analyzing the propriety of the proposed constitution's 
requirement that the island of St. John have its own legislator, 
competing interests must be weighed. Strict adherence to the ``one 
person, one vote'' principle would effectively deprive residents of St. 
John from any direct and meaningful legislative representation. On the 
other hand, assuring such legislative representation will modestly 
dilute the effectiveness of the representation of residents of the 
other islands. The delegates to the Constitutional Convention have 
resolved this dilemma in favor of assuring representation for the 
people of St. John.
    The cited case law within the DOJ Analysis establishes that equal 
protection concerns in such settings can only be resolved upon a review 
of the specific existing factual circumstances. As is true of the 
preceding provision addressed, the role of Congress in this context 
must not be to substitute its judgment for that of the representatives 
of the people of the Virgin Islands.
    The Department of Justice does not recommend specific changes to 
this provision of the proposed constitution, notwithstanding noting the 
potential litigation risk inherent in such legislative apportionment. 
The potential for litigation exists in numerous provisions of the 
proposed constitution, and litigation concerning those provisions will 
keep the Virgin Islands Supreme Court busy for years to come. Yet, such 
litigation is part of the process of establishing autonomy and self-
governance for the people of the Virgin Islands.
    As recommended by the Department of Justice, the provisions 
relating to legislative apportionment should not be the subject of 
Congressional modification.
Conclusion
    Consistent with its Constitutional oversight responsibilities, 
Congress must act to insure that the proposed constitution of the 
Virgin Islands recognizes and is consistent with the sovereignty and 
supremacy of the Constitution and laws of the United States. This can 
be accomplished by the elimination of several specific provisions that 
violate the equal protection clause of the Fourteenth Amendment 
applicable to the Virgin Islands.
    Specifically, the proposed constitution should be modified by the 
striking the language referenced above from those sections that confer 
legal advantages on certain groups of persons based upon the place and 
timing of birth and ancestry: Article VI, Section 3(d); Article XI, 
Section 5(g); Article XVII, Section 1(b); Article XVII, Section 2; and 
Article XVIII, Section 7.
    Further, to insure compliance with federal laws, a qualifying 
phrase should be added to proposed Article XII, Section 2, the last 
sentence of which should be modified to read: ``This is an alienable 
right of the people of the Virgin Islands of the U.S. and shall be 
safeguarded, in a manner consistent with the laws of the United 
States.'' (Added phrase in italics.)
    With those modifications, the proposed constitution should be 
approved and in accordance with Public Law 94-584 submitted to the 
voters of the Virgin Islands for acceptance or rejection.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Mr. Brady. I understand 
you are an attorney practicing in the Virgin Islands. And I 
want to thank all of the members of the second panel for being 
very cognizant of the time. And now we will be open for 
questions, and I am sure that you will have answers for most of 
our questions.
    The first one is for you, Mr. Bryan. What is your reaction 
to the request for Congress to amend the proposed constitution 
to remove those provisions recommended by the Department of 
Justice to prevent it from being rejected by the voters.
    Mr. Bryan. You said Mr. Bryan, right?
    Ms. Bordallo. Yes.
    Mr. Bryan. That is me over here.
    Ms. Bordallo. Oh, that is right. I am sorry.
    Mr. Bryan. Good. I don't believe that the U.S. Congress or 
any one of us sitting in this room, whether Governor, delegate 
to Congress, or delegate to the convention are the final 
arbiter for the constitution for the people of the Virgin 
Islands. No court should settle this definition. If you read 
the sales treaty between the United States and Denmark, it said 
any misunderstanding or misinterpretation of the document 
should be finalized in the Hague and the Congress and the 
President of the United States, and no person in this room is 
that person for final arbiter. The only definition that you can 
find that settles a constitutional question is the Supreme 
Court. But our authority pursuant to the Danish and United 
States sales treaty takes us far beyond any courts in the 
Virgin Islands or the United States. We can go to the United 
Nations pursuant to resolution 1514, 1541, and 15135.
    I am saying that this is not the final arbiter. I don't 
think Congress--because I am sure that all of us sitting in 
this room, and even the President of the United States, know 
full well that it was no Indian who was a Native American 
present when the United States drafted the Constitution. I 
cannot submit myself to an individual who has no history or no 
knowledge of my ancestral past to tell me or my people who 
should be eligible to run the country that I am from.
    We are not in a position--as a veteran of the Vietnam era, 
I am in the Virgin Islands. I can't even vote for the President 
that can send me or my children to war again. We go home to the 
Virgin Islands and don't get the benefits. I go to the Supreme 
Court, and they tell us you are not a part, you are an 
appurtenance, and, oh, the Constitution does not apply to me. 
So arbitrarily, I heard a gentleman--that he was sitting right 
here. He said the legal connotations for native or national 
will not be recognized. Well, then why is it the U.S. Congress 
and the United States of America recognize African-American, 
Native American, Chinese-American--all these Americans and 
women. Who do you think that woman mean? The Caucasian woman 
because she is already in the majority in the United States. So 
when we look at the whole confusion here, it is clear to me 
that the whole attitude is about the population of people, not 
so much about the Congress. Congress should not have the final 
say in this document. That is my position.
    Ms. Bordallo. Mr. Bryan, I sympathize with you. Guam is in 
the same situation. And we are coming on like 30 years now, 
still trying to decide on our constitution.
    Mr. Bryan. We have 93 years.
    Ms. Bordallo. Would you agree inasmuch as it has taken all 
of these years and all of these different proposals have been 
put forth--I think this is our fifth. Is that correct? Do you 
agree that if this proposed constitution fails, it will become 
almost impossible for the territory to adopt one in the future?
    Mr. Bryan. I don't think so, and I can explain to you why. 
From the beginning, on the onset, if the U.S. Congress had 
followed the resolutions of 1514, 1541, and the others of 15, 
they should have specified that only the people of the Virgin 
Islands or native of the Virgin Islands shall be eligible to 
vote, shall be eligible to be delegates, and shall be eligible 
to decide what it is because it is clear that we are allowing 
the situation that happened to Hawaii and Alaska and Guam to 
overpopulate our people to set the position that everybody who 
has a constitution written from where they came from. Everybody 
in the United States, whether they are from Kentucky, Wyoming, 
New Jersey, had a constitution written by them for them, and 
not by none of us a Virgin Island native.
    So I am saying if you don't put that provision, only native 
Virgin Islanders or ancestral Virgin Islanders shall be able to 
be eligible and vote on the document--I can give you a better 
example just some weeks ago. We are at war as U.S. citizens and 
Americans in Afghanistan and Iraq. We have Iraqis living in the 
United States. They are voting on the election where they don't 
live. And they are voting to make decisions here. We here are 
sending our soldiers from the Virgin Islands, Puerto Rico, 
Guam, and any other state to fight against these people.
    There is no provision that you say that a Sunni can't vote 
or a Shiite can't vote. You say Iraqis. So the parties only 
have lived there for the rest of--and they are making 
decisions. Oh, wait. Are you saying that native Virgin 
Islanders as represented by Minority Leader Richards should 
have the same provisions to make them there.
    Ms. Bordallo. All right. Dr. Petersen, I have a couple of 
questions for you. Thank you, Mr. Bryan. First, are you 
comforted by the fact that if the proposed constitution is 
adopted by the voters without any change, the courts would 
likely strike down the controversial provisions that you are 
asking us to change?
    Dr. Petersen. I cannot speak for the court, but I know it 
probably will end up in court. Many of the citizens that I 
speak to are poised as we speak to challenge many of the 
provisions in the document. I would also like to point out that 
there is an ironic situation here where we have a present 
gubernatorial candidate that was not born in the Virgin 
Islands. And should he win the election in November, and this 
constitution is ratified in November election, he automatically 
becomes ineligible to serve. And so there is quite a bit of 
irony here, and I do believe that these provisions need to be 
addressed.
    Ms. Bordallo. My second question also to you, Dr. Petersen, 
you say that you believe that if the controversial provisions 
of the draft constitution are adopted, it would make it also 
impossible for the document to be ratified. On the other hand, 
you heard Governor deJongh urge us not to even edit the 
document because to do so would run contrary and counter to 
true local self-governance. What is your opinion of the 
position that the Governor is taking?
    Dr. Petersen. Well, as I said near the end of my statement 
that I beg to differ because----
    Ms. Bordallo. Yes, you did.
    Dr. Petersen.--once the constitution--once the document is 
returned to the people for the vote, they would have adopted 
the constitution as their own. And so whatever provisions were 
changed by Congress, which as Delegate Christensen pointed out, 
that the Congress does have a duty and a responsibility to 
uphold the United States Constitution and make whatever changes 
are necessary so that the document complies with the United 
States Constitution. So I believe that if it is returned to the 
people, modified, and it possibly would be voted in--and the 
changes that we are requesting are--there are many other things 
that we see that are improper or impractical with the document, 
but we believe those things can be changed once the 
constitution is ratified.
    There are provisions within the document that provides for 
review within five years, and also there are areas for 
amendment to the constitution.
    Ms. Bordallo. I have always been of the philosophy, because 
I have sat on our constitution commission in Guam for a number 
of years, and I have always said, let's get the foot in the 
door.
    Dr. Petersen. Yeah.
    Ms. Bordallo. And then once it is in, and we have a 
constitution, we can always repeal or add on to it. And like 
you said, in yours, every five years it would go before the 
people again for--isn't that what yours says, every five years 
for reauthorization?
    Dr. Petersen. I think the first review is within five 
years, and then thereafter after ten years. I would also like 
to point out here that within the document itself--and I think 
if the document is adopted, that changes and amendments process 
does not include the Congress of the United States any longer. 
So once Congress approved----
    Ms. Bordallo. So it would be just before the people.
    Dr. Petersen. Yeah. It goes to the people, and it is 
amended as provided therein.
    Ms. Bordallo. Very good. Thank you very much. And now I 
would like to turn it over to the representative from the 
Virgin Islands, Dr. Christensen.
    Mrs. Christensen. Thank you, Madame Chair. And before I ask 
my questions, I wanted to recognize the presence of Senator 
Shawn-Michael Malone, a member of the 28th Legislature. And if 
my memory serves me correctly, he took the measure first 
introduced by Senator David Jones in a prior legislature and 
introduced it in the last legislature that created the 
constitutional convention. So I wanted to recognize his 
presence.
    I have some specific questions about the document itself. 
And anyone can answer, probably not all. But maybe two people 
can answer this question. Why after the first four documents 
had a provision for something akin to a chief financial officer 
was such an office not included in this document? After many 
people continued to talk about the need for a chief financial 
officer, and it has been clear since I introduced it twice in 
the Turnbull Administration and once in the deJongh 
Administration, got it out of the House, and have been 
consistently blocked in the Senate because of the 
nonconcurrence of Governors which will probably continue into 
the future, why was it not included in this? Was it discussed 
and rejected, or was it not discussed at all?
    Dr. Hassell-Habtes. Delegate Christensen, this area was not 
discussed in the Fifth Constitutional Convention, not for CFO. 
What the convention recognized, what we thought was the concern 
for fiscal accountability, was the need for an auditor general. 
And the constitution provides for an inspector general who 
would have that responsibility. So we did not discuss the 
establishment of a CFO in this constitution.
    Mrs. Christensen. No. And I don't think that the prior ones 
had specifically necessarily a chief financial officer. The 
fourth had an auditor general. But it was my understanding that 
the duties were fairly similar and that they were concurrently 
monitoring the spending and the finances of government, not 
going back as an inspector general was. Now the current one 
would be an inspector general that goes back and reviews 
documents past.
    Dr. Hassell-Habtes. That is what we presently placed in 
this constitution, yes.
    Mrs. Christensen. OK, thank you.
    Mr. Bryan. If I might add, please.
    Mrs. Christensen. Yes.
    Mr. Bryan. I think your question is appropriate because if 
the delegates to the U.S. Congress right now could not have 
convinced the members of the committee or the Congress to put 
it in the Federal laws through the Department of the Interior 
to administer these things--and with the Governor who was 
sitting earlier, I think he was supportive before. After he got 
elected, I think he supported it. Just as he came here to 
testify against the constitution convention document for native 
Virgin Islanders, do you feel he wanted to protect him? He 
should have asked that that be included. He had opportunity 
long ago, and there is still the opportunity right here in the 
Congress to put it in place.
    Mrs. Christensen. Yes. We did pass it through the House on 
three occasions, but we could not get it through the Senate 
because it really requires--or it was required of us that the 
Governor in both instances, both in the Turnbull Administration 
and this Administration, concur, and they didn't get that 
concurrence, and so the Senate would not pass it. So it has 
been going up against a wall three times.
    There has also long been a movement or a lot of discussion 
about municipal government, which many I think anticipated that 
the next constitution would provide for. And I realize you have 
some different governing structures on the island, but not true 
municipal government. Was that discussed and debated and 
rejected, or was it not a discussion at this convention?
    Mr. Emanuel. Thank you very much, Delegate de Lugo [sic.].
    Mrs. Christensen. De Lugo?
    [Laughter.]
    Mr. Emanuel. I think I have been reading too much history. 
Delegate Christensen.
    Mrs. Christensen. Well, you know, the past Congress, people 
were on the Hill just yesterday and had an even last evening, 
so OK.
    Mr. Emanuel. No. The Fifth Constitutional Convention did 
debate municipal government to a large extent, and there are 
provisions within the document that address that specifically.
    Mrs. Christensen. I see that there is some structure on 
each island, but not what I would really consider municipal 
government. But there is some attempt to have each island have 
a structure.
    Mr. Emanuel. What we did is we didn't want to legislate 
within the constitution. We felt that the constitution is 
supposed to provide broad parameters. We have a legislature. 
You can create commissions and so forth. So we put the 
principle in there in some detail, but we felt it was best to 
have each island determine for itself what form of municipal 
government it would like, and the legislature would eventually 
have to approve that.
    Mrs. Christensen. I see. Which leads me into my next 
question. Did you want to respond as well?
    Mr. Bryan. Yes. I wanted to put on record because we keep 
hearing individuals in different terms use the word municipal 
government, sub-district, and municipalities. And when I read 
what they wrote and brought to the convention for discussion 
and debate, those were sentiments clearly of apartheid. That is 
what they want to do. Look at the population and see what they 
wanted to have. Municipal government, sub-district, and the 
authority to change the laws when it comes to taxation--so 
basically, we almost end up another South Africa.
    Mrs. Christensen. Thank you for that response. But the 
issue of providing broad parameters bring me to my next 
question. And I would direct this to Dr. Hassell-Habtes. In the 
report by the Congressional Research Service, it is discussed 
that while it is not inconsistent with Federal law in any 
manner, mandating a 20-student class limit may prove to be 
inflexible to changing economic and demographic patterns over 
time. And while I understand the need to counter classroom 
overcrowding and really support small classrooms and reduction 
of the demand on our already-overextended educators, don't you 
think that this provision requiring a 20-student cap could 
possibly become restrictive over time, and aren't these 
provisions overly prescriptive for a constitution?
    Dr. Hassell-Habtes. Thank you, Delegate Christensen. The 
concern--I mean, the education and culture committee had many, 
many meetings, many testifiers, including the University of the 
Virgin Islands, the president, Dr. Ragster, the Board of 
Education chair. We see the need for smaller classrooms. The 
research bears us out on this. There are no ifs, ands, or buts. 
The problem in the Virgin Islands is we continue to overcrowd 
our classrooms, and then we want to have the teachers and the 
administrators of our schools at the same adequate yearly 
progress standards. They have to do exactly the same thing as 
other classes through the nations, throughout the nation, and 
that is a problem right there.
    Right now, we are suffering in our territory. The crime--
you may say it is crime, but I beg to differ. It starts with 
education. It starts with education in our classrooms, giving 
our students what is necessary and ensuring that they have a 
foundation within which they can get jobs and not be out on the 
streets killing each other. I understand yesterday there was 
another murder in St. Croix. This is what is happening, and it 
is a certain generation of males that are dying as a result of 
it. They are between certain ages.
    We are actually suffering right now in the territory from 
January to now. The numbers have been increasingly one almost 
every day. And as a result, it behooves us to change to make 
sure that our future generations are well educated, have the 
foundation skills with which they can survive.
    Mrs. Christensen. I definitely agree with the intent of the 
provision, and I share deeply your concern. Two people were 
killed in St. Thomas the day before, and one in St. Croix 
yesterday as you said, and it continues. And education is a key 
part of resolving that issue. It is just I had a question about 
whether it was something that should have properly been in a 
constitution. But it is there, and if we were to consider 
changing anything in it, with taking what has been said to us 
here under advisement, that would not be one of the things we 
would ever consider changing.
    Dr. Hassell-Habtes. Thank you.
    Mr. Bryan. Could I comment on education?
    Mrs. Christensen. You have a comment on education?
    Mr. Bryan. Yes, ma'am. Thank you. I think Chairperson 
Bordallo would probably tell us that in the curriculum of 
education in Guam, the Guamanian children from the early age 
understand who they are, what they have contributed to the 
society, and the sense of pride in their native land. In the 
Virgin Islands, though, there is a law that is over 20 years 
old that require the Governors, the present one who was here 
and the others before him, and the Department of Education to 
teach the children of the Virgin Islands and the Caribbean the 
history of their ancestors and the greatness of their 
contribution so that they can understand who they are.
    These activities are taking place because of the 
miseducation of the population of the children of the Virgin 
Islands that is continuing because it is only a particular 
grade or class of people that are being killed in a firearms 
situation. The minute a Caucasian is killed, all the law 
enforcement, all the marshals, all the DEA and the ATF, they 
are around searching and stopping cars. As soon as a young 
black individual or Hispanic is killed, they drive as if 
nothing is unusual. You can have individuals showing more 
concern about the turtle, a snake, a lizard, and a dog and a 
cat, than they are concerned about the people of the Virgin 
Islands when it comes to education. So it is a Eurocentric 
educational curriculum that needs to be enforced so the 
children of the Virgin Islands that are involved in these 
things, like the children of Guam and other islands, can 
understand their greatness as opposing to not understanding who 
they really are supposed to be contributing to.
    Ms. Bordallo. I agree with your comments.
    Mrs. Christensen. Yes. And, I was taught at least the 
history of the Virgin Islands, maybe not the Caribbean, when I 
was even in Catholic school. And I think it is very important. 
You know, if you don't know where you came from, you will never 
figure out where you are going.
    Dr. Hassell-Habtes. Madame Chair, could I comment just one 
more thing on that? Because the problem that we have with 
education and teaching the history and culture of the Virgin 
Islands is that many of our teachers are coming to us from 
other jurisdictions, other places, and do not know the culture 
and history. I know my fellow delegate, Gerard Emanuel, and 
myself just on Saturday afternoon provided training through the 
board of education on cultural education and the mandate to 
infuse culture within the curriculum to the teachers because 
the teachers also do not have the time to research this history 
and to get it into the classrooms.
    So what we do as trainers of these teachers in culture and 
history is provide them with the necessary materials. But that 
is why education is so important.
    Mrs. Christensen. It is.
    Ms. Bordallo. Yes. If I could inject just a minute. Yes, in 
Guam our education system--you know, right after the war, we 
got kind of--well, it was, speak English, speak English. Of 
course, we have a language in Guam. So now it is mandatory that 
we teach the Chamorro history and our language. So that is one 
good thing, and we do have teachers that are trained in the 
culture. And they are placed in all of the schools. So that is 
a good thing, although I think that there should be a bit more 
of it, but certainly we are starting on it. And now we are 
trying to revive it because our youth, you know, we speak 
English in Guam. And our parents, there is a generation now--we 
are about three or four generations from the days right after 
the war. And children now, they can speak a little of the 
language, but certainly not fluently.
    Mrs. Christensen. Thank you. At least yours is being 
enforced. So that is really helpful. Madame Chair, if I could 
just ask two brief questions. By again, any one of the 
delegates, or maybe all might be able to answer because I think 
the answers could be very brief.
    How would the delegates feel about reconvening the Fifth 
Constitutional Convention to address the three highlighted 
areas in Mr. Cedarbaum's testimony?
    Mr. Bryan. You said reconvene?
    Mrs. Christensen. And I welcome--how would you feel?
    Mr. Bryan. You said reconvene?
    Mrs. Christensen. To reconvene. The same question I had 
asked to the previous panel pretty much. How would you feel 
about reconvening to address the three areas or reconsider the 
three areas of concern that were highlighted by the assistant 
attorney general's testimony?
    Mr. Bryan. I don't agree that we need to reconvene to 
address what the Justice Department said. As I said previously, 
the final arbiters of this decision is not only a 
constitutional issue that goes to other higher, whether the 
U.N. or the Hague. But I say if you are going to reconvene it, 
you must have other stipulations that only people of the Virgin 
Islands be delegates, and substitutes those that are the Virgin 
Islands with people of the Virgin Islands and only require that 
the people of the Virgin Islands because the difference between 
people of the United States and people in the United States. 
The Iraqis are in the United States, but they are of Iraq. So 
we want to make sure that we have the same privilege and rights 
to represent our future of the Virgin Islands.
    Mrs. Christensen. Any other comment about reconvening?
    Mr. Brady. I will respond, Delegate Christensen. I wouldn't 
be optimistic that it would be successful. But I do think, as 
perhaps even as can be seen from the fact that 11 delegates 
signed a letter to yourself and President Obama----
    Mrs. Christensen. And could you explain how five voted 
against and eleven signed the letter?
    Mr. Brady. Well, there are only 25 who voted in favor, 25 
who voted total. The count was 20 to 5, 20 in favor, 5 against. 
Some of the persons who--I can't speak for others, of course, 
but some of the people who signed that letter of the 11 did 
vote in favor. Some had--one had abstained, and several had 
been absent. But I think that there has been a--the vote was 
taken in a very rushed fashion as the clock was ticking. We 
were at the 11th hour, and we had to say yea or nay.
    Mrs. Christensen. Don't you know moving the clock back?
    Mr. Brady. That is a good idea. We didn't think we had that 
authority. We didn't have the control-the-clock hands. But in 
any event, I think people have rethought. I have concern that 
if we are going to be able to get a two-thirds majority, 
perhaps a two-thirds majority would not vote in favor of these 
particular provisions today. So in that sense, I don't know 
how----
    Mrs. Christensen. It may never happen, but I was just 
wondering if there were any thoughts about whether it would 
make any sense to reconvene to consider those.
    Dr. Hassell-Habtes. Delegate Christensen, I just wanted to 
say I got a copy of the letter to President Obama, and he is 
saying 11 signatories on there, but I am seeing only seven. I 
am seeing only seven signatories on that document. So although 
they may have added other people's names there, the signatories 
are not on that letter.
    Dr. Petersen. The response to that is----
    Dr. Hassell-Habtes. I am concerned, if we are going back to 
reconvene the convention, only because the delegates were 
united when we voted accordingly for this constitution. And to 
reconvene is going to take us back to the beginning of the 
convention, 2006, to start all over again to pull them together 
because the biggest problem in the beginning was getting 
everybody together. And we also were not accorded, as testimony 
from our president of the convention stated, we were not 
accorded the financial, you know, remuneration to do so. So it 
really would take us back.
    Mrs. Christensen. Let me just ask the last question, and 
then you could----
    Mr. Bryan. Before you go to the last question----
    Mrs. Christensen. I am going to ask it, and you can answer 
both----
    Mr. Bryan. No. I want to explain the situation with the 
signatures because the signature document that originally was 
sent did not have all ten signatures in there. One of the 
delegates that didn't sign was Governor Charles Turnbull. He 
was the only delegate of the 11 that didn't. They sent seven 
signatures first, and then thereafter they submitted another 
page with 10 signatures, with individuals who were not even 
present, and even some who hardly attended the convention 
meetings. So it is to me when we do that, you are trying to say 
that if the Supreme Court renders a decision, before the courts 
follow or enforces a Supreme Court decision, it cannot change 
the Supreme Court decision until there is a Supreme Court 
majority again. What we are trying to make or suggest is that 
you allow the minority dissenters have an opportunity again to 
change what the 20 delegates did in the majority.
    Mrs. Christensen. I guess what I was trying to suggest is 
we could probably avoid a long, drawn-out court battle if the 
convention reconvened just simply, and those three areas, and 
at least reconsider them. Let me ask the last question.
    Dr. Hassell-Habtes. That is a possibility, Delegate 
Christensen. There is a possibility with that. I must say, you 
know, many of the delegates had discussed some component of 
that, knowing there would be major problems within some issues. 
So there is a possibility, yes.
    Mrs. Christensen. Let me ask the question. And I know that 
Mr. Emanuel and others might want to answer that first one. But 
I am just going to ask the last question, and you could answer 
both if you want to. I can kind of try to wrap it.
    This is our fifth try. I am one of those Virgin Islanders 
that want us to have a constitution. I want a constitution that 
will be able to garner the number of votes from the voters to 
have it pass. So do you feel that this document sent back as it 
has been sent to us, sent back without any changes, will pass? 
Because many people do not feel that way. And are you willing 
to take the risk of letting all of your hard work over these 
months, over a year, come to naught? That is my last question.
    Mr. Emanuel. Delegate Christensen, this time I got your 
name correct. That is a very important question. The crux of 
the matter is who are the people of the Virgin Islands. Who is 
the self in the self-determination? Because the Enabling 
legislation that was passed by the legislature said that this 
is a major step in a process of self determination.
    The problem I have and the problem that existed with the 
two previous conventions, the third and the fourth, is that the 
same requirements for voting in a regular election were applied 
to voting in constitutional referendum. And I don't know what 
this body feels, but I think that is an injustice. All of the 
historical background that I have submitted to this body 
clearly shows a singular thread that consists of a body of 
people in the Virgin Islands who have historically been denied 
their right to self-determination, their right to write a 
constitution, for hundreds of years.
    While that occurred, many people were allowed to migrate to 
the Virgin Islands. And the vast majority, who never had a 
chance to exercise this right, had absolutely no say in who 
came into the Virgin Islands, who was accorded citizenship, and 
now who is supposed to have the same right of those people who 
were historically denied a right to choose for themselves. Now 
everybody, the descendants of the colonizers as well as 
everybody else is mixed up in this pot and is supposed to make 
an act of self-determination?
    That is what Congress has to address. In my testimony, I 
said that--and this is in the written testimony--that we are 
not trying to abrogate U.S. sovereignty, but we would like to 
determine what the parameters of our status is. Justice can't 
do that. The President doesn't do that. The only legally 
authorized body within the United States to do that is the 
Congress. We are a creature of Congress. And I don't want to 
leave here without knowing what the sense of Congress is 
because everybody keeps saying this is unconstitutional, this 
is violating that law, this is violating this law. Congress 
makes the law. There is no other body that makes the laws. We 
need to hear from Congress. At least I would like to hear from 
Congress because everybody has an opinion but the only one that 
counts in terms of the territorial clause is the Congress of 
the United States.
    So the problem I have with going back or having any 
constitutional convention is who is going to vote. I testified 
before the United Nations in 1989, when you were boss as a 
commissioner on the status commission. That process was 
illegitimate because it allowed people to vote in that process 
who were not part of the people of the Virgin Islands as 
defined under international law. A resolution that was 
mentioned by my co-delegate, Adelbert Bryan, 35-118, requires 
the administering powers who have territories like the Virgin 
Islands to protect these territories from the disruption of 
their territorial integrity by the migration of outside 
settlers.
    The outside settlers doesn't just mean non-citizens. Anyone 
coming into this island territory is an outside settler. And 
when they come there, we have a very small electorate. 
Historically, they have affected all of our rights to self-
determination. They thwarted the Third Constitutional 
Convention. They thwarted what happened in the Fourth 
Constitution. And if allowed, that will happen in the Fifth. 
And that is the issue that we cannot run away from. It is not 
that the people of the Virgin Islands can't make a decision or 
our constitution will not be adopted. It is who legitimately 
and historically has the right to make that decision?
    I don't know of any person in Israel, any Jew, that would 
allow any descendant of a Nazi, whether he believed in the 
philosophy or not, to come and vote on the right of self-
determination of Jews. So why is it that the people of the 
Virgin Islands are supposed to be so accommodating and be held 
to a higher standard and let everybody else make a decision. 
That is wrong, and that is what this Congress has to address. 
This Congress has to address whether or not the people of the 
Virgin Islands, who Congress defined as those natives who were 
not citizens or subjects of any foreign country--those are the 
people that Congress made citizens in 1927. That is the group 
of people who has the inalienable right to exercise these 
things, and that is the group of people that should be the only 
ones voting on constitutions, dealing with political stuff.
    Until Congress addresses that pursuant to the United States 
obligation under the articles, under the charter of the United 
Nations, and on the resolution 1541, where this government has 
to respond annually to what it is doing to allow the people of 
the Virgin Islands--and when they say ``of,'' the people of the 
territories, they are not talking about visitors and transients 
and anybody who happens to come there. They are talking about 
the people who are involuntarily colonized.
    Mrs. Christensen. I hear your position. And I need to give 
the others a chance to just respond because we are running 
close to the end of the time.
    Dr. Petersen. Thank you, Delegate----
    Mrs. Christensen. Dr. Petersen, I will give you the last 
word. I am going to give you the last word.
    Dr. Petersen. I would like to address your thought about 
reconvening. And I don't believe that this--and I think you 
meant the current convention reconvening, right?
    Mrs. Christensen. Yes.
    Dr. Petersen. Yeah. I don't think this body of 30 could 
come to a conclusion different than it did because when you 
think about it, we actually spent over a year in actual time 
working on this. And we just keep going round and round. So I 
think we have exhausted all avenues.
    As far as one of the questions that was asked before about 
the difficulty in reaching the two-thirds majority, it was 
extremely difficult. I don't think anyone could deny that. You 
could look at the transcript and see that throughout the last 
few months of the convention, I noticed that every vote that 
was taken was anywhere like 12 to 13 or 15 to 10. It never got 
up to like a vast majority of the voted on any of the issues. 
And that sort of signaled to me that when it came to the final 
vote, that they were going to be pretty much split.
    And in actuality, it was pretty much split. Of the 25 
delegates that were there, 15 initially voted for it, and 5 
voted against, and there were 10 absent on the floor. And our 
rules required or allowed for telephone voting, and they 
contacted several of the other delegates and were able to get 
them to vote yes, 5 to vote yes to make the 20.
    Basically, what happened, the five that voted against, and 
then there were another five or absent or one or two 
abstentions, some of those that voted for it immediately the 
next day called and had quite buyer's remorse. They called me, 
they called several people, and they said, oh my God, how did I 
do this. Several of the other candidates that voted on the 
evening of the vote voted for it, in their two or three minutes 
that they had to talk about how they felt, expressed varying 
views as to why they were going to vote for it. They were 
against it, but they were voting for it because there had been, 
in the case of Governor Turnbull--had been in all five 
conventions, and this was possibly his last one, and he wanted 
to see a document go through, not that he agreed with it, but 
he wanted to see something, anything, come to the floor.
    Several of the other delegates that expressed buyer's 
remorse the next day said that they voted for it because they 
were sort of pressured or told that they were not true Virgin 
Islanders and just got elected because they were residents in 
the Virgin Islands. And they said, well, to hell with it, I 
will vote for it, just to give it to the people.
    Mrs. Christensen. I am going to have to stop there because 
the Chairwoman has been very, very patient.
    Dr. Petersen. Yes.
    Mrs. Christensen. Did you want to answer the question, 
Attorney Brady, if the Chair will allow? If you don't, I will 
go to Dr. Habtes.
    Mr. Brady. I don't have an answer.
    Dr. Hassell-Habtes. Thank you, Delegate Christensen. I am 
very, very concerned because we have worked too hard to give 
this Fifth Constitutional Convention up to just anybody. To 
tell you the truth, I honestly believe, Delegate Christensen 
and Madame Chair, I honestly believe that anything that we do 
with the people of the Virgin Islands on this constitution 
shouldn't just be sent back to them for a referendum. We have 
to educate them. Even up to my coming here for testimony, there 
were community members who called and said to me, that Organic 
Act that you all say is governing us, I have never seen it. I 
have never read it. And I would rather have the constitution 
than an Organic Act from 1936, revised in 1954. But that just 
tells me they never read it. They don't even know what is in 
there to have voted for four constitutional conventions to, you 
know, not have a constitution. And I really feel this is our 
time.
    If Congress feels that they need to send it back to the 
people, then that is what Congress should do. I really feel, 
however, that we should take some time with our people and 
educate them on the component parts. Don't just send it back. 
Anything that we do with our people--$500,000 was spent on an 
education campaign before the constitution even began. We 
didn't even get that amount toward the writing of the 
constitution. And I feel it has been a hard, strong struggle, 
and we cannot give it up. As our Chairperson of this committee 
said for Guam, at least get our foot in the door. At least get 
our foot in the door, and then we can do changes. Thank you.
    Mr. Bryan. But Delegate Christensen, could I have a minute, 
or less than a minute, please, to express something? Madame 
Chair, sorry. Excuse me. You know, I am hearing this number 
being playing around, whether it was 20 delegates out of 30. 
And I think 20 is representing two-thirds as opposed to the 
majority; 21 really. But in any event, in a five-four decision 
for the Supreme Court, that is still a majority. A nine-three 
decision for the Supreme Court is still a majority. What some 
of the delegates, individuals, are not looking at--this 
constitution--I don't know about Bryan or Mr. Brady or anybody 
sitting up there--is about the future generations of the Virgin 
Islanders. As an example, if Mr. Brady from Chile, as an 
example, son married to my daughter, a native Virgin Islander 
or an ancestral--or what grandchildren are qualified as native 
Virgin Islanders or ancestral native. If Mr. Modeste and 
Delegate Christensen from Antigua had some kids, moved to the 
Virgin Islands, have children born in the Virgin Islands, those 
children too are also native Virgin Islanders. And if they can 
check farther, they may find that one of their parents or 
grandparents was living in the Virgin Islands prior to 1927 and 
1932.
    So I am saying don't let us get caught up in the 
individuals here. Look at what is the future because when the 
United States wrote their Constitution, the Presidents before 
were not native Americans. They put a provision in there for 
future Presidents to be natural-born Americans. But he is still 
known even today as the President of the United States. Thank 
you.
    Ms. Bordallo. I thank all of the members of the second 
panel. I feel you have been giving us very valuable input on 
this. We have been able to hear a little background, who sits 
on the commission, how long you have worked on it and so forth. 
And that is going to be very, very important when Congress 
decides how we are going to go forward.
    So I want to thank you all very, very much. I truly did 
enjoy this, listening to it. And it just makes me think of back 
home because we have some of the same problems. We spent $10 
million over a period of 10 years trying to work on our 
commonwealth status, and now we are going to have to start over 
again because we dropped the ball for a few years, and it is 
something that we have just got to come to grips with. And I 
will repeat it again. That is what happened to Guam. We 
wouldn't compromise on some of the provisions. And the Federal 
Government--and we walked out, and it wasn't the right thing to 
do.
    I didn't walk out, but the Chairman did. So I just want to 
thank you all very much. And I work very closely with Dr. 
Christensen, and we will continue to do so.
    I want to thank you again. And as members of the 
Subcommittee may have some additional questions for you, we 
would like to ask you to respond to these in writing. The 
hearing record will be open for 10 additional days for any 
other information that we may want.
    So again, there being no further business----
    Mrs. Christensen. Madame Chair, we would still accept 
written testimony from residents of the Virgin Islands?
    Ms. Bordallo. Yes, that is correct.
    Mrs. Christensen. In that 10-day period?
    Ms. Bordallo. The hearing record will be open for 10 days. 
And if others that were not part of the panels today wish to 
send testimony, absolutely. They will be included.
    So there being no further business the Subcommittee, the 
Chair again thanks the members of the Subcommittee and all of 
our witnesses from both panel one and panel two. The 
Subcommittee now stands adjourned.
    [Whereupon, at 4:46 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
